<html>
<title> - THE CRUSADER ARTILLERY SYSTEM</title>
<body><pre>[Senate Hearing 107-804]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 107-804

                     THE CRUSADER ARTILLERY SYSTEM

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 16, 2002

                               __________

         Printed for the use of the Committee on Armed Services







                        U.S. GOVERNMENT PRINTING OFFICE
83-605 PDF                   WASHINGTON : 2003
---------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001


                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director
              Judith A. Ansley, Republican Staff Director

                                  (ii)









                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                     The Crusader Artillery System

                              may 16, 2002

                                                                   Page

Rumsfeld, Hon. Donald H., Secretary of Defense; Accompanied by 
  Hon. Paul D. Wolfowitz, Deputy Secretary of Defense; Hon. 
  Edward C. Aldridge, Under Secretary of Defense for Acquisition, 
  Technology, and Logistics; and Hon. Michael W. Wynne, Principal 
  Deputy, The Office of the Under Secretary for Acquistion, 
  Technology, and Logistics......................................    17
Shinseki, Gen. Eric K., USA, Chief of Staff, United States Army..    83

                                 (iii)

 
                     THE CRUSADER ARTILLERY SYSTEM

                              ----------                              


                         THURSDAY, MAY 16, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:39 p.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Byrd, Lieberman, 
Cleland, Landrieu, Reed, Akaka, E. Benjamin Nelson, Dayton, 
Bingaman, Warner, McCain, Smith, Inhofe, Santorum, Roberts, 
Hutchinson, Sessions, Collins, and Bunning.
    Committee staff member present: David S. Lyles, staff 
director.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Kenneth M. Crosswait, professional 
staff member; Evelyn N. Farkas, professional staff member; 
Maren Leed, professional staff member; Gerald J. Leeling, 
counsel; Peter K. Levine, general counsel; Michael McCord, 
professional staff member; Arun A. Seraphin, professional staff 
member; and Christina D. Still, professional staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Edward H. Edens IV, professional 
staff member; Gary M. Hall, professional staff member; Carolyn 
M. Hanna, professional staff member; Ambrose R. Hock, 
professional staff member; George W. Lauffer, professional 
staff member; Patricia L. Lewis, professional staff member; 
Thomas L. MacKenzie, professional staff member; Ann M. 
Mittermeyer, minority counsel; and Scott W. Stucky, minority 
counsel.
    Staff assistants present: Dara R. Alpert, Daniel K. 
Goldsmith, Andrew Kent, and Nicholas W. West.
    Committee members' assistants present: Brady King and 
Christina L. Martin, assistants to Senator Kennedy; B.G. Wright 
and Erik Raven, assistants to Senator Byrd; Frederick M. 
Downey, assistant to Senator Lieberman; Andrew Vanlandingham, 
assistant to Senator Cleland; Jeffrey S. Wiener, assistant to 
Senator Landrieu; Elizabeth King and Neil D. Campbell, 
assistants to Senator Reed; Davelyn Noelani Kalipi, assistant 
to Senator Akaka; William K. Sutey, assistant to Senator Bill 
Nelson; Eric Pierce, assistant to Senator Ben Nelson; William 
Todd Houchins, assistant to Senator Dayton; Benjamin L. 
Cassidy, assistant to Senator Warner; Christopher J. Paul, 
assistant to Senator McCain; Margaret Hemenway and Russell J. 
Thomasson, assistants to Senator Smith; John A. Bonsell, 
assistant to Senator Inhofe; George M. Bernier III, assistant 
to Senator Santorum; Robert Alan McCurry, assistant to Senator 
Roberts; Douglas Flanders, assistant to Senator Allard; James 
P. Dohoney, Jr. and Michele A. Traficante, assistants to 
Senator Hutchinson; Arch Galloway II, assistant to Senator 
Sessions; Kristine Fauser, assistant to Senator Collins; David 
Young and Derek Maurer, assistants to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. The Senate Armed Services Committee meets 
this afternoon to receive testimony on the Army's Crusader 
program from the Secretary of Defense and his staff and from 
the Chief of Staff of the Army.
    The Crusader advanced field artillery system has been under 
development since 1994 to be the Army's next generation self-
propelled howitzer and artillery resupply vehicle. Although 
there has been criticism of the Crusader program by some people 
outside of the Department of Defense, until recently, the 
civilian and military leadership of the Defense Department 
consistently and strongly supported the Crusader program in 
testimony before Congress.
    The fiscal year 2003 budget for the Department of Defense 
that President Bush submitted to Congress on February 4 of this 
year included $475 million in continued research and 
development funding for the Crusader program. On February 28, 
General Shinseki testified before Congress that ``Crusader's 
agility to keep up with our ground maneuver forces, its longer 
range, its high rate of fire, its precision, and the addition 
of Excalibur would bring the potential of a precision weapon 
with the platform and the munition being brought together and 
would be a significant increase to the potential shortage of 
fires that we have today.''
    Then he continued, ``Excalibur itself will not solve the 
problem, and Crusader is very much a part of our requirement.'' 
The bottom line, quoting General Shinseki's testimony to this 
committee on March 7, ``we need it,'' referring to the 
Crusader.
    Deputy Secretary of Defense Wolfowitz recently testified in 
response to a question of whether we need Crusader, ``I think 
we need some of it, a lot fewer than the Army had planned on. 
We have cut that program by almost two-thirds, and they have 
done a lot to cut the size and weight of the system, but I am 
not one of those people who think that I can bet the farm on 
not needing artillery 10 years from now, and I think Crusader 
is the best artillery system available.''
    Now, obviously something changed dramatically in the 
attitude of the senior civilian leadership of the Defense 
Department toward the Crusader program in the last few weeks. 
Change of course number one came in late April. The media 
reported and I was told that OSD would be reviewing the 
Crusader and other weapons systems during the program review 
process leading up to the fiscal year 2004 budget, and that a 
decision on the program would be made around September 1. That 
was documented in the recent Army IG report, which noted that 
prior to April 30, the defense guidance indicated the Crusader 
alternative study would be completed no later than September 
2002.
    Then came change of course number two. On May 2, Secretary 
Rumsfeld told the press that Deputy Secretary Wolfowitz and 
Under Secretary Aldridge had ``advised the Secretary of the 
Army that they wanted a study within 30 days that would look at 
a specific alternative that would assume Crusader was 
canceled.'' Secretary Rumsfeld went on to say that it was his 
impression that, ``when the study comes back a final decision 
would be made.''
    In other words, there would be no final decision until the 
30-day study announced on May 2, was completed. That same day, 
May 2, Under Secretary Aldridge also told the press, ``We'll 
brief the Deputy Secretary in 30 days, and then we'll make a 
decision, is this the right plan, or it may not be the right 
plan. We're allowing,'' he said, ``the Army to tell us if that 
is in fact the case, being as objective as possible, so we will 
have a basis for an analytical judgment based on rational and 
objective criteria.''
    Then less than a week later came change of course number 
three. On May 8, before the 30-day study was completed, 
Secretary Rumsfeld announced, ``After a good deal of 
consideration, I have decided to cancel the Crusader program.'' 
The Department of Defense has not provided us with any study 
based on rational and objective criteria to support this 
decision as of this time.
    The purpose of this afternoon's hearing is for the 
committee to examine the reasons behind the Secretary's 
decision to terminate the Crusader program, and the 
implications of this decision for the future modernization and 
combat capability of the Army. It is Congress' responsibility 
to determine whether we should proceed to develop, produce, and 
deploy Crusader. If the Crusader should not be built because 
the negatives outweigh the positives, then the fact that the 
Department of Defense followed what appears to have been a zig-
zag ad hoc decision-making process should not be allowed to 
distract us from the merits of their decision. I, for one, have 
not yet made up my mind on the merits. I will weigh both sides 
very carefully before I do.
    There seems to be no dispute that we have a requirement to 
address and identify a shortfall in the Army's organic indirect 
fire support. The Paladin cannot keep up with the Abrams tanks 
and the Bradley fighting vehicles, and the other combat systems 
the Paladin is supposed to support as part of the Army's heavy 
counterattack corps. There is no doubt that the Crusader's 
speed, accuracy, range, lethality, and embedded digital 
capabilities are superior to those of the Paladin it was 
designed to replace.
    Our focus this afternoon will be on two questions. First, 
what changed in the Department's view of the Crusader program, 
particularly in the last several weeks? Second, are the 
advantages and capabilities of Crusader sufficient to justify 
the costs? Can the proposed alternatives to the Crusader meet 
the Army's indirect fire support requirements and do so in a 
reasonable amount of time at an acceptable risk and at an 
affordable cost?
    This hearing will be unusual in that we expect the 
Secretary of Defense and the Chief of Staff of the Army to 
disagree on this important matter before us. There are several 
points I want to emphasize as we approach this disagreement. 
First, every witness this afternoon and every member of this 
committee has the same overall objective: ensuring that 
America's Armed Forces remain the best-equipped and most 
capable fighting force in the world. There is disagreement on 
the role of the Crusader artillery system in achieving that 
objective, but that should not obscure the fact that we are all 
working toward the same goal--everybody, every witness, and 
every member of this committee.
    Second, while Secretary Rumsfeld has the authority to 
change the administration's position and recommend that 
Congress terminate the Crusader program, Congress has an 
independent role under the Constitution to provide for the 
common defense. This committee, therefore, has a solemn 
responsibility to the Senate to review and analyze major 
defense programs and to render our best independent judgment on 
the importance of these programs to the capability of our Armed 
Forces to deter and, once engaged, to prevail in any future 
conflict.
    To carry out this responsibility, this committee must 
receive the best possible professional military advice. That is 
why we ask senior military officers who come before this 
committee for confirmation if they will commit to give the 
committee their personal views on issues, even if those views 
differ from the administration in office. Every senior military 
officer confirmed by this committee, in my memory, has promised 
to give the committee his or her best professional military 
judgment.
    In the case of the Crusader program, there appears to be an 
honest difference of opinion between the Secretary of Defense 
and the Army leadership. Where a difference of opinion exists, 
it is not only healthy, it is essential that it be aired. That 
will not undermine the civilian control of our Armed Forces 
that is so fundamental to our system of Government. After 
giving the Secretary and Congress his best professional 
military advice, I have no doubt that General Shinseki and his 
staff will carry out whatever decision is made. When military 
officers carry out a lawful order that they disagree with, 
their actions do not undermine the strength of the principles 
of civilian control over our Armed Forces. Those actions 
reinforce that principle.
    Finally, we will continue to transform the military 
services whether Crusader proceeds or not. As Chief of Staff of 
the Army, General Shinseki has been one of the most forceful 
and effective advocates of transformation within the Defense 
Department. In the process, he has earned the respect and the 
gratitude of the soldiers he leads, as well as those outside of 
the Army, who support his efforts to ensure that America's Army 
remains the premier ground combat force in the world.
    The committee will hear from two panels today. First, 
Secretary Rumsfeld will outline the reasons for his decision to 
recommend to Congress that we terminate the Crusader program. 
He is accompanied by Deputy Secretary of Defense Paul 
Wolfowitz, and Under Secretary of Defense for Acquisition, 
Technology, and Logistics, Pete Aldridge.
    After Secretary Rumsfeld has completed his testimony and 
responded to questions from members of the committee, we will 
hear from General Shinseki.
    Secretary Rumsfeld, I and the committee appreciate your 
being here on short notice with the kind of very crowded 
schedule that you have. We very much appreciate you coming, but 
before we call upon you, let me call upon our ranking member, 
Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I join you in 
welcoming this panel and the next panel of witnesses.
    Mr. Chairman, you stated that you are of an open mind and 
I, too, have remained of an open mind. We have an obligation to 
this committee and to the Senate as a whole to compile a 
complete record. In our discussions, as we have done these many 
years that we have served together on this committee, we 
decided, I believe, that we would make an assessment at the end 
of this day with regard to the testimony to make certain that 
this record is complete in our judgment and the judgments of 
our colleagues. Although at this point in time I would not 
endeavor to predict, we may have to have an additional hearing. 
If I felt it necessary, I would so recommend to my 
distinguished chairman.
    Mr. Chairman, I will not take the full allocation of my 
time. I would like to share it with our colleague from 
Oklahoma, who has from the earliest of times distinguished 
himself on this program and, indeed, other programs of the 
Army. I will say a few more remarks and then share my time with 
him, Senator Inhofe.
    Mr. Secretary, how well you and I know, having worked 
together many years, that Congress is your partner as Secretary 
of Defense, your full partner, and, hopefully, your supporting 
partner. But those of us, who have been part of this process, 
the Chairman and I for almost a quarter of a century on this 
committee, we are concerned about the procedures followed in 
this instance.
    As required, we take the President's budget, accept that on 
its face, follow it with hearings, followed by our committee 
markup and then the Senate floor debate. For this decision to 
have intervened right in the middle of that process makes it 
somewhat difficult for us, but we will have to handle it as 
best we can, because we are where we are today.
    I went back and researched the attempt to cancel the V-22, 
the Marine tilt-rotor program, wherein my recollection is that 
it is the most recent example of a comparable magnitude of 
importance, but I point out there the President adjusted his 
budget to reflect the termination of that program. The 
testimony of the then-Secretary of Defense supported that 
readjustment, and, therefore, Congress had its opportunity to 
inject its own views, but the budget process was quite orderly.
    I am going to work very diligently to resolve such problems 
that may continue, following these hearings. We will at some 
point in time have a markup for the purpose of a committee 
amendment, and the Senator from Oklahoma and perhaps others 
will have suggestions with regard to an amendment or amendments 
to reflect the outcome of these hearings.
    Speaking for myself, I will work diligently to avoid the 
problems that we incurred in the tilt-rotor V-22 program, 
namely where Congress became embroiled with the administration 
under the Impoundment Act. That, I think, would be a 
disservice, and I will work hard and hopefully with others to 
avoid that.
    In our markup, we put in the $476 million for the Crusader 
system, which was the presidential request. I think the 
committee acted quite properly in doing so, because that mark 
and entry was consistent with the testimony which the Chairman 
has recited, and the facts that were then before the Airland 
Subcommittee and the full committee. I think the mark stands 
for itself, but it should not at this point in time be 
construed as any final action. As I have said, this committee 
will have a budget amendment and then we will have floor 
action.
    Chairman Levin. May have a budget amendment.
    Senator Warner. May have a budget amendment.
    Mr. Chairman, I also ask unanimous consent that the 
articles that appeared in the Washington Post today by the 
distinguished Secretary of Defense and the former Chief of 
Staff be made a part of today's record following my statement.
    Chairman Levin. They will be made a part of the record.
    [The information referred to follows:]
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Thank you, Mr. Chairman. Secretary Rumsfeld, Deputy Secretary 
Wolfowitz, and Under Secretary Aldridge, thank you for appearing before 
us today.
    The committee meets today under very unusual circumstances. On the 
February 4, the President released the details of his fiscal year 2003 
Department of Defense budget proposal ``to fight the war against 
terrorism, provide for homeland defense and accelerate changes to 
transform the U.S. military.'' Included in the President's defense 
budget was a $476 million request for the Crusader--the Army's next 
generation field artillery system. Now, just 3 months after the Defense 
budget request was submitted to Congress, Secretary Rumsfeld has 
announced the cancellation of the Crusader program.
    The most recent example we have of the Department attempting to 
cancel a major weapon system was in the late 1980s with the V-22. 
However, that decision to terminate was made prior to, and documented 
in, the administration's fiscal year 1990 budget request. As much as 
Congress disagreed with the decision to terminate the V-22, the 
decision was consistent with testimony provided by senior 
administration officials of the time. In the case of Crusader, at this 
point, we have simply not received sufficient information. We look to 
you to provide us with that information.
    Secretary Rumsfeld, I have great respect for you and great 
confidence in your performance as Secretary of Defense. I do not 
question your authority to make the decision to terminate Crusader, or 
any other program. In fact, it is your responsibility to ensure that 
the Department invests wisely in programs that ensure that America's 
armed services remain the best equipped and most capable fighting force 
in the world. Congress, and especially this committee, has the same 
goal.
    However, I have real concerns with the process that was used in 
reaching the decision to terminate the Crusader program. There are real 
concerns in Congress that the Army was not more of a partner in the 
process leading up to this decision and that there has not been a 
thorough analysis of alternatives for Crusader. We give you this 
opportunity today to address these concerns and set the record 
straight.
    On May 9, the Senate Armed Services Committee completed its markup 
of the fiscal year 2003 defense authorization bill. Included in our 
markup was our recommendation to support the President's request of 
$476 million for the Crusader system. This committee did not take that 
action lightly. We acted consistent with the information that was 
before Congress of the United States, testimony--supportive of 
Crusader--that was provided in hearings before the four defense 
committees, and the budget sent up by the President of the United 
States. It is this committee's understanding that the Crusader program 
is on schedule, within budget, compliant with many of the key 
performance parameters, and on an executable path to the next phase of 
development. We look to you for clarification.
    We may disagree with the way we arrived at this point, but we are 
where we are. What we need now is to hear the facts--facts upon which 
to make a decision regarding the Crusader program.
    Thank you.

    Senator Warner. I yield the balance of my time to my 
colleague from Oklahoma.
    Senator Inhofe. First of all, let me thank Senator Warner 
for doing that. You only used 4 minutes, and that does leave me 
more time than I really need. The main reason for that, Mr. 
Chairman, is that I marked off the things that I was going to 
say that you said, and that dramatically shortened my 
presentation.
    I think also, as far as the process is concerned, there 
will be enough Members up here who found it to be offensive, 
and I am sure some on the panel believe it to be offensive too, 
so I will not cover that.
    It was just 3 short months ago that this committee began 
hearing testimony from Pentagon officials, both the uniformed 
and others, on the 2003 budget request that came from the 
President. At that time, the Crusader artillery system that 
began development in 1994 was fully funded in the President's 
budget, it was strongly supported by the U.S. Army, it was 
within cost, on schedule, and it met or exceeded the 
performance requirements.
    Now, we all know what the AOA is, the analysis of 
alternatives. That is to say, we are not really analyzing the 
Crusader, we are analyzing what will be there if we do not have 
the Crusader. That was scheduled to take place in February. The 
results were supposed to be there, and at that time we would 
have information as to what we would be looking at. We know 
that it would be a long, involved process, and we know why it 
takes so long to complete. Again, we do not need the analysis 
to reexamine the Crusader. We need the analysis of alternatives 
that have been presented by DOD.
    Starting in February, this committee received countless 
testimonies about the relevance of the Crusader system, the 
benefits that it would bring, and the fact that it was an 
integral part of the transformation. This is very important, 
because people talk about it being a relic of the Cold War, 
something out of the past. This is a part of the transformation 
of the Army. We have heard the testimonies from the Secretary 
of the Army, the Under Secretary of the Army, the Chief of 
Staff, the Vice Chief of Staff, the Deputy Secretary of 
Defense, the Secretary of Defense, several of the CINCs, and we 
have a lot of quotations. Some of the quotations that I was 
going to use were already used by the Chairman. I appreciate 
that very much.
    But insofar as its applicability in the current war today, 
Secretary White said on March 6, ``we had had it in Afghanistan 
today, we would not have to worry about the mortars that have 
been causing casualties in the 101st on that battlefield; so I 
am foursquare behind it.''
    General Shinseki, who will be on our second panel, in the 
same hearing, after commending the systems, the programmers 
after two downsizings of both the crew and the weight, said 
something important. He said that technology is what we need to 
continue to develop so that in years ahead, as we go to 
Objective Force capability, we can transition this into robotic 
systems that we are looking at. In other words, this is an 
integral part of the transition to the Objective Force.
    Under Secretary Brownlee said he was adding this to General 
Keane's statement: ``I want to add one point. I think Jack has 
covered it very well, except one point, and that is that there 
were cases due to weather when the aircraft were limited in 
what they could do. Artillery is not limited by weather.''
    Now, General Keane followed up and said it was 50 percent 
of the time in the last battle they had challenges in the 
weather so that we could not use the close air support, and 
again you do not have that problem when you are talking about 
an artillery piece.
    I have taken the liberty--and maybe some of the other 
members have, too--but I have called some top uniformed 
military officers to see what part they played in this 
decision. I called: the Chairman of the Joint Chiefs of Staff, 
General Myers; the Vice Chairman of the Joint Chiefs, General 
Pace; Chief of Staff of the United States Army, General 
Shinseki; Vice Chief of Staff of the Army, General Keane; 
several CINCs, including the immediate past and current 
Commander in Chief in Korea, General Schwartz and General 
LaPorte.
    I asked each one of them one question: were you consulted 
about the decision to cancel Crusader, and did you know of the 
decision prior to May 8? Each answered, no. Mr. Chairman, none 
of these men, not one, was consulted about this decision. Not 
one was aware of the decision before it was made. They were in 
the same situation as we, the Members of Congress were. Mr. 
Chairman, I thought the Goldwater-Nichols Act was supposed to 
take care of this type of thing.
    The last thing that I doubt very seriously many members of 
this committee are familiar with, and it is perhaps the most 
important thing, and that is: what is the true cost that we are 
looking at today? We have two alternatives. Either we go to the 
AOA--that is going to be 10 months from now--that is when we 
will be in a position to take the time necessary to be 
deliberate and analyze the alternatives, or not to do that and 
to go ahead and cancel.
    By not consulting and analyzing this decision thoroughly, 
the DOD has failed to produce the analysis needed to look at 
the ultimate cost of this decision. The Department has not been 
able to show the cost estimates to accelerate the programs that 
have been mentioned as alternatives. No cost estimates have 
been presented to terminate the existing program. No cost 
estimates have been presented to upgrade the Paladin. No 
analysis has been presented as to the cancellation of the 
Crusader, and what it would have on other systems. For example, 
they use the same engine in the Abrams. They have a common 
engine. Obviously, that would have to go up.
    I will quote what was said on May 13 in an article in 
Inside the Army, by Assistant Secretary of the Army for 
Acquisition and Technology, Claude Bolton. He stated, ``Most 
programs I have looked at over the last 25 years, big programs 
that have been canceled, if you are lucky, you break even.''
    What we are saying is, we have taken the time to try to 
determine just the cost of termination, none of the other 
things. The best that we can come up with, and this is talking 
to the program managers, in UDLP, was the estimated cost to 
terminate this program would be somewhere between $350 million 
and $520 million.
    Now, here is the key. I think it is very important for us 
to understand this. If we go to the AOA, there will be no cost. 
It will be zero, zero termination costs. I believe we may end 
up not saving a dime by canceling the Crusader before Milestone 
B, but I know we will be depriving the decisionmakers of the 
analysis they should have to make the decision. What we are 
saying is, we probably now have a free ride for the next 10 
months. There is no $475 million to reprogram.
    Lastly please put that chart up if you would.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Inhofe. Let us all make sure we understand what 
this chart is. It is very significant. If you look at the far 
left side, you are talking about the Paladin. That is what we 
have today. That is what we have had for many, many years.
    If you look at the top, that is the Crusader. Then if you 
go on both sides you are talking about range, and you are 
talking about rapid fire. If you look between the Crusader and 
the Paladin there are four systems manufactured in four 
different countries. The best of those systems is one 
manufactured in Germany called PH 2000. I have been to Germany. 
I have seen it working. It cannot hold a candle to our 
Crusader.
    Now, this is what it means. If we try to make ourselves 
believe that we can replace that with an Excalibur, the 
Excalibur has to be shot out of a gun. It is either going to be 
the Paladin or it is going to be the Crusader. If it is the 
Crusader, it will have a greater range, but, by and large, you 
are still going to be using artillery shells.
    The cost of firing one Excalibur is estimated to be about 
$200,000. The cost of one shell is going to be approximately 
$200. In other words, you fire a thousand of those for every 
one Excalibur. The same argument can be used with the other 
systems, so I hope we will look at that.
    What we are saying is that if we do not continue at least 
considering, up to the point of our analysis, the Crusader, we 
are saying that we are willing to send our kids, our young 
troops into the battlefield on the ground with inferior 
equipment. Mr. Chairman, I appreciate this very much, the 
opportunity to have these opening statements.
    Let me just remind you that this is about my amendment. All 
my amendment does is not continue the program, but merely takes 
it to the analysis of alternatives, at which time we will know 
and it will not cost a dime to get there.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    At this point, I will insert into the record the statements 
of Senators Landrieu, Thurmond, Santorum, and Bunning.
    [The prepared statements of Senators Landrieu, Thurmond, 
Santorum, and Bunning follow:]
             Prepared Statement by Senator Mary L. Landrieu
    I will keep my comments brief. I would like to thank the chairman 
and the ranking member for calling this hearing. I would also like to 
welcome and thank Secretary Rumsfeld and all of our witnesses for 
appearing before the committee.
    My view of the Crusader program is consistent for most military 
programs and follows three basic paths. First, the program must 
epitomize the transformation process of the service. Asking this 
question has become critical to how we fight a war and how we train to 
fight a war--is the crusader howitzer a contributor to a lighter, 
leaner, more versatile Army? Secretary Rumsfeld has indicated that it 
does not meet his litmus test for transformation, and with $2 billion 
invested and an expected $9 billion left to spend, we would go down a 
very expensive road to a dead end, if we do not determine a thoughtful 
answer to that question.
    The second path is one of grave concern for the process which leads 
us to this point of abruptly cutting a program in the middle of the 
mark up. This program is not due to reach Milestone B until April 2003. 
Maybe, then would be a more logical time to evaluate whether this is 
the right program for the Army? I have always been an avid supporter of 
technology from the test and evaluation phase through the 
implementation or deployment phase. My concern lies with whether we 
have the right vessel to ensure an orderly, timely, transition between 
the early phases of Science and Technology and Research and 
Development, and the later phases of prototyping, fielding, and 
production.
    The third path that influences my every thought of military 
programs is whether we are determining first what matters to the war 
fighter. We have so much data from the war on terrorism which can now 
be incorporated to improve the ways we do business in all the services. 
Let's make sure we're not making a decision hastily or without the 
important input of those in the field.
    All of these cautions I address because I don't want to find us 
another 6 years down the road asking the same questions on a different 
program, or worse, the same program with little progress and a big bite 
of taxpayer dollars swallowed and digested.
    I'd like to close my statement with a quote from General Douglas 
MacArthur, which I hope applies to the Department's gear shifting: ``We 
are not retreating--we are advancing in another direction.''
                                 ______
                                 
              Prepared Statement by Senator Strom Thurmond
    Mr. Chairman, I join you and Senator Warner in welcoming Secretary 
of Defense Rumsfeld, Deputy Secretary of Defense Wolfowitz, Secretary 
Aldridge, and General Shinseki. I have no doubt that this group will 
provide us valuable information on the Crusader artillery system, at 
the same time I am concerned that we do not have third party 
representation to discuss the merits of the Crusader. Although at this 
point, I intend to support the President and hope that before the 
committee votes on any amendment regarding this weapon system, we will 
have the opportunity to get additional views. Our task is to ensure we 
provide for National Security and, therefore, we must not make a hasty 
decision. We should allow the time to hear all the issues before we 
make the critical decision on whether or not to cancel the Crusader 
artillery system.
    Mr. Chairman, my concern on this matter is not the merit of the 
Crusader, but the process used to decide to terminate the program. The 
President in his budget request included $435 million for the Crusader. 
He included this level of funding despite earlier concerns about the 
system. In fact, several panels that conducted the strategic review 
directed by Secretary Rumsfeld recommended that the Crusader program be 
canceled. We must assume that the office of the Secretary of Defense 
considered all the pros and cons of the system before it recommended 
the funding level in the budget. What has changed since the budget was 
submitted? There certainly wasn't sufficient time to do a thorough 
analysis. By all accounts, Crusader is within the funding profile 
established for the program and the Army is working to reduce its 
weight to make it more deployable. Yet, with a late evening phone call 
the Department announces that the program will be terminated. I don't 
agree with such a process. The system may not be necessary, but there 
is a proper process to reach such a conclusion.
    Thank you, Mr. Chairman.
                                 ______
                                 
              Prepared Statement by Senator Rick Santorum
    Chairman Levin and Senator Warner, thank you for convening this 
hearing and for inviting witnesses who can best address the decision to 
terminate the Department of the Army's next genereation self-propelled 
howitzer, the Crusader. I look forward to hearing the testimony of 
Secretary Rumsfeld and General Shinseki on the process that led to the 
decision to terminate Crusader.
    The Senate Committee on Armed Services has historically given 
strong support to the Army's development of the Crusader self-propelled 
howitzer. Let me be clear, this issue that the committee is examining 
is not about the inadequacies or deficiencies of the Crusader; rather 
it is about the lack of resources available to the Army and the hard 
choices that must follow.
    The Crusader advanced field artillery system was conceived to be 
the Army's next generation self-propelled howitzer and artillery 
resupply vehicle. The Crusader was to offer increased capability in the 
areas of lethality, mobility, survivability, resupply, command and 
control and sustainablility over the current Paladin field artillery 
system. However, even after an aggressive redesign and weight reduction 
initiative, the Crusader, now projected to weigh 40 tons, is too heavy 
for C-130 transport, a criterion established by the Chief for the 
Interim Brigade Combat Teams and the Future Combat Systems. The Army's 
most recent plan called for purchasing 480 Crusaders at a cost of $11 
billion.
    I do want to state for the record that the decision made by the 
Office of the Secretary of Defense to terminate Crusader could not have 
come at a more difficult time for this committee. Members of the 
committee first learned of activity concerning the future of the 
Crusader just days before we began marking up the Fiscal Year 2003 
National Defense Authorization Act. Then, as the members were drawing 
to a close their deliberations on the committee's bill, we received 
notification from the Office of Management and Budget that the 
President's fiscal year 2003 request was being amended. We learned that 
the $475 million requested for Crusader would now be applied to other 
``transformational'' Army programs and that the committee would be 
notified later in May on where those monies would be applied. I would 
hope that the Department of Defense would take a different approach in 
the future and provide greater advance notice of such decisions.
    With respect to the issue at hand, I have concerns with actions 
taken by the Office of the Secretary of Defense and the Department of 
the Army. Members of this committee commend General Shinseki for his 
efforts to transform the Army. The need to transform the Army was 
something that Senator Lieberman and I raised with the Chief prior to 
his confirmation hearing by this committee. To his credit, the Chief 
answered this call and unveiled an ambitious transformation strategy in 
October 1999. The Chief's vision includes modernizing our Legacy Force, 
fielding a new Interim Force, and investing in an Objective Force. 
While General Shinseki noted the need to transform the service to 
better address 21st century threats, he did so by electing to procure 
costly ``off-the-shelf'' equipment.
    Knowing the costs associated with these three goals, Senator 
Lieberman and I crafted bill language that would have required the Army 
to conduct a side-by-side test with new equipment (purchased for the 
Interim Force) against equipment already in the Army's inventory. Our 
goal was to make sure the Army invested its resources in modernizing 
the Legacy Force and made critical investments in the technologies to 
support the Objective Force. In our view, purchasing new equipment for 
the Interim Force had the potential to divert critical resources away 
from the Legacy Force and the Objective Force.
    The Army has committed to buying new equipment--at $1.5 billion per 
brigade-- to support six Interim Bridage Combat Teams at a total cost 
of $10 billion. These are funds that could have been applied to 
procuring the Crusader self-propelled howitzer. Regrettably, the hard 
choices facing the Army don't end here as the Future Combat Systems--
the main platforms of the Objective Force--come on line in 2008, with 
the Comanche helicopter following closely in 2009.
    Based on historical numbers, there is little reason to expect the 
Department of Defense will support a massive increase in the budget 
authority for the Army. This perception was made evident to members of 
the committee when General Shinseki first brought forward his desire to 
transform the Army into a strategically relevant fighting force. By all 
accounts, General Shinseki was told by then-Secretary of Defense 
William Cohen that he would receive no additional funds to support this 
initiative, but was expected to self-finance his revolutionary effort. 
Since there was no direct increase in the Army's budget to support 
transformation, program terminations and restructurings were required.
    By way of example, 2 years ago the Army was forced to cancel 
several programs--such as the Grizzly Engineer Vehicle, Command and 
Control Vehicle, Stinger Block II Missile, Army Tactical Missile System 
Block IIA, and Wolverine Heavy Assault Bridge--so that the Army could 
self-finance the Chief's vision. For fiscal year 2003 the Army was 
forced to terminate another 18 programs to pay for transformation 
activities. Furthermore, this year, despite a nearly $50 billion 
increase in Department of Defense budget authority, the Department of 
the Army has submitted a list of unfunded programs totaling $9.5 
billion in funding.
    The Office of the Secretary of Defense and the leadership in the 
Army must begin to work together to address these critical funding 
issues and help achieve an understanding on how the service will 
prioritize its needs to maintain the Legacy Force and transition to the 
Objective Force. Unless they do so, this committee and Congress will 
continue to deal with funding crises such as we are experiencing with 
Crusader.
    Again, thank you Senator Levin and Senator Warner, and I look 
forward to the testimony of our witnesses.
                                 ______
                                 
               Prepared Statement by Senator Jim Bunning
    Mr Rumsfeld, I can't tell you how proud I am of the magnificent 
work that our military is doing in fighting the current war on terror. 
The American people are also very grateful for the sacrifices made by 
our men and women in uniform.
    I am deeply troubled with the perception that we have here in 
Congress in how the decision to cancel the Crusader was carried out. I 
support the President and the policies of his administration, but I 
cannot allow this administration or any other to abrogate the process 
set forth in our Constitution.
    Mr. Secretary, many people from your department, the Army 
Secretary, the Army Chief of Staff, and the Combatant Commanders have 
personally appeared before this committee and stated that there was a 
significant need for the Crusader weapon system. The President's budget 
funded Crusader. With respect to Crusader, there appears to be almost 
no relationship between the submitted budget, testimony before this and 
other committees, and this decision. Now, I applaud the President for 
his vision to transform the military; however, this is not the way to 
go about it. How do you expect Congress to sponsor transformation 
without consulting with Congress?
    If this is how the administration plans to go about transformation, 
then it is probably time for Congress to consider legislation that is 
necessary to facilitate and promote transformation. I can assure you 
that DOD transformation will only occur with the support of Congress. 
It is absolutely arrogant to think it will occur any other way.

    Chairman Levin. Secretary Rumsfeld, please proceed.

  STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF DEFENSE; 
  ACCOMPANIED BY HON. PAUL D. WOLFOWITZ, DEPUTY SECRETARY OF 
 DEFENSE; HON. EDWARD C. ALDRIDGE, UNDER SECRETARY OF DEFENSE 
FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS; AND HON. MICHAEL W. 
WYNNE, PRINCIPAL DEPUTY, THE OFFICE OF THE UNDER SECRETARY FOR 
             ACQUISTION, TECHNOLOGY, AND LOGISTICS

    Secretary Rumsfeld. Thank you, Mr. Chairman and Senator 
Warner for your comments. Senator Inhofe, I certainly recognize 
the interest you have shown in the Army and artillery and 
commend you for it, and I certainly thank all of you for the 
opportunity to discuss the Department's recommendation to 
terminate the Crusader program, to continue some of the 
Crusader technologies, and to move funds to technologies and 
programs that we believe will better serve the country.
    President Bush has said, ``I expect the military's 
priorities to match our strategic vision, not the particular 
visions of the services, but a joint vision for change. I will 
direct the Secretary of Defense to allocate these funds to new 
programs that do so. I intend to force new thinking and hard 
choices.''
    That statement was not made in the context of the Crusader 
decision. It was made as Governor of Texas at the Citadel back 
in September of 1999, and he told the American people what he 
planned, and we are purposefully pursuing that goal.
    On that day in 1999, the President warned, ``We are 
witnessing a revolution in the technology of war. Power is 
increasingly defined not by size,'' he said, ``but by mobility 
and swiftness. Influence is measured in information; safety is 
gained in stealth, and forces are projected on the long arc of 
precision-guided weapons.''
    What took so long to put structure behind the President's 
vision, a vision he laid out plainly for all to see, and a 
vision I discussed with this committee during my confirmation 
hearings in January of 2001? I remember the clamor throughout 
2001 and into this year to get on with the tough decisions, as 
though transformation of our Armed Forces could be measured in 
terms of which programs were killed and how fast it was done.
    In testimony before this committee, I said we would engage 
our brains before engaging the taxpayer's pocketbooks. We said 
we would be deliberate, not rushed, and that we preferred to 
get it right. The decision to recommend termination of the 
Crusader was not reached precipitously, as some recent 
commentary has suggested, but after months of review, wide-
ranging discussion and in-depth planning and analysis, a review 
not just of the Crusader program, but of future capabilities, 
of the strategy to guide us, and of the framework for assessing 
and balancing risks.
    The senior leaders of this Department, military and 
civilian, service chiefs, service secretaries, the Chairman, 
the Vice Chairman, the Under Secretary, and I spent countless 
hours--I have not bothered to add them up, but it was day after 
day after day, several hours a day--discussing strategies, 
capabilities, threats, and risks, and that process started well 
before September 11. Tragically, September 11 confirmed many of 
our conclusions. I will recount some of that process so that 
the proper context for the Crusader decision can be better 
understood.
    President Bush shaped the context, the direction of that 
process in those remarks at the Citadel. He talked about an era 
of proliferation of missile technology and weapons of mass 
destruction, an era of car-bombers, plutonium merchants, of 
cyber terrorists and dictators. He cautioned of barbarism 
emboldened by technology. These challenges, he said, can be 
overcome, but they cannot be ignored. The best way to keep the 
peace is to redefine war on our terms. We must shape the future 
with new concepts, new strategies, and new resolve.
    If elected, he said, he would initiate a comprehensive 
review of our military, the state of its strategy, the 
priorities of procurement. He talked about the opportunities to 
skip a generation of technology. In the future, he said, we may 
not have months to transport massive divisions to waiting 
bases, or to build new infrastructure on-site.
    He said, our forces in the next century must be agile, 
lethal, readily deployable, and require a minimum of logistical 
support. We must be able to project power over long distances 
in days or weeks, rather than months. Our military must be able 
to identify targets by a variety of means, from marine patrol 
to a satellite, and then be able to destroy those targets 
almost instantly with an array of weapons.
    On land, our heavy forces must be lighter. Our light forces 
must be more lethal. All must be easier to deploy, and these 
forces must be organized in smaller, more agile formations.
    Still later, he spoke of emerging threats, and reinforced 
the need to prepare for the future, keeping America safe, he 
said, is a challenge that is well within our reach if we will 
work together to shape the budgets, the programs, strategies, 
and force structures necessary to meet the threats we face and 
those that are emerging.
    It was a direction and an urgency that I underscored in my 
testimony before this committee last June 21, warning that the 
new technology of war is advancing not in decades but in months 
and years and that we must take advantage of the time we have 
to prepare for the challenges we are sure to face in the years 
ahead.
    Last year, we began to put that thinking into action. Last 
May, the Department's senior leadership, civilian and military, 
began intensive discussions about where America's military 
should go in the years ahead, and we agreed on the need for 
real changes in U.S. defense strategies. The outline of those 
changes is reflected in the Quadrennial Defense Review. Among 
the new directions set in the QDR, the following are perhaps 
the most important.
    First, we moved away from the two-major-theater war 
planning construct which called for maintaining forces capable 
of nearly simultaneous marching on and occupying the capitals 
of two regional adversaries and changing regimes. Today's new 
approach emphasizes deterrence in four critical spheres, backed 
by the ability to swiftly defeat two aggressors in the same 
time frame while preserving the option for one major offensive 
to occupy an aggressor's capital and replace the regime. It 
calls for the ability to execute several lesser contingencies 
as well. By making this adjustment, we gained more flexibility 
in planning for a wider array of contingencies, and we gained 
flexibility for investing in the future.
    Second, the senior civilian and military leaders agreed on 
the new framework for assessing risk. We agreed that we could 
not judge a program simply by how it addressed near-term 
warfighting risks. A new framework was required, one that would 
put other types of risks up on the table as well. We identified 
four such categories of risk.
    First, force management risks, which concern how we sustain 
our people, our equipment, and our infrastructure.
    Second, operational risks, which concern the ability of 
forces to accomplish the missions called for in the near-term 
military plans. Third, future challenge risks which addresses 
the investments and changes needed to permit us to meet 
military challenges in the mid- to more-distant future. Last, 
institutional risks, which involves inefficient processes and 
excessive support requirements that hinder our ability to use 
our resources efficiently.
    The approach we adopted sought to balance those various 
risks in all of those categories and to avoid the extreme 
solutions that would lower risks in some areas while raising 
other risks to unacceptable levels. That is not easy to do. It 
is very difficult to do. It is very easy to balance the 
Paladin, for example, against the Crusader. It is quite a 
different thing to balance that question, that issue, if you 
will, against health care or pay to maintain the force that we 
need to attract and retain, against transformation, the need to 
invest for the future.
    The Department does apples-to-apples balancing of risks 
rather well. Historically, the Department has not done very 
well in balancing the different types of risks, the four types 
that I have just characterized. While it is understandable and 
expected that reasonable people may differ on specific 
decisions regarding a given investment or a budgetary decision, 
it is critically important to understand the need to balance 
among those difference categories of risks that we confront 
today, because it bears directly on the Crusader decision.
    Third, to contend with a world of surprise and uncertainty, 
we are shifting our planning from a threat-based model, the 
misguided DOD thinking in the past, to a capabilities-based 
model for the future. We cannot know precisely who may threaten 
us or when, or where, but we can know what sort of capabilities 
we may be threatened with, and how, and we can also determine 
which capabilities we are most likely to provide with the 
important new advantages.
    Fourth, to support our capabilities-based approach to force 
planning, we worked to focus transformation efforts by defining 
goals. Historically, successful cases of transformation have 
occurred in the face of compelling strategic and operational 
challenges.
    As the President foresaw, U.S. ground forces must be 
lighter, more lethal, and highly mobile. They must be capable 
of insertion far from traditional ports and air bases. They 
must be networked to leverage the synergy that comes from 
combining ground maneuver forces with long-range precision 
firing. Air forces, manned and unmanned, must be able to locate 
and track mobile targets persistently over vast areas, and 
strike rapidly at long range without warning.
    The point is not to substitute air power for ground power, 
as some critics have demanded. Instead, it is the asymmetric 
opportunity that comes from integrating ground, air, maritime, 
and space capabilities in a networked web of forces. Today, 
forces are operating jointly in ways that were unimaginable 
before the information and telecommunications revolution.
    The fiscal year 2003 budget request before you now draws 
from many of the things we learned in developing the 
Quadrennial Defense Review. Developing defense systems against 
asymmetric threats are one area that we have provided an 
increase in that budget. A second is accelerating the field of 
unmanned aerial vehicles. A third is converting Trident 
submarines to conduct new missions. A fourth is developing 
advanced communications, including laser communications to 
deliver fiber optics-quality broadband to U.S. forces. Next is 
accelerating introduction of near real time secure and joint 
data links, and, last, accelerating the field of a variety of 
new precision munitions.
    These leveraging investments in surveillance, 
reconnaissance, integration, networking, and precision strike 
are signposts of the future transformation of the force.
    There are a number of new transformation starts in this 
budget, most of which will not reach fruition within the 
planning horizon of 2009. As new transformation initiatives 
mature, we have to be prepared to make adjustments in programs 
to take advantage of successes, and we have to be willing to 
move beyond those of less interest as time passes. In doing so, 
we need to balance between the need to be ready for war 
tomorrow, which is important, and also the need to be prepared 
for future wars.
    As part of this transformation effort, we are taking steps 
to shift the balance of weapons inventory to emphasize 
precision weapons, weapons that are precise in time, space, and 
in their effects. In that regard, the Department is developing 
a range of new conventional precision and miniature munitions 
for attacking mobile targets, targets in dense urban areas, and 
for defeating chemical and biological weapons.
    Resources are always finite. Tough choices have to be made. 
Such choices are generally not made between good and bad, or 
needed and not-needed, or even between what is wanted and not-
wanted. Tough choices are made at the margin, often between 
programs that are both desirable, and both wanted, but 
nonetheless, choices have to be made, and the American people 
know that. They make choices every day. It is not whether some 
thing is good, or nice, or wanted. It is a question of what 
choice is best when resources are finite.
    Also, this year's defense budget increase is the largest in 
a long time. Virtually the entire increase was spoken for, to 
cover inflation, must-pay bills for health care and pay raises, 
to correct unrealistic costing of readiness and procurement 
from past budgets, and funding the global war on terror. Some 
$9.3 billion in resources has been shifted by terminating a 
number of programs. Major terminations included the DD-21 
destroyer program, which has been replaced by a restructured 
DD(X) that will develop a new family of service combatants with 
revolutionary improvements in stealth propulsion and other 
technologies.
    As we put together the fiscal 2003 budget that is now 
before you, many major programs, including Crusader, required 
review. As I have described, most of last year was spent 
developing the strategic framework within which to consider 
individual programs against required capabilities.
    This February, we began developing the Defense Planning 
Guidance for fiscal year 2004 budget, and the fiscal year 2004 
to 2009 programs. If you could put this board up that shows the 
time line, it has been suggested that this decision was made in 
the midst of a congressional consideration of the various 
pieces of our budget that is before Congress.
    [The information referred to follows:]
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    If you look at that, the black represents what the 
Department of Defense is working on in our locations. The red 
indicates what Congress is working on at any given time, and as 
you can see, Congress was working on the 2002 budget 
authorization, then the appropriation, almost simultaneously a 
2001 supplemental. The Pentagon was working on the QDR, the 
2003-2007 budget, and then the 2003 budget itself. Congress was 
working on the 2003 budget authorization and appropriation.
    The supplemental came up, then we started working on the 
2004-2009 budget while Congress was still working on the 2002 
supplemental, the 2003 budget authorization and the 2003 
appropriation. It turns out there are about 27 days since I 
have been Secretary of Defense when we could make decisions 
that would not occur at a time when one of the branches of 
Congress was working on either a supplemental, or an 
authorization, or an appropriation.
    Now, if we had 2 year budgets, that would not be the case, 
it would be possible, but given the situation we are in, I do 
not know how in the world we could make a decision down there 
that would not at some point conflict--well, not conflict, but 
occur at a time that seems awkward from the standpoint of 
Congress, and I recognize that. I just do not know what the 
answer to it is.
    When we addressed the 2004 budget, the planning guidance 
for it, and the 2004-2009 program, as the senior civilian and 
military leadership met, we focused on the bow wave problem. If 
you look out and think of the 2003 to 2007 budget, which is up, 
and then add 2 years at the end, what happens is, if every 
program we have is continued to be funded the way it is 
currently programmed, including the Crusader, the bow wave just 
goes up like this. The time to deal with that is not in 2 or 3 
years, because then it is too late. You have all of these 
investments. The only way to do it is to address it now, do it, 
and make the tough choices which have to be made.
    The issue of dealing with the bow wave that we face 
requires decisions that we have to make as early as possible. 
People have said, gee, why did you do this now, why didn't you 
do it later, or earlier? Well, it would have been nice if we 
had done it earlier. It would be nice if you could do it later, 
but the fact of the matter is, you do it when you can do it. 
You do it when you have reached the best judgment you can, and 
that is in the last analysis going to save the most money and 
have the least disruption on people involved in the activities 
involved with that particular program.
    I would like to mention a couple of lessons from Operation 
Enduring Freedom that have a bearing on this issue as well, Mr. 
Chairman. You asked about what changed. Well, since last fall, 
the Department has been compiling some insights from the war in 
Afghanistan, and I would not want anyone to think that the war 
in Afghanistan had lessons that determined whether every 
weapons system should be handled in a certain way. It does not, 
and I know that, but there are some things that it seemed to me 
are worth looking at.
    First is flexibility. The war in Afghanistan was not a war 
that the U.S. forces had planned to fight. There was no war 
plan on the shelf. There were no prepositioned stocks of 
equipment, or basing agreements with neighboring countries. The 
United States went to war on the fly, because we had to. U.S. 
forces will be confronted with future surprises, let there be 
no doubt, and that will require flexibility.
    Second is speed of deployment and employment. Rapidly 
deployable and employable forces served as the vanguard force 
in Afghanistan. Air, ground, and maritime forces that could 
enter the theater quickly proved the most valuable in the 
initial phases of the war. Future wars are also likely to 
require a swift U.S. response to defeat aggression. As in this 
case, U.S. forces may not have the luxury in future 
contingencies of long lead times for deployment.
    Restricted access. Given the limited access to basing in 
the region, especially adjacent and within Afghanistan, systems 
that could only enter the fight through large ports or 
airfields were of limited utility. The infrastructure in many 
areas of the world will not permit oversized systems to be 
inserted. Moreover, as more and more adversaries acquire the 
means to deny U.S. forces traditional access through manned-
portable air defenses, ballistic missiles, mines, cruise 
missiles, chemical and biological weapons, U.S. forces will 
likely have to enter through nontraditional avenues such as 
over beaches, through mountains and smaller landing areas, and 
airfields.
    Next is integration of ground and air. One of the most 
powerful lessons from the war has been the power that comes 
from the combination of forces on the ground and long-range air 
power. Having U.S. forces on the ground early in Afghanistan 
contributed directly to success. We saw soldiers armed with 
rifles maneuvering on horseback using advanced communications 
to direct strikes by 50-year-old bombers. The integration of 
ground and air power can, in some circumstances, allow small 
teams on the ground to achieve effects far beyond their 
numbers.
    Next, precision. A final lesson is that precision matters, 
and it matters a lot. In many cases, U.S. Special Forces on the 
ground were calling in long-range bombers to provide tactical 
close air support. This had never been done before. Precision 
allowed forces on the ground in the heat of battle to call in 
air strikes close to their own positions. It reduced the number 
of friendly fire incidents, as well as incidents of civilian 
collateral damage.
    At the same time, precision meant that fewer weapons needed 
to be fired. Precision munitions accounted for roughly 65 
percent of the total number of munitions used so far in the 
Afghanistan war, compared to 30 percent in Kosovo, and compared 
to 7 percent in Desert Storm. So in a decade we have gone from 
7 percent to 30 percent to 65 percent, close to two-thirds. The 
trend is clear. Increasingly, the munitions that U.S. forces, 
air, sea, and ground, employ, will need to be precision-guided.
    In light of these lessons, the tenets of the new defense 
strategy, the analysis of the future budgetary situation, the 
senior leadership considered the case of Crusader. It is 
against that backdrop, it seems to me, that it is important 
that we consider this decision.
    The decision to recommend termination is not about killing 
a bad system. Crusader is potentially a good system. We know 
that. It is not about a system that could not be used; it could 
be used. It is not about a system that the Army would not like; 
the Army would like it. But the issue is, how do we balance the 
risks? In short, it is about foregoing a system that was 
originally designed in a different strategic context to make 
room for more promising technologies that can accelerate 
transformation.
    Let there be no doubt, when fielded early in the next 
decade, Crusader would have represented a measurable 
improvement over the existing Paladin howitzer in both the rate 
of fire and the speed of maneuver. Now, that was what the 
requirement was, rate of fire and maneuver. Precision, 
interestingly--when Crusader was validated as a requirement, 
precision was not part of the picture.
    Now, really, what ought to be validated as a requirement is 
an outcome for a combatant commander in a given theater in his 
area of responsibility, and clearly precision needs to be 
factored into it. We are convinced that it is better to invest 
that money where it can be used to prove the truly 
transformational capabilities, capabilities such as increased 
accuracy, more rapid deployability, and the ability to network 
fires that will make the Army indirect fire systems effective 
and relevant on the battlefields of the 21st century.
    There has been a lot of talk about the weight of the 
Crusader, and I think it is useful to get it out. The Crusader 
was up in the 60-ton neighborhood the way they did it, which 
was about--oh, goodness, that was some period back, and that is 
the only one that exists today. There is not a 40-ton Crusader. 
There is not a prototype of that yet. It has not been sized 
down, although it is undoubtedly doable.
    However, the problem is that when you add the armor back on 
and the ammunition and the fuel and the people. The ammunition 
you need in the vehicle that goes with it, it is not 40 tons or 
60 tons, it is 97 tons. That is a lot, and it seems to me it is 
important to have that in mind.
    I asked how many C-17s would it take to move 18 Crusader 
tubes into a battle, and the answer was 60 to 64 C-17s to move 
18 Crusader tubes into a battle. That is a bucket. That is half 
of the entire C-17 fleet, plus or minus 10 percent.
    The debate about the Crusader is about whether to spend 
roughly $9 billion more to procure some 480 Crusader howitzers, 
or instead to use the funds to accelerate a variety of 
precision munitions, including GPS-guided rounds for all U.S. 
155 millimeter canons, as well as adding GPS guidance and 
accuracy to upgraded multiple-launch rocket system vehicles and 
the more mobile wheeled version of this system, the high 
mobility artillery rocket system, or HIMARS.
    Transforming to give our country the capabilities that 
revolutionary changes in technology offer, and to enable us to 
fight and win the Nation's wars in the 21st century as 
effectively as we did in the last century, I think, requires 
some choices and some decisions; the hardest of those is 
balancing risks between the challenges we face in the near-term 
and the mid-term to those less certain. Indeed, as Senator 
Inhofe pointed out, less certain and vastly more difficult to 
analyze, issues that we face in the longer term. That was the 
choice we made in recommending terminating the Crusader and 
shifting the funding into programs that are more appropriate, 
we believe, for the future.
    It is not an indication that the U.S. should do without 
ground forces, as some have suggested. That is nonsense. To the 
contrary, it is a decision that reflects confidence in the U.S. 
Army that has set a course over the longer term that we believe 
is a good course and, indeed, needs to be accelerated, and 
probably can be accelerated to shorten the period between the 
current time and when the Future Combat System could come in.
    Nor is it a decision that the future Army can manage 
without indirect fire and rely solely on air support. Rather, 
it is a decision that precision in artillery and rocket fires 
can be as revolutionary as it has already proven in air-
delivered weapons, and that mobility and rapid deployability 
will be crucial in the future, not only in getting to the 
battlefield but in maneuvering over potentially vast battle 
areas. In short, it was a decision about balancing risks, a 
decision that was made after long and careful consideration.
    I saw the article this morning, the one Senator Warner said 
he was going to have inserted in the record. By a retired 
General that tried to compare this period to the period after 
World War II. Well, I am old enough to remember most of that, 
and I will tell you, after World War II the Army budget was 
being cut by 80 percent. During this period, this 
administration, we have proposed increasing the Army budget by 
21 percent. There is no comparison between those two periods. 
This is not, as was suggested in that article, a comparable 
basis for comparison.
    The defense strategy established last year in the 
Quadrennial Defense Review emphasized the need for U.S. forces 
to demonstrate authority to swiftly and surely defeat 
adversaries in distant theaters and by so doing, and being 
capable of so doing, to deter them in the first instance. In 
particular, the strategy confirmed the need for ground forces 
that are lighter, more lethal, and more readily deployable in 
today's force.
    Throughout the conflict in Afghanistan, we have seen the 
remarkable synergy between ground and air forces and, if 
nothing else, Operation Enduring Freedom has demonstrated some 
of the advantages that can be achieved with joint integrated 
approaches to warfare. Not only is the safety and effectiveness 
of our troops improved, the result is the rapid and precise 
destruction of enemy forces. We know that ground operations 
will continue to be a critical dimension of warfare, and that 
accurate indirect fires will continue to play an important role 
in deterring and defeating a range of potential adversaries.
    In light of the new defense strategy and the initial 
insights from the war, the senior leadership weighed the 
relative merits of Crusader against other alternatives to meet 
the Army's need for organic and indirect fire, both cannon and 
rocket. Following extensive discussion and evaluation, it 
became apparent that, on balance, alternatives to Crusaders 
would be more consistent with both the new defense strategy and 
with the Army's overall transformation effort. Today, 
revolutionary improvements in indirect fire systems appear to 
be within reach, and offer potentially reasonable alternatives 
to Crusader, an alternative that could provide greater 
precision, more rapid deployability, and the ability to 
integrate fires.
    Precision means that fires are more lethal and more able to 
attack targets more rapidly before they can attack or move and 
disappear. Precision also means fewer rounds are expended to 
defeat a given target, and therefore, importantly, the 
logistical burden is reduced, and that is a critical pacing 
element. Logistics are vital, and this provides greater ability 
to deploy an effective force quickly and, of critical 
importance, precision can enable us to reduce collateral damage 
and make it considerably more difficult for enemies to hide in 
concentrated population centers, a problem which we faced in 
Afghanistan.
    Accelerating the development of satellite-guided artillery 
shells such as Excalibur munitions and the guided multiple 
launch system could bring the precision revolution we have 
witnessed in air power to the U.S. Army, and we are also 
considering the possible acceleration of highly mobile and more 
readily deployable indirect fire systems such as the high 
mobility artillery rocket system (HIMARS). This system could be 
easily transported in the smaller C-130 aircraft, and that 
mobility means it could keep pace with other vehicles in the 
Army's planned Objective Force.
    In short, the decision to recommend that we skip Crusader 
is one that emphasizes accelerating the shift to precision 
munitions of all indirect fire systems, cannon as well as 
rocket, Marine Corps as well as Army. Our recommendation is not 
to abandon the technologies already developed by the Crusader 
program. In fact, it would ensure that the key pieces of 
Crusader technology are maintained for use in both the Army's 
Future Combat System and possibly in the advanced gun system 
that the Navy is developing for its future surface combatants.
    In the near- to mid-term, however, our conclusion is that 
accelerating precision rounds for indirect fire will increase 
the overall capability of our forces more than the procurement 
of the 480 Crusaders. Skipping Crusader to emphasize these 
precision munitions and rocket systems does not put U.S. forces 
at risk, as some have suggested. Rather, we can reduce future 
risk by speeding the introduction of critical new capabilities.
    This decision also invests in the future Army, in 
integrated combined arms, in greater deployability, and 
lethality. The Army's Objective Force should represent not only 
a technological but also a conceptual and cultural change. The 
Crusader, by contrast, would have represented a waystation in 
that change process.
    While a technological advancement over the Paladin 
howitzer, to be sure, it was conceived for a traditional mass 
force counterattack role. In short, we do not believe that it 
was critical to the Army's overall transformation effort nor to 
the broader defense strategy.
    By implementing this recommendation, we can ensure that the 
Armed Forces will continue to overmatch the capabilities of any 
potential adversary now and in the future, not tank for tank, 
not aircraft for aircraft, not cannon for cannon, but 
asymmetrically. Rather than any single element alone, the 
combination of U.S. joint forces and precision can ensure that 
the U.S. maintains the advantage in the battlefield.
    The Senator is correct in his chart that there are 
artillery pieces that have some ranges that exceed Paladin. 
However, it seems to me that we must look at all of the U.S. 
capabilities to bring firepower on a given target, and think of 
the range we have. We have the Paladin, we have the MLRS 
rocket, we have attack helicopters, we have cruise missiles, 
and we have airpower from the Army, the Navy, the Air Force.
    We have a whole range of things that can be used in a joint 
way, and the task is not to look at a single one of them. I 
guess the proof of that is to ask the generals and the admirals 
in any one of the countries that have an artillery piece that 
has a slightly longer range whether they would rather trade our 
ability to put power on a target for theirs. The answer is, 
there is not anyone in the world who would want to do that.
    Some have raised concerns that these technologies are not 
far enough along, and to be sure there is much work to be done, 
and I am not here to oversell any one of them. The C-130 
portable rocket system, the HIMARS, for example, is further 
along than the Crusader. Furthermore, we have growing expertise 
in precision guidance systems, and we are using them to great 
effect.
    Taken together, the systems we are examining can offer 
greater improvements in precision and range and deployability, 
and we believe that by foregoing the Crusader we have the 
opportunity to produce more advanced capabilities and ensure 
their earlier integration into the Army.
    The question has to be asked, are the interim capabilities 
that the Crusader would have provided worth the delay in 
acquiring indirect fire systems that are, we believe, more 
transformational? There are certainly honorable Army generals 
who will say yes, and I respect that; but there are also 
honorable and knowledgeable Army generals who would advise you 
that we should press ahead with the new technology.
    I have been through this. Twenty-five years ago, they came 
into my office and said, the Army said they wanted to have 
another diesel tank. The M-1 tank was proposed to be a diesel, 
and they showed up in my office at 7:30 at night. It was 
unanimous. That is what they wanted, and we decided to go with 
a turbine tank. You ask generals today whether or not they 
think the turbine tank was the right decision or the wrong 
decision, and most of them, I think, will tell you they think 
it was a good decision. It was a fine tank, and it has done a 
good job.
    So the task in the Army is to do what they do, and that is 
to make proposals up, as the Navy and the Air Force do. The 
combatant commander is not going to fight with the Army 
proposals, or the Navy proposals, or the Air Force proposals, 
or the Marine proposals. They are going to fight joint, and 
they want to look at the totality of all of that and ask: what 
can they do to prevail on the battlefield? It is the task of 
the entire Department, not one service but the entire 
Department, to address those issues in an orderly and hopefully 
a thoughtful way.
    Mr. Chairman, for most of the last 50 years the U.S. 
military has faced a fairly predictable set of threats. During 
the Cold War, we had one primary adversary, the Soviet Union. 
We came to know a great deal about that adversary, its 
strategies, and its capabilities. We fashioned our strategies 
and capabilities accordingly. The resulting mix of U.S. weapons 
and forces allowed us to keep the peace and to defend freedom 
these many years.
    Preparing for the future, however, requires a different 
strategy, different forces, different capabilities, and a 
different way of thinking. Rather than static adversaries and 
threats, we face a new security environment in which surprise 
and uncertainty are the defining characteristics. We have to be 
prepared to adapt to an ever-evolving set of challenges and 
circumstances. We have entered a new age, and we have to 
transform to meet it. To do so, we have to prepare our forces 
to deter and defeat threats and adversaries that may not yet 
even have emerged.
    I recognize that the decision to recommend cancellation 
comes at a time when Congress is considering the fiscal year 
2003 budget request. Had it been possible, it would have been 
preferable to make it last year, or next year. However, as I 
said, at that time our focus was on developing the proper 
framework for the important program decisions we were making. 
We have reached our conclusion, and it is clear that continuing 
to fund a program we now know will not best meet the mission 
would be irresponsible and a misuse of taxpayer's dollars, so 
we went ahead with the decision. If there is one thing that 
September 11 has taught us, it is that we can no longer ignore 
the warnings of the past or delay preparation for the future.
    In his 1999 speech at the Citadel President Bush told the 
cadets, ``I will not command the new military we create. That 
will be left to a President who comes after me. The outcome of 
great battles,'' he said, ``is often determined by decisions on 
funding and technology made decades before, in periods of 
peace.''
    President Bush also said to Congress, ``Join me in creating 
a new strategic vision for our military. Moments of national 
opportunity,'' he said, ``are either seized or lost, and the 
consequences reach across the decades. Now comes the time of 
testing. Our measure is taken not only by what we have and use, 
but by what we build and leave behind, and nothing this 
generation could ever build will matter more than the means to 
defend our Nation and extend our freedom and peace.''
    I agree, and I look forward to working with Congress and 
with this committee to ensure that the taxpayer's funds we 
invest and the systems we select will give our country the 
joint capabilities we need. We need to work together to provide 
not simply what any one service may want, but rather the joint 
warfighting capability that will be necessary for our combatant 
commanders and our Armed Forces to deter and defend and 
contribute to the peace and stability that is so essential to 
our country's security in the next decade and beyond.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Rumsfeld follows:]
             Prepared Statement by Hon. Donald H. Rumsfeld
                              introduction
    Mr. Chairman and members of the committee:
    Thank you for this opportunity to discuss the Department's 
recommendation to terminate the Crusader program, continue some of the 
Crusader technology, and move the funds to technology and programs to 
better serve our country.
    President Bush has said:
    ``I expect the military's . . . priorities to match our strategic 
vision--not the particular visions of the services--but a joint vision 
for change . . . I will direct the Secretary of Defense to allocate 
these funds to . . . new programs that do so. I intend to force new 
thinking and hard choices.''
    That statement was not made in the context of the decision on 
Crusader. It was made by then-Governor Bush, in remarks to cadets at 
the Citadel back in September 1999. He told the American people what he 
planned, and we are purposefully pursuing that goal.
    On that day in 1999, the President warned, ``We are witnessing a 
revolution in the technology of war. Power is increasingly defined not 
by size,'' he said, ``but by mobility and swiftness. Influence is 
measured in information; safety is gained in stealth; and forces are 
projected on the long arc of precision-guided weapons.''
    So, one might ask, why now? What took so long to put structure 
behind the President's vision--a vision he laid out plainly for all to 
see? A vision I discussed with this committee at my confirmation 
hearing in January 2001.
    I remember, as I'm sure you do, the clamor throughout 2001, and 
into early this year, to get on with the tough decisions--as though the 
transformation of our armed forces could be measured in terms of which 
programs were killed, and how fast it was done.
    That is not how we saw it. In testimony before this committee, I 
said we would engage our brains before engaging the taxpayer's 
pocketbooks. We said we would be deliberate, not rushed; that we 
preferred to get it right.
    The decision to recommend termination of the Crusader program was 
not reached precipitously--as some recent commentary has suggested--but 
after months of careful review, wide-ranging discussion, and in-depth 
planning and analysis--a review of not just the Crusader program, but 
of future capabilities, of the strategy to guide us, and of a framework 
for assessing and balancing risks.
    The senior leaders of the Department--military and civilian--
Service Chiefs, Service Secretaries, the Chairman, the Vice Chairman, 
the Under Secretaries, and I, spent countless hours discussing 
strategies, capabilities, threats and risks.
    That process of review, discussion, planning and analysis started 
well before September 11. Tragically, September 11 confirmed many of 
our conclusions. I will recount that process, so that the proper 
context for the Crusader decision can be understood.
                 president bush's transformation vision
    President Bush shaped the context, the direction, of that process 
in his Citadel remarks.
    He talked about an era of proliferation of ``missile technology and 
weapons of mass destruction'' . . . an era of car bombers and plutonium 
merchants . . . of cyber terrorists . . . and dictators. He cautioned 
of ``barbarism emboldened by technology.''
    ``These challenges,'' he said in 1999, ``can be overcome, but they 
can't be ignored.''
    ``The best way to keep the peace,'' he said, ``is to redefine war 
on our terms. We must shape the future with new concepts, new 
strategies, and new resolve.''
    If elected, he said he would initiate a ``comprehensive review of 
our military, the state of its strategy, the priorities of 
procurement.'' He talked about the opportunities ``to skip a generation 
of technology.'' In the future, he said, ``We may not have months to 
transport massive divisions to waiting bases, or to build new 
infrastructure on site.''
    He said, ``Our forces in the next century must be agile, lethal, 
readily deployable, and require a minimum of logistical support. We 
must be able to project . . . power over long distances, in days or 
weeks rather than months. Our military must be able to identify targets 
by a variety of means, from a Marine patrol to a satellite--Then be 
able to destroy those targets almost instantly, with an array of 
weapons . . .''
    ``On land, our heavy forces must be lighter. Our light forces must 
be more lethal. All must be easier to deploy. These forces must be 
organized in smaller, more agile formations . . .''
    Still later, the President spoke of emerging threats and reinforced 
the need to prepare for the future. ``Keeping America safe,'' he said, 
``is a challenge that's well within our reach--if we work together to 
shape the budgets, programs, strategies, and force structure necessary 
to meet the threats we face and those that are emerging.''
    It was a direction and an urgency that I underscored in testimony 
before this committee on June 21 of last year, warning that the new 
technology of war is advancing--not in decades--but in months and 
years, and that we must take advantage of the time we have to prepare 
for the challenges we are sure to face in the years ahead.
    Last year, Mr. Chairman, we began to put that thinking into action.
                    transformation and the 2001 qdr
    In May 2001, the Department's senior leaders-civilian and military-
began intensive discussions about where America's military should go in 
the years ahead. We agreed on the need for real changes in U.S. defense 
strategy. The outline of those changes is reflected in the Quadrennial 
Defense Review (QDR).
    Among the new directions set in the QDR, the following four are 
perhaps the most important:

        <bullet> First, we decided to move away from the two Major 
        Theater War (MTW) force planning construct, which called for 
        maintaining forces capable of, nearly simultaneously, marching 
        on and occupying the capitals of two regional adversaries and 
        changing their regimes.

    Today's new approach emphasizes deterrence in four critical 
theaters, backed by the ability to swiftly defeat two aggressors in the 
same timeframe, while preserving the option for one major offensive to 
occupy an aggressor's capital and replace the regime. It calls for the 
ability to execute several lesser contingencies as well.
    By making this adjustment, we gain more flexibility in planning for 
a wider array of contingencies, and we gain more flexibility in 
investing for the future.

        <bullet> Second, during the QDR, the senior civilian and 
        military leaders agreed on a new framework for assessing risk. 
        We agreed that we couldn't judge a program simply on how it 
        addressed near-term warfighting risks. A new framework was 
        required, one that would put other types of risk up on the 
        table as well.

    We identified four specific categories of risk:

        <bullet> Force management risks--which concern how we sustain 
        our people, equipment, and infrastructure;
        <bullet> Operational risks--which concern the ability of our 
        forces to accomplish the missions called for in near-term 
        military plans;
        <bullet> Future challenges risks--which address the investments 
        and changes needed today to permit us to meet the military 
        challenges of the mid- to more-distant future; and last, the
        <bullet> Institutional risk--which involves inefficient 
        processes and excessive support requirements that hinder our 
        ability to use resources efficiently.

    The approach we adopted sought to balance the various risks in all 
of these categories, and avoid extreme solutions that would lower risks 
in some areas while raising other risks to unacceptable levels.
    While it is understandable and expected that reasonable people may 
differ on specific decisions regarding a given investment or budgetary 
decision, it is important to understand the need to balance among the 
different categories of risks that we confront today on this issue of 
the Crusader.

        <bullet> Third, to contend with a world of surprise and 
        uncertainty, we are shifting our planning from the ``threat-
        based'' model that has guided DOD thinking in the past to a 
        ``capabilities-based'' model for the future. What does this 
        mean? In short, it means that we can't know precisely who may 
        threaten us or when or where. But, we can know what sort of 
        capabilities we may be threatened with, and how. We can also 
        determine which capabilities are most likely to provide us with 
        important new advantages.
        <bullet> Fourth, to support this capabilities-based approach to 
        force planning, we worked to focus transformation efforts by 
        defining goals. Historically, successful cases of 
        transformation have occurred in the face of compelling 
        strategic and operational challenges. What then are the 
        challenges of the 21st century, and how can we best meet them?
  six transformational goals--taking care of today while investing in 
                                tomorrow
    Setting specific transformation goals has helped focus 
transformation efforts. The six goals identified in the QDR are:

        <bullet> First, to defend the U.S. homeland and other bases of 
        operations, and deter and defeat nuclear, biological and 
        chemical weapons and their means of delivery;
        <bullet> Second, to deny enemies sanctuary
        <bullet> Third, to project and sustain forces in distant 
        theaters in the face of access denial threats;
        <bullet> Fourth, to conduct effective operations in space;
        <bullet> Fifth, to conduct effective information operations; 
        and,
        <bullet> Sixth, to leverage information technology to give our 
        joint forces a common operational picture.

    Taken together, these goals will guide and inform the military's 
transformation efforts and improvements in U.S. joint forces.
    As the President foresaw, U.S. ground forces must be lighter, more 
lethal, and highly mobile; they must be capable of insertion far from 
traditional ports and air bases. They must be networked to leverage the 
synergy that comes from combining ground maneuver forces with long-
range precision fires.
    Naval and amphibious forces must be able to assure U.S. access even 
in area-denial environments, operate close to enemy shores, and project 
power deep inland. Air forces--manned and unmanned--must be able to 
locate and track mobile targets persistently over vast areas and strike 
rapidly at long-ranges without warning.
    The point is not to substitute air power for ground power--as some 
critics have demanded. Instead, it is the asymmetric opportunity that 
comes from integrating ground, air, maritime and space capabilities in 
a networked web of forces.
    Today, forces are now operating jointly in ways that were 
unimaginable before the information and telecommunications revolutions.
       providing capabilities to meet the transformational goals
    The fiscal year 2003 budget request before you now draws from many 
of the things we learned in developing the QDR. The budget request set 
the signposts for the transformation of U.S. defense capabilities. It 
included important increases for:

        <bullet> Developing defense systems against asymmetric threats 
        including chemical and biological weapons, cruise and ballistic 
        missiles, as well as for strengthening intelligence, 
        surveillance and reconnaissance capabilities;
        <bullet> Accelerating the fielding of unmanned aerial vehicles, 
        like Predator and Global Hawk, and Unmanned Combat Aerial 
        Vehicles;
        <bullet> Converting Trident submarines to conduct new missions, 
        including high-volume, conventional land-attack and special 
        operations;
        <bullet> Developing advanced communications, including laser 
        communications to deliver fiber-optics quality broadband to 
        U.S. forces anywhere in the world;
        <bullet> Accelerating the introduction of near real-time, 
        secure, and joint data links; and for
        <bullet> Accelerating the fielding of a variety of new 
        precision munitions.

    These leveraging investments in intelligence, surveillance, 
reconnaissance, integration, networking, and precision strike are 
signposts of the future transformed force.
    There are many new transformation starts in this budget--most of 
which will not reach fruition within our programming horizon. As new 
transformation initiatives mature, we must be prepared to make 
adjustments in programs to take advantage of success and move beyond 
those that fail. In doing so, we need to balance between the need to be 
ready for war tomorrow and the need to be prepared for future wars.
    As part of this transformation effort, we are taking steps to shift 
the balance of the weapons inventory to emphasize precision weapons, 
weapons that are precise in time, space, and in their effects. In that 
regard, the Department is developing a range of new conventional 
precision and miniature munitions for attacking deep underground 
facilities, mobile targets, targets in dense urban areas, and for 
defeating chemical and biological weapons.
    Resources are always finite. Tough choices have to be made--Such 
choices are generally not made between the good and bad, the needed or 
not needed, or between what is wanted and not wanted. Tough choices are 
made at the margin, most often between programs that are both 
desirable, both needed, and both wanted, but, nonetheless, choices have 
to be made.
    Although this year's defense budget increase is the largest in a 
long time, virtually the entire increase was ``spoken for:''

        <bullet> to cover inflation ($6.7 billion);
        <bullet> ``must-pay'' bills for health care and pay raises 
        ($14.1 billion);
        <bullet> unrealistic costing of readiness and procurement in 
        the past ($7.4 billion); and
        <bullet> funding the global war on terror ($19.4 billion).

    Approximately $9.3 billion in resources has been shifted by 
terminating a number of programs. Major terminations include the DD-21 
Destroyer program, which has been replaced by a restructured DD(X) 
program that will develop a new family of surface combatants with 
revolutionary improvements in stealth, propulsion, and other 
technologies. Some 18 Army legacy systems have been terminated.
    As we put together the fiscal year 2003 budget that is now before 
you, many major programs--including Crusader--required further review. 
As I've described, most of last year was spent developing the strategic 
framework within which to consider individual programs against required 
capabilities. There was a considerable amount of pressure from some 
quarters to get on with the tough decisions. We decided it would be 
best to defer them until we had completed the new defense strategy and 
had the time to study our future circumstance. The decisions we have 
made and will make are against that backdrop.
    In February of this year, we began developing the Defense Planning 
Guidance for the fiscal year 2004 budget and the fiscal years 2004-2009 
program. The senior civilian and military leadership team had to focus 
on the looming problem of a sizable procurement ``bow wave'' beyond 
fiscal year 2007, shorthand for describing the procurement of systems 
that would be ready for fielding late in this decade that, if funded, 
would crowd out other areas of investment and thereby cause a 
repetition of many of the same headaches we suffer today as a result of 
the procurement holiday in the 1990s. The time to address that ``bow 
wave'' is now earlier, not later.
    To deal with the bow wave we face requires decisions now about 
major defense acquisition programs--which brings us to Crusader.
    But before I get to that, Mr. Chairman, I would like to mention 
some of the lessons learned from Operation Enduring Freedom that I 
believe have a bearing on this issue as well.
            lessons learned from operation enduring freedom
    Since fall of last year, the Department has been compiling insights 
from the war in Afghanistan. Five lessons in particular stand out, 
especially in the context of evaluating Crusader.

        <bullet> Flexibility. The war in Afghanistan was not a war that 
        U.S. forces had planned to fight. There was no war plan on the 
        shelf. There were no pre-positioned stockpiles of equipment or 
        basing agreements with neighboring countries. The United States 
        went to war on the fly. It speaks to the skill of the U.S. 
        Armed Services that in less than a month from the terrorist 
        attacks of September 11, a plan had been developed and the war 
        was joined. The flexibility of the men and women of the armed 
        forces to shift from the familiar to confront the unknown is a 
        key advantage. U.S. forces will be confronted with future 
        surprises, for which they will also require flexibility. U.S. 
        forces must not only have a flexible mindset, they will also 
        need capabilities that are more flexible and capable of 
        adapting to a wide variety of circumstances.
        <bullet> Speed of Deployment and Employment. Rapidly deployable 
        and employable forces served as the vanguard force in 
        Afghanistan. Air, ground, and maritime forces that could enter 
        the theater quickly proved most valuable in the initial phase 
        of the war. Future wars are also likely to require a swift U.S. 
        response to defeat aggression. As in this case, U.S. forces may 
        not have the luxury in future contingencies of long lead times 
        for deployments. They may well also have less time to 
        acclimatize and stage once they enter an overseas theater. They 
        will have to be able to hit the ground fighting.
        <bullet> Restricted Access. Given the limited access to basing 
        in the region, especially adjacent to and within Afghanistan, 
        systems that can only enter the fight through large ports and 
        airfields were of limited utility. The infrastructure in many 
        areas of the world will not permit oversized systems to be 
        inserted. Moreover, as more and more adversaries acquire the 
        means to deny U.S. forces traditional access--through man-
        portable air defenses, ballistic missiles, mines, and chemical 
        and biological weapons--U.S. forces will likely have to enter 
        theaters through non-traditional avenues, such as over beaches, 
        through mountains, and smaller landing areas and airfields.
        <bullet> Integration of Ground and Air Power. One of the most 
        powerful lessons from the war has been the power that comes 
        from the combination of forces on the ground and long-range air 
        power. Having U.S. forces on the ground early in Afghanistan 
        contributed directly to success. We saw soldiers armed with 
        rifles, maneuvering on horseback, using advanced communications 
        to direct strikes by 50-year-old bombers. The integration of 
        ground and air power can, in some circumstances, allow small 
        teams on the ground to achieve effects far beyond their 
        numbers. At the same time, ground forces providing ``eyes'' for 
        pilots in the air dramatically increased the effectiveness of 
        air power.
        <bullet> Precision. A final lesson is that precision matters. 
        In many cases, U.S. Special Forces on the ground were calling 
        in long-range bombers to provide tactical close air support. 
        This had never been done before. Precision allowed forces on 
        the ground, in the heat of battle, to call in air strikes close 
        to their own positions. It reduced the number of friendly fire 
        incidents, as well as incidents of civilian collateral damage. 
        At the same time, precision meant that fewer weapons needed to 
        be fired. Precision munitions accounted for roughly two-thirds 
        of the total number of munitions used in the war, compared with 
        only 30 percent in Kosovo and 7 percent in Desert Storm. The 
        trend is clear. Increasingly, the munitions all U.S. forces--
        air, sea, and ground forces--employ will need to be precision-
        guided.

    In light of these lessons learned, the tenets of the new defense 
strategy, and analysis of the future budgetary situation, the senior 
leadership considered the case of Crusader.
                         the crusader decision
    The decision to recommend termination of the Crusader program is 
not about killing a bad system. It is potentially a good system. It is 
not about a system that could not be used. It could. It is a system 
that is wanted by many. But that is not the issue. The issue is how do 
we balance the risks. In short, it is about foregoing a system 
originally designed for a different strategic context, to make room for 
more promising technologies that can accelerate transformation.
    Let there be no doubt, when fielded, early in the next decade, 
Crusader would have represented a measurable improvement over the 
existing Paladin howitzer in both rate of fire and speed of maneuver. 
(Both Paladin and Crusader are indirect fire systems. Indirect fire 
systems include howitzers as well as rocket systems.) But we are 
concerned that it is better to invest that money where it can be used 
to prove the truly transformational capabilities--capabilities such as 
increased accuracy, more-rapid deployability, and the ability to 
network fires--that will make Army indirect fire systems effective and 
relevant on the battlefields of the 21st century.
    Fundamentally, the debate over Crusader is about whether to spend 
roughly $9 billion more to procure some 480 Crusader howitzers or, 
instead, use funds to accelerate a variety of precision munitions, 
including GPS-guided rounds for all U.S. 155mm cannons, as well as 
adding GPS guidance and accuracy to upgraded Multiple Launch Rocket 
System vehicles and the more mobile, wheeled versions of this system, 
the High Mobility Artillery Rocket System (HIMARS).
    Transforming to give our country the capabilities that 
revolutionary changes in technology offer and to enable us to fight and 
win the Nation's wars in the 21st century as effectively as we did in 
the last century requires hard choices and tough decisions. The hardest 
choices are those about balancing risks between the challenges we face 
in the near and mid term and those less certain, but possibly more 
formidable, challenges that we will face in the longer term. That was 
the choice we have made in recommending terminating Crusader and 
shifting the funding into programs that are more appropriate to the 
future.
    It is not, of course, an indication that the U.S. can do without 
ground forces. That is nonsense. To the contrary, it is a decision that 
reflects confidence that the Army has set a course over the longer term 
that is a good course and, indeed, needs to be accelerated. Nor is it a 
decision that the future Army can manage without indirect fires and 
rely solely on air support. Rather, it is a decision that precision in 
artillery and rocket fires can be as revolutionary as it has already 
proven in air-delivered weapons, and that mobility and rapid 
deployability will be crucial in the future, not only in getting to the 
battlefield, but in maneuvering over potentially vast battle areas.
    In short, Mr. Chairman, it was a decision about balancing risks, a 
decision that was made after long and careful consideration of what 
those risks are and what capabilities this nation will require in the 
coming decades.
    The defense strategy established last year in the Report of the 
Quadrennial Defense Review emphasized the need for U.S. forces to 
demonstrate an ability to swiftly and surely defeat adversaries in 
distant theaters, and by doing so, deter them. In particular, the 
strategy confirmed the need for ground forces that are lighter, more 
lethal, and more readily deployable than today's force.
    Throughout the conflict in Afghanistan, we have seen the remarkable 
synergy between ground, air and naval forces. If nothing else, 
Operation Enduring Freedom has demonstrated some of the advantages that 
can be achieved with joint, integrated approaches to warfare. Not only 
is the safety and effectiveness of our troops improved, the result is 
the rapid and precise destruction of enemy forces. We know that ground 
operations will continue to be a critical dimension of warfare and that 
accurate indirect fires will continue to play an important role in 
deterring and defeating a range of potential adversaries.
    In light of the new defense strategy and initial insights from the 
war, DOD senior leadership weighed the relative merits of Crusader 
against other alternatives to meet the Army's need for organic indirect 
fires--both cannon and rocket. Following extensive discussion and 
evaluation, it became apparent that, on balance, alternatives to 
Crusader would be more consistent with both the new defense strategy 
and with the Army's overall transformation effort.
    Today, revolutionary improvements in indirect fire systems appear 
to be within reach and offer reasonable alternatives to Crusader--
alternatives that should provide greater precision, more rapid 
deployability, greater range, and the ability to integrate fires. We 
are working to determine precisely where Crusader funding should be 
reallocated.
    Specifically, precision fire is proving to be one of the most 
transformational improvements in modern warfare, as we have seen 
already with the Tomahawk cruise missile and GPS-guided bombs.
    Precision can have a transformational effect on indirect fire 
systems. Precision means that fires are more lethal and able to attack 
targets more rapidly before they can attack or disappear. Precision 
also means fewer rounds expended to defeat a given target, and, 
therefore, less logistical burden. Because logistics are vital, this 
provides greater ability to deploy an effective force quickly. Of 
critical importance, precision can enable us to reduce collateral 
damage and make it considerably more difficult for enemies to hide in 
concentrated population centers.
    Accelerating the development of satellite-guided artillery shells, 
such as the Excalibur munition, and the Guided Multiple Launch System 
would bring the precision revolution we have witnessed in airpower to 
the Army.
    We are also considering the possible acceleration of highly mobile 
and more readily deployable indirect fire systems, such as the High 
Mobility Artillery Rocket System. This system could easily be 
transported in smaller C-130 aircraft and that mobility means it could 
keep pace with other vehicles in the Army's Planned Objective Force--an 
important consideration.
    In short, the decision to recommend that we skip Crusader is one 
that emphasizes accelerating the shift to precision munitions of all 
indirect fire systems-cannon as well as rocket, Marine Corps as well as 
Army. Our recommendation is not to abandon the technologies already 
developed by the Crusader program. In fact, it would ensure that the 
key pieces of Crusader technology are maintained for use in both the 
Army's Future Combat System, and possibly in the advanced gun system 
the Navy is developing for its future surface combatants.
    In the near to mid term, however, our conclusion is that 
accelerating precision rounds for indirect fire systems will increase 
the overall capability of our forces more than procuring 480 Crusader 
platforms.
    This recommendation also reflects the contribution that rocket 
systems already make for indirect fires. Following the 1991 Gulf War, 
an Iraqi artillery battalion commander said, ``after a month of 
bombing, I had 17 of 18 tubes left. After 1 day of ground war--with the 
U.S. using Multiple-Launch Rocket System (MLRS) fires--I had one tube 
left.''
    Skipping Crusader to emphasize precision munitions and rocket 
systems does not put U.S. forces at risk as some have suggested. 
Rather, it will reduce future risk and speed the introduction of 
critical capabilities.
    This decision also invests in the future army, in integrated 
combined arms, greater deployability, and lethality. While technology 
influences transformation significantly, substantial and lasting change 
generally requires changes in operational concepts and military 
culture. The Army's Objective Force will represent not only a 
technological, but also a conceptual and cultural change. The Crusader, 
by contrast, would have represented a way station in that change 
process. While a technological advancement over the Paladin howitzer, 
it was conceived for a traditional, mass force counterattack role. In 
short, it was not critical to the Army's overall transformation effort 
or to our broader defense strategy.
    By implementing this recommendation, we ensure that the U.S. Armed 
Forces will continue to overmatch the capabilities of any potential 
adversary now and in the future--not tank for tank, aircraft for 
aircraft, or cannon for cannon, as in the past, but asymmetrically. 
Rather than any single element alone, the combination of U.S. joint 
forces and precision can ensure that the U.S. maintains the advantage 
on the battlefield.
    Some have raised concerns that these technologies are not far 
enough along. To be sure, there is much work to be done and I am not 
here to oversell any one of them. But the C-130 transportable rocket 
system--HIMARS--for example, is further along than Crusader. 
Furthermore, we have growing expertise in precision guidance systems--
we are using them to great effect in Operation Enduring Freedom--and 
very little expertise in some of the more unproved aspects of the 
Crusader. For example, the system is designed to be heavily automated, 
but automated systems fail and the manual back-ups we would need pose 
are a challenging dimension that is relatively immature and unproven.
    Taken together, the systems we are examining can offer greater 
improvements in precision, range, and deployability. By foregoing the 
Crusader, we have the opportunity to produce revolutionary capabilities 
and ensure their earlier integration into the Army. The question that 
must be asked and answered is: are the interim capabilities Crusader 
would have provided worth the delay in acquiring indirect fire systems 
that are truly transformational?
    There are certainly honorable, knowledgeable Army generals who will 
say yes--I respect that. But there are also honorable Army Generals who 
will advise you that we should press ahead with new technologies. It 
has always been so.
                               conclusion
    Mr. Chairman, for most of the last 50 years, the U.S. military 
faced a fairly predictable set of threats. During the Cold War, we had 
one primary adversary, the Soviet Union. We came to know a great deal 
about that adversary, its strategies and its capabilities, and we 
fashioned our strategies and capabilities accordingly. The resulting 
mix of U.S. weapons and forces allowed us to keep the peace and defend 
freedom for these many decades.
    Preparing for the future, however, requires a different strategy, 
different forces and capabilities, and most important, a different way 
of thinking. Rather than static adversaries and threats, we face a new 
security environment in which surprise and uncertainty are the defining 
characteristics. Thus, we must be prepared to adapt to an ever-evolving 
set of challenges and circumstances.
    In short, we have entered a new age, and we must transform to meet 
it. To do so, we must prepare our forces to deter and defeat threats 
and adversaries that may have not yet even emerged.
    I recognize that the decision to recommend cancellation comes at a 
time when Congress is considering the President's fiscal year 2003 
budget request. Certainly, had it been possible, it would have been 
preferable to make this recommendation last year. However, as I've 
described, at that time our focus was on developing the proper 
framework for the important program decisions.
    Nevertheless, having reached the conclusions we did, it is clear 
that continuing to fund a program we know will not best meet the 
mission would be irresponsible and a misuse of taxpayers' dollars. If 
there is one thing that September 11 has taught us, it is that we can 
no longer ignore the warnings of the past or delay preparation for the 
future.
    Mr. Chairman, in that 1999 speech to the Citadel, President Bush 
told new cadets, ``I will not command the new military we create. That 
will be left to a president who comes after me . . . The outcome of 
great battles,'' he said, ``is often determined by decisions on funding 
and technology made decades before, in the quiet days of peace.
    Mr. Chairman, he also said to Congress: ``Join me in creating a new 
strategic vision for our military.''
    ``Moments of national opportunity,'' he said, ``are either seized 
or lost, and the consequences reach across decades. . . . Now comes the 
time of testing. Our measure is taken, not only by what we have and 
use, but also by what we build and leave behind. Nothing this 
generation could ever build will matter more than the means to defend 
our Nation and extend our peace.''
    Mr. Chairman, like the President, I look forward to working with 
Congress, and with this committee, to ensure that the taxpayers' funds 
we invest and the systems we select will give the Nation the joint 
capabilities we will need--and, to be sure, that includes the Army and 
artillery. But, more important, we must work together to provide not 
simply what any one service may want, but rather the joint warfighting 
capability that will be necessary for our Combatant Commanders and our 
Armed Forces to deter and defend and contribute to the peace and 
stability that is so essential to our Nation's security in the next 
decade and beyond.
    Thank you, Mr. Chairman.

    Chairman Levin. Thank you, Mr. Secretary.
    Secretary Wolfowitz and Secretary Aldridge, do you have any 
additional comments?
    Secretary Aldridge. Not at this time, Mr. Chairman.
    Chairman Levin. Thank you.
    Mr. Secretary, reference has been made to an article in 
this morning's Washington Post. Former Chief of Staff of the 
Army General Gordon Sullivan wrote a very strong article saying 
that the Crusader is the most technologically advanced ground 
combat system ever developed. Then he said the following, and I 
know you disagree with his conclusion, but I would like to see 
if you disagree with the statement of facts of General 
Sullivan.
    He said the Crusader ``was designed from the ground up to 
fight in the digital, network-centered battlefield, to exploit 
information dominance. Its advanced robotic operations and 
automated ammunition-handling systems allow the crew, enclosed 
in a protected cockpit, to exploit information instead of 
straining muscles. The advanced composite hull, liquid-cooled 
gun the mobility of the system elevate the effectiveness of our 
forces by 50 percent, with a corresponding reduction in 
resources. Crusader covers an area 77 percent greater than 
current systems, and has a three to one advantage in rate of 
fire.''
    My specific question is, do you disagree with any of those 
specific facts? I know you have a different conclusion, and 
there are other facts that cause you to reach a different 
conclusion, but in terms of those facts, do you differ with 
them?
    Secretary Rumsfeld. I think that my testimony indicated 
that I do agree with a great deal of that. There is no question 
but that the cockpit, the automatic loader, the software, the 
gun-cooling system, all are technologies that can be in some 
cases be looked at with respect to potential future upgrades 
for Paladin, and they can be looked at clearly and migrated to 
the Future Combat System.
    I guess the only thing I might disagree with was that it is 
the only system ever developed. It has not yet been developed. 
There still is not a Crusader that exists that has that 
characteristic, although those technologies clearly are under 
development.
    Chairman Levin. Thank you. I forgot to mention that we will 
proceed with an 8 minute round of questions, and we will follow 
our normal early bird order of recognition.
    My next question is--and I think you acknowledge the fact 
that the Army does have a requirement for organic indirect fire 
support. There seems to be no dispute about that. I am 
wondering whether or not the alternatives which you believe 
should be supported rather than Crusader can be developed and 
fielded as quickly, let me put it this way, or on the same 
schedule as Crusader?
    Secretary Rumsfeld. Could you put up this other chart?
    Chairman Levin. If you could just kind of give us a yes or 
no; we only have 8 minutes. Are your alternatives planned to be 
developed and fielded as quickly as Crusader? That is my only 
question.
    Secretary Rumsfeld. I cannot give you a yes or no. I can 
show you the chart, and the answer is nobody knows quite when 
these things evolve, but if you look where Paladin is, the 
green, and if you look where the other is, that is Crusader, 
the Future Combat Systems comes in somewhere between 2 and 4 or 
5 years after the plan for Crusader. The technologies from 
Crusader could be migrated back to Paladin in some instances or 
forward into the Future Combat Systems, so the Future Combat 
Systems would come in somewhat earlier.
    I think going back to General Sullivan's column, you are 
right about rate of fire, but he again ignores precision, and 
it seems to me precision is not something that one wants to 
leave out of the equation.
    Chairman Levin. Let me ask you about that question. If that 
requirement was not included, or if that precision criteria was 
not included in the requirements, why wasn't the Joint 
Requirements Oversight Council (JROC) asked to review the 
requirement and to include precision? You did not go back to 
them. Why not?
    Secretary Rumsfeld. Well, I think it might be a good 
question to ask General Pace, or even General Shinseki, but the 
short answer is that the JROC exists, and it looks basically at 
interoperability, and it has not gone back to validate the 
requirement of rate of fire and mobility that was selected and 
used for the 1994 requirement with respect to Crusader. General 
Pace is determined to get JROC to the point where it can do 
what you are asking, but it is not currently organized, 
arranged, or even chartered to do it.
    Chairman Levin. Thank you.
    Mr. Secretary, you described in your testimony a 
deliberative process, in particular, which led to the decision 
to cancel Crusader, and particularly you said the following: 
that in February of this year, you began developing the Defense 
Planning Guidance for the fiscal year 2004 budget, and for the 
fiscal years 2004 to 2009 program, so you made reference as 
part of a deliberative process to this Defense Planning 
Guidance.
    It is my understanding that as of April 29, the Defense 
Planning Guidance process, which does include senior civilian 
and military leadership, had reached a very different 
conclusion from the one that you ultimately reached that, and 
rather than deciding to cancel the Crusader program, Defense 
Planning Guidance process resulted in a decision to study 
alternatives to the Crusader over the next several months and 
to reach a decision on the future of the program by September 
of this year.
    Something changed between April 29 and May 2, and then 
again something changed between May 2 and May 8, that led you 
to go from a 5-month study to a 30 day study and then to 
immediate cancellation of the program. What changed? What 
specific things happened in those few days there which caused 
you to move from the Defense Planning Guidance plan to complete 
that study by the end of September, then to a 30-day study, and 
then to that announcement that canceled the program?
    Secretary Rumsfeld. The senior leadership that was working 
on the Defense Planning Guidance and I decided that we would 
decide what could be decided and have a category 1 that said, 
``Do this,'' to the service, ``go in this specific direction.'' 
Category 2 would be that they would go back and come back with 
several options of a different way to do it and include this 
option, and then an option was described. A third bucket, or 
basket, was that they could go back and come back with some 
options, and there was no prescribed option. The fourth was to 
come back with a plan to address how we might improve something 
that needs improving.
    The decision as to which program should be put in which one 
of those baskets was something that was done toward the end of 
the Defense Planning Guidance process. I happened to be in 
Afghanistan and the neighboring countries during that week. Dr. 
Wolfowitz is here and can tell you whatever you might want to 
know about the way that process came to its closure.
    Chairman Levin. Very specifically, as of April 29, the plan 
was, you are going to give us a plan with alternatives by the 
end of September, including the possibility of cancellation. 
Then there was an announcement made that there was going to be 
a 30-day study to come up with alternatives. Then that was 
truncated within a few days, and it was canceled. What specific 
things changed during those few days to change from a September 
conclusion for a study, to a 30-day conclusion for a study, to 
a cancellation?
    Secretary Wolfowitz. Mr. Chairman, during the course of 
April, as we were working on the Defense Planning Guidance, it 
became increasingly clear that there were important 
alternatives to Crusader that had not been adequately surfaced 
during the course of preparing for the 2003 budget, 
specifically the alternatives that are being talked about here 
and we will be presenting shortly in the budget amendment.
    In fact, it was in that time frame that I testified before 
your committee. When you asked me about Crusader, I summarized 
by saying that Crusader is sort of a little bit in between. It 
is a system that brings us some dramatic new capabilities, but 
if we can bring forward, some of the transformational 
capabilities more rapidly. We might see ways to put back 
Crusader technology into different systems.
    In the middle of April, the Secretary went with me and the 
three service secretaries and outlined the categories for how 
to treat major programs in the Defense Planning Guidance as he 
just indicated to you. Crusader was clearly one of the ones 
that was being considered as a possible category 1, that is, 
specific guidance, or category 2, that is, study it but with 
specific alternatives in mind.
    What was issued on April 19, was a draft planning guidance 
which suggested a possible September date. On April 29, Under 
Secretary Aldridge came to me with a very specific proposal, 
which suggested moving the Crusader money into a combination of 
the programs that the Secretary has mentioned in his testimony.
    Against the background of several studies and analyses of 
this issue, it was very compelling that this was the right 
thing to do. We were then in the position of putting into the 
Defense Planning Guidance an alternative not to study it for 6 
months, but to bring it to a conclusion.
    Secretary Aldridge and I met with Army Secretary White on 
the afternoon of April 30. We told him this is what we were 
planning to do in the Defense Planning Guidance. He said he had 
serious reservations about that and wanted to think about it 
overnight. He came back the next morning, said he would like to 
have 60 days to study it. We said that we would consider that 
request, came back to him in the afternoon and said, at that 
point, 30 days. This was on the afternoon of May 1.
    In real time, as they say, while we were having our first 
meeting with Secretary White, by a process that I do not know, 
somehow our proposed alternative was already being lobbied 
against all over Congress. Subsequently we had the episode with 
the Army talking points. We basically, in an attempt to try to 
have an orderly process that would have given a little more 
time for consultation and deliberation, ended up with something 
that was so deeply in the middle of your deliberations that we 
concluded we had to come to a more rapid conclusion so that you 
would have the information you needed.
    I believe we have been able to do that, in fact, that the 
Under Secretary for Acquisition, sitting here to my left, and 
the Army have managed, working very intensively over the last 
10 days, to come to agreement on what the alternative to the 
Crusader should be. We actually have agreement on the numbers. 
Some of the final details of language are being worked out with 
OMB, and I think we will have an amendment up here as we 
promised on the coming Monday.
    Chairman Levin. I am kind of surprised by your truncated 
schedule there, because if sudden lobbying of us causes people 
just to change plans that way, to cancel a system which 
otherwise was being considered as one possibility, it seems to 
me that anything goes around here, because we are being lobbied 
all the time with everything.
    Secretary Wolfowitz. It was not being considered as one 
possibility. It was being recommended strongly as the right way 
to go.
    Chairman Levin. But the decision had not been made, is that 
correct?
    Secretary Rumsfeld. Well, I can tell you that I was advised 
of his recommendation after it was already in the Senate and 
the press and the contractors----
    Chairman Levin. The decision was not made, is that correct?
    Secretary Wolfowitz. The decision was not made until the 
Secretary talked to the President about it.
    Chairman Levin. Thank you. Would you give us the Aldridge 
recommendation of April 29 for the record?
    Secretary Aldridge. Yes, we will.
    [The information referred to follows:]
                  Secretary Aldridge's Recommendation
    On April 29, 2002, Secretary Aldridge recommended that the $475.6 
million of fiscal year 2003 funds be redirected into five programs. 
These were: Excalibur, Guided Multiple Launch Rocket System, NetFires, 
High Mobility Artillery Rocket System, and Crusader Technology.

    Chairman Levin. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Mr. Secretary, your testimony today is very thorough and 
provides a great deal of information to this committee. You 
covered everything, but your decision to make this cancellation 
is really a decision that you make pursuant to the powers under 
the Constitution of the United States by the Commander in 
Chief, the President, because you are bound in duty to carry 
out his instructions.
    Now, the President came up to Capitol Hill today, and this 
program was the subject of a discussion. We have a very firm 
rule not to publicly discuss meetings of this sort, so I will 
refrain, but can you tell us, to the extent you consulted with 
the Commander in Chief, the views expressed, within the 
propriety of your ability to share them with us as to this 
cancellation?
    Secretary Rumsfeld. Well, I can say this, that the Crusader 
is a subject that has been widely discussed in the press, it 
has been widely discussed in Congress, it has been widely 
discussed inside the Department, and I have been asked about 
it. I said to the Deputy that I would like to have a briefing 
prepared that I could present where I could persuade myself and 
others that this weapons system was something that we ought to 
go forward with, that it was a good investment of $9 million, 
not that it was better than the Paladin--we know it is better 
than the Paladin and it is a good piece of equipment--but 
whether it made sense in the context of our joint warfighting 
capability.
    The more the Deputy worked, and the more that he worked 
with the folks in the Department, it became clearer and clearer 
to them and to me that it was not possible to prepare a 
briefing that was persuasive. It was a very close call.
    The President, when I went to see him and discussed this 
with him, and I can say that he is solidly behind this 
decision. There is no ambiguity, that he is--his comments that 
I used here today from his various presentations on the subject 
of military reform are important to him, and he cares to see 
about this.
    We know it is no fun for him to cancel a program people 
want. It is no fun for me. The last thing in the world I want 
to do is come up here and sit here and have to defend something 
when I know people are not going to like it. If we had gone 
ahead with it, likely everyone would have been happy, and he 
feels the same way, but by golly, he is right. The people from 
5, 10, and 15 years from now who are in the White House and in 
Congress and in the Department of Defense are going to be using 
the capabilities that we produce today, the decisions that are 
made today. They are not going to affect our capabilities in 
the next 2, 3, 4 years at all, and so it is terribly important. 
It is an obligation we have, and he feels that way, and he is 
determined to see that this is effectuated.
    Senator Warner. That is a clear response to the question.
    I will follow it up then. For purposes of the next 
question, let us assume that action directed by the Commander 
in Chief is done. Can you guarantee this committee and Congress 
that such funds as were programmed for Crusader will remain 
within the Department of the Army and remain within the 
Department for purposes directly related to those goals for 
which Crusader was designed and given to be tested?
    Secretary Rumsfeld. What I can do is the proposal that 
Under Secretary Aldridge is prepared to discuss and which we 
have sent up in writing, the funds would stay in the Army. They 
would involve things that would advance the Army's capabilities 
by improving Paladin by, we hope, moving forward the Future 
Combat System.
    It also would have a benefit by accelerating precision 
munitions that any service that happened to use that particular 
munition would benefit from that acceleration. I think that is 
the correct answer.
    Secretary Aldridge. Yes. Senator Warner, a good example of 
the alternative can be very simply summarized in that chart. 
That yellow portion of the chart is $9 billion. The idea is to 
take that $9 billion and to take the rest of the chart starting 
in the 2008 period, the MLRS and guided MLRS that will make 
that an accurate system with HIMARS and all the Paladins and 
109s that are left will be accurate weapon systems. So that 
whole chart becomes accuracy and we will take that whole area 
that is in that yellow area, $9 billion, and take the blue and 
move it forward.
    Senator Warner. This morning, Mr. Secretary, you and I met. 
Could you ask Mike Wynne to step up there and point out to the 
Senators exactly how those funds are projected to move forward 
and remain within, say, the context of artillery purposes of 
the Army?
    Secretary Rumsfeld. Just to correct the record, I think 
that technically the yellow is not $11 billion. It is $11 
billion from where it starts to 2009.
    Senator Warner. But you pointed out this morning that that 
money for the Crusader program can, in all probability, be 
shifted to the Future Combat System and other programs and the 
whole program forward.
    Secretary Rumsfeld. That is correct.
    Senator Warner. Could you point to that, please?
    Mr. Wynne. Senator Warner, my name is Mike Wynne. I am 
Under Secretary Aldridge's principal deputy. The way I would 
describe it is we are trying to introduce precision munitions 
across the artillery and what is not listed here, by the way, 
is the lightweight 155mm artillery which is now carried by the 
Marines and the light forces and is scheduled to be fielded 
between now and 2005. This will all come in between 2006 and 
2008. So this entire chart will be dedicated to precision that 
quickly.
    Right now under the current budget, those precision weapons 
will come in sometime between 2012 and 2014, which would impact 
mostly Crusader and then, later, Paladin. There is right now 
work on the guided MLRS going----
    Senator Warner. My time is running along. Let me just 
follow up. I think you have made the point. Can you then, Mr. 
Secretary or either of your colleagues, assess the risk to a 
military operation, given that it appears that the gaps can be 
filled fairly quickly? Is there an added risk to our fighting 
forces as a consequence of this decision, or is that gap filled 
in a timely manner?
    Secretary Rumsfeld. Well, I think that is a question that 
is important. It goes back to my comments where I talk about 
how we have to balance risks about the immediate future against 
transformation down the road. There is no warfighting 
capability that comes from an investment in something that will 
not be around for 3, 4, or 5 years. We know that.
    There is a warfighting capability for it that comes around 
after 3, 4, and 5 years, and if we do not sow the ground, there 
will not be any flowers growing. But the answer is it seems to 
me that the Crusader, if it came in when it is shown there in 
2007, started in, would be, without question, a better piece of 
artillery than the Paladin, even upgraded Paladin.
    I do not think that is the right question in this sense. It 
seems to me the question is, is the United States during that 
period going to be able, by the combination of upgrading 
Paladin, moving Future Combat System forward, improving your 
rocket systems and bringing the combined power of the United 
States with air, cruise missiles, all of those things to attack 
a target, are we going to be able to deal with those problems 
in the future? My answer is yes.
    Senator Warner. Can you give us a termination cost as a 
consequence of the schedule that the Secretary has now 
announced?
    Secretary Aldridge. Yes, sir, Senator Warner. The Army has 
asked the contractor for a proposal on termination cost. That 
is a negotiable activity. We are working the details of those 
numbers right now, and until the negotiation is completed, we 
will not have the specifics of those numbers. We have not 
stopped work, we are still working with the contractor----
    Senator Warner. If you do not have the specifics, can you 
give us the parameters?
    Secretary Aldridge. The parameters are roughly that we will 
use what is remaining of the fiscal year 2002 money for 
termination and there may be some required in fiscal year 2003 
as part of the negotiation, and it will also depend upon what 
degree of R&D we will retain from the Crusader that will go 
into the Future Combat System that the contract will continue 
to pursue. When all those details work out, we will have the 
specifics. But the parameters are roughly that. 2002 will be 
used for termination with some amount. What is left in 2002 
that has not been obligated, I believe, is in the $100 million 
range.
    Secretary Wolfowitz. Senator Warner, I might just say too 
that a risk if this recommendation is not accepted is that our 
people will take longer before they have accurate Excalibur 
rounds and accurate Guided Multiple Launch Rocket System 
(GMLRS). I think my own judgment is that that is a much greater 
risk than the risk of not having Crusaders.
    Chairman Levin. Okay. We will move on to Senator Lieberman. 
We are now in a vote. Is there one vote or two, do we know?
    Senator Bunning. Just one.
    Chairman Levin. Okay.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman. Thanks, Mr. 
Secretary. I think I am going to use my time mostly to make a 
statement if you will allow me to do so. Members of both 
parties on this Armed Services Committee have for years been 
talking about the critical importance of military 
transformation to take advantage of new technologies and to be 
better prepared to respond to the unconventional asymmetric 
threats that the United States will face to its security in the 
future.
    Transformation is, in fact, occurring within the military 
now, and particularly within the Army. But the question is, is 
it occurring fast enough? Are we devoting sufficient resources 
to it and are the resources being spent in a cost effective 
way? There was reference made earlier to the post-Second World 
War period. Remember, a book was written about the pre-Second 
World War period called ``Why England Slept.'' I think many of 
us lived in worry, with a worry that one day someone not be 
able to look back at this period of time and write a book 
called ``Why America Slept.''
    The book will not be about why we did not spend enough on 
our defense, because we are spending a lot; it will be why we 
did not spend it wisely enough, why we did not make the tough 
decisions we had to make to transform. In that sense, I give 
you, Mr. Secretary, a lot of credit for making a tough decision 
here. Obviously everyone has to judge it on merits as he or she 
sees appropriate.
    But our willingness to make hard decisions, to transform 
rapidly and cost-effectively so that America will be able to 
best meet our future threats to our security is on the line in 
this decision that you put before us. I know that some are 
concerned that this decision was somehow made in haste and 
without sufficient analysis. As far as I am concerned based on 
my experience on this committee, the analysis of the Crusader 
goes back at least 5 years and includes insights gained from 
actual combat operations over that period of time and before in 
Bosnia, Kosovo, and now Afghanistan.
    But when I say 5 years, I speak particularly of the 
National Defense Panel, which in 1997 presented us with the 
first major study to conclude that transformation should be the 
highest priority for the Department of Defense. Panelists 
pointed out that the heart of America's continued military 
dominance and national security would be our ability to rapidly 
project and sustain combat power around the globe in the face 
of rapidly growing capability to deny us this vital access.
    I have specific recollection of a particular day before 
this committee--I hope you will not resent that I bring this 
up--where the current Deputy Secretary of State, Richard 
Armitage, specifically said to us that the National Defense 
Panel, or he personally in his consideration, reached a tough 
conclusion that the Crusader program should be terminated. That 
was 1997.
    Those panelists and other analysts since then have 
concluded that conventional forces must be increasingly based 
on information, technologies, and precision strike as you have 
described, specifically that the NDP recommended our land 
forces become more expeditionary, that they evolve to lighter, 
greater range and more lethal fire support systems.
    Those conclusions have been supported to the best of my 
knowledge by most all of the subsequent studies that have been 
made--the Hart-Rudman Commission, the Project for a New 
American Century, as well as both QDRs and, in fact, many of 
the services own war games.
    Now, I understand that Crusader is a significant technical 
improvement over the current Paladin artillery system and that 
the Army considers it a critical component of the modernization 
of the current force. But our deliberations are and must be 
about the future, longer term as well as the present and near-
term. Of course, I agree with General Shinseki that 
transforming the Army is the goal and that the Army's Objective 
Force, the future force, must be the highest priority.
    Today the Army is being squeezed no matter how much money 
we give it. It is attempting to modernize its current Legacy 
Force to field an Interim Force, and to develop and field the 
Objective Force beginning in 2008. But we simply have not given 
the Army sufficient funds to do all three well, and we will not 
give the Army sufficient funds to do all three well.
    I speak here as previously ranking Democratic member on the 
Airland Subcommittee of this committee serving under the 
chairmanship of Senator Santorum. Now we have switched roles. I 
am chairman; he is ranking. But we have seen over this period 
of time even as in this year the Army's overall budget has 
increased significantly by $9.9 billion and procurement funds 
increased by 13 percent, that even with that increase the Army 
has found it necessary to cancel another 18 programs, 
cancellation which has been sustained incidentally by our 
subcommittee and now the full committee, including termination 
of certain programs that the committee restored last year at 
the Army's urging.
    General Shinseki, not withstanding the additional $9.9 
billion that you have requested and we have given him over last 
year's level, has nonetheless submitted a list of unfunded 
requirements totaling an additional $9.5 billion. That cannot 
go on. We are not going to find the resources in that 
circumstance to fully fund what we are all targeting toward, 
and that is the Army's Objective Force.
    We have to find some resources to fund that transformation. 
That is our urgent priority. We are not going to answer that 
challenge with business as usual or somehow assuming that we 
are somehow going to find the money later on. That is why among 
other reasons I have reluctantly reached the conclusion that 
your decision to terminate the Crusader program is the best one 
for our national security.
    In doing so, I must say I am convinced that the American 
military today has an order of magnitude advantage, including 
the ability to employ massive fires over any adversary or 
combination of adversaries that we can imagine now or into the 
near future. The U.S. Army particularly has a huge advantage in 
its ability to deliver fires on the battlefield now with the 
systems it has now. This despite the fact that there are other 
artillery systems in the world that have either a greater range 
than the Paladin or a higher rate of fire.
    Now, why do I still say we have an advantage? Because we 
have an unmatched, and I am confident unmatchable, integrated, 
automated joint system to acquire target and attack targets 
with resources from the air, the land, and of course the sea. I 
think the argument is compelling that shifting to precision 
munitions will bring the same dramatic improvement in the Army 
in direct fire capability that such a shift has brought to our 
air forces. If we needed improvement to today's howitzer, we 
should take the less costly option of improving the Paladin and 
investing in accelerating precision munitions and the Future 
Combat System and direct fire system.
    So in summary, committing the $9 billion to Crusader, 
especially in light of the Army's resource shortfall which I 
have described, will guarantee that the Future Combat System 
Indirect Fire System that is critical to the Objective Force, 
the future force the Army says it needs, will recede further 
and further away into the future and the development of 
precision munitions and their acquisition in needed numbers by 
the Army will be similarly delayed to the detriment of the 
Army's effectiveness in our national security.
    The Army will be less prepared to deploy and employ land 
power in the increasingly joint precision regime, and its 
ability to meet and defeat the increasingly unconventional 
threats to our security will be diminished. That is why, 
difficult as the decision is for you and us, I intend to 
support your recommendation to terminate the Crusader system. I 
thank the chair.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Smith.
    Senator Smith. Thank you very much, Mr. Chairman. Mr. 
Secretary, there is a vote on. I just wanted to get a couple of 
quick questions to you and hopefully you can respond to them 
quickly so I can run and vote, but if I need further detail I 
may ask for it.
    First of all, you made a very effective and thoughtful 
presentation. My concern is the 24-7 capability of the Crusader 
on the battlefield versus the other precision weapons, the PGMs 
for the most part require aircraft--as the launch platform 
where weather may have an impact. Specifically, the joint 
direct attack munitions, the GPS systems, systems optically 
guided, all need an aircraft launch. Can you assure us that we 
have 24-7 coverage with all of those precision munitions in the 
short-term? By short-term, I mean the time that this system 
would be in place, the Crusader would be in place.
    Secretary Rumsfeld. You cannot guarantee 24-7, I do not 
think, ever. There are circumstances when there may be gaps, 
and I think there always will be some. It requires, for 
example, that GPS works and the weather does not bother it.
    Senator Smith. Well, if you have your forces under attack 
somewhere on the ground and the weather is bad and the cloud 
cover is bad, and you cannot get your platforms up there, then 
you are in a situation that may be beyond your control; 
something has to happen.
    Secretary Rumsfeld. If one thinks of all the capability 
that exists, there is the artillery, there are mortars, there 
are rockets, there are cruise missiles, there are attack 
helicopters, there are bombers, there are AC-130, there is 
Army/Navy/Air Force fighter support. There are a variety of 
things that can be brought to bear, and we have found that 
almost always you can get one or more of them functioning 
effectively apart from weather and apart from circumstance.
    Senator Smith. I would agree with you perhaps on the 
bombers, the high-altitude bombers. I am not sure I agree with 
you on the attack helicopters.
    Secretary Rumsfeld. Not all of them, but some of them are 
able to function in almost any circumstance.
    Secretary Wolfowitz. Senator Smith, one reason in this 
request that we are so committed to modernizing Army indirect 
fires is the issue that you raised about 24-7. But I think 
having precision 24-7 is the most important thing and that is 
what we will get with this program by accelerating the 
Excalibur and accelerating the guided rocket system.
    Senator Smith. A 10 second answer and I will yield the 
balance of my time. Senator Inhofe has already voted. Is there 
any reason why the AOA scheduled for February cannot occur 
before this final decision is made?
    Secretary Aldridge. We are spending money obviously on the 
program as we proceed. The analysis that we have today says 
this is a better alternative, so the decision that the 
Secretary has made is a direction for us to go use the funding, 
that we can use the funding earlier to start these new things 
rather than continuing to spend on something we think is dead-
ended.
    Senator Smith. Thank you. I yield the balance of my time to 
Senator Inhofe when it is his turn.
    Chairman Levin. Senator Dayton.
    Senator Dayton. Thank you very much, Mr. Chairman. First I 
want to say, Mr. Secretary, I recognize that you have had 
plenty to do since September 11 and, therefore, to conduct this 
review in the midst of all your other responsibilities, I 
certainly want to acknowledge the enormous burden that you and 
your colleagues have borne on behalf of our country and I pay 
tribute to you for doing so and then for your success in doing 
so.
    Secretary Rumsfeld. Thank you, Senator.
    Senator Dayton. Like others here, I am trying to reconcile 
the change in the decision made and I have taken your point, 
sir, about the change in strategy, the evolution of strategy 
given the uncertainty of the kind of enemy we will face and the 
future warfare that that enemy will be conducting. I am 
wondering if the lessons that are being drawn from the 
successes in Afghanistan against the Taliban are ones that we 
would want to apply uniformly to, as you said, the uncertainty 
of who our future enemies might be and, taking the President's 
observations in the State of the Union Address, the 
possibilities of countries that seem to have much more sizable 
capabilities. Do you see that in this strategy that you are 
developing as one that is going to have that same 
applicability, and converse of that, would the Crusader have 
its role to play more importantly in other settings.
    Secretary Rumsfeld. Well, there is no question that lessons 
in Afghanistan ought not to be applied across the globe. You 
are exactly right. They cannot be. There are some lessons, 
however, that can be useful in a number of other instances. 
When the question is asked what has changed, it seems to me it 
is useful to think about it. We had the Quadrennial Defense 
Review with a new strategy and the new forcesizing construct.
    We have had the experience in Afghanistan, we have seen how 
a much higher percentage from 7 percent in 10 years up to 66 
percent of our munitions used were precision. Those are choices 
being made by people because they understand the importance of 
killing a target and the precision munitions do it so much 
better.
    The advantage some smaller logistic chains, the collateral 
damage problem it seems to me is an important one to keep in 
mind. I think we are going to find that we are going to be 
forced to fight in places where asymmetrical efforts will be 
made by enemies to put themselves in close proximity. We look 
for example today at terrorist states, and they are literally 
putting more weapons of mass destruction capability right next 
to schools and hospitals and mosques. Purposely. They even have 
some building that are erected for that purpose in high-
collateral areas.
    The other thing is the bow wave has changed. As you go out 
2 more years and get the 2004 to 2009 and look what is ahead of 
us, there is no question that we have no choice but to make 
decisions now and it seems to me it is that range of things, 
part of which is the lessons from Afghanistan that are what has 
changed.
    Senator Dayton. Regarding the issue of the precision, and I 
certainly would concur with your giving that a high priority, I 
refer you to the testimony from General Keane before our 
Airland Subcommittee on March 14 of this year. He was, of 
course, in a different context, very supportive of the Crusader 
and said that it had the advantage and could have been used in 
Afghanistan, as he said, to pound al Qaeda in the mountain 
areas. Unlike some air-delivered munitions, poor weather would 
not have stopped Crusader's precision fire.
    Then to give Senator Inhofe, who was doing the inquiry a 
sense of the Crusader's range and precision, General Keane said 
we could put it on the Beltway out there and hit home plate at 
Camden Yards. That sounds pretty precise to me. The other 
corollary to that would be if the intent is to equip other 
shells from other Paladin or other such artillery vehicles from 
some advanced guidance system, would that not equally apply to 
the munitions for the----
    Secretary Rumsfeld. Absolutely. There is no question. You 
can put precision munitions in the Crusader, and if it existed 
you would certainly want to do it. You can put it in the 
Paladin, and you can put it in any number of tubes that fit. 
General Keane, as is General Shinseki, they are outstanding 
Army officers, there is just no question about it. They say 
what they believe and they tell the truth, and they are 
honorable people and talented people.
    The issue is not in my view whether Crusader is a fine 
artillery piece. The issue is whether the United States during 
the period we see up on that chart is better off upgrading the 
Paladin, eliminating Crusader, bringing forward the Future 
Combat Systems, and improving the munitions of all of those 
capabilities including the rocket systems; and the answer is I 
think we are better off.
    I think Senator Inhofe had an important point. I think it 
was you, Senator, about the cost. There is no question but that 
the cost of the precision munition is higher. But you may want 
to comment on a solution we think we have there.
    Secretary Aldridge. We have an idea of taking all of the 
artillery pieces and using an upgraded NATO fuse and putting a 
slightly improved guidance system on the NATO fuse that we can 
bring all artillery pieces, even the ones that are so-called 
dumb, into the 10 to 20 meter range accuracy. That is going to 
be extremely effective and not anywhere close to the expense 
that we were going to get on the Excalibur.
    We think we can get Excalibur in mass production into the 
range of $30,000 a round. But it tells you, Senator Dayton, 
that when we get up into the DARPA net fires area, we will be 
able to put the weapon on the pitcher's mound in Camden Yards.
    Senator Dayton. When Secretary of the Army White testified 
before the house committee on March of this year, he referenced 
specifically this issue of the capability of the Paladin. He 
said if there was a serious match-up problem with the Soviets 
in terms of artillery, there would also be a challenge with any 
of the three countries that the President talked about 
recently: Iran, Iraq, and North Korea. The Secretary said we 
have band-aided the existing system, the last of which is 
called Paladin, about as far as we can stretch that rubber 
band.
    He had 2 weeks previously been to the National Training 
Center and watched a Paladin battery unable to keep up the M-1 
tanks and Bradleys that were in the attack. He said this will 
only get worse as we field more highly mobile systems both in 
our interim brigades and our Future Combat Systems. Again, I 
guess I would ask, are you confident that the Paladin is going 
to be able to bridge this gap until these other new systems 
come on line?
    Secretary Aldridge. The plan for Paladin is to have it in 
the inventory up until the year 2028. So we are going to have 
to keep the Paladin around and make it effective for a long 
period of time. The current Paladin average age is about 6\1/2\ 
years old. It is been in production since after----
    Senator Dayton. Can you address the specific operational 
shortcomings that the Secretary of the Army referenced?
    Secretary Aldridge. Yes. The Paladin is, in fact, slower 
than the Crusader, and we have admitted that Crusader would be 
a better artillery piece than the Paladin program, but we want 
to make the Paladin have the accuracy and when we put the 
Excalibur round on the Paladin, it gets out to 40 kilometers 
and it makes up quite a bit of the range difference that we 
have seen.
    If you talk about the actual operations of the Army, what 
is the actual speed in which artillery and tanks fight in the 
battlefield, I think the speed factor is significantly lower 
than running at max speed all the time.
    Senator Dayton. Thank you, Mr. Secretary. My time has 
expired. I just want to say if we are going to carry the 
Paladin to the year 2028, then having stretched the rubber band 
as far as it will go should give us pause.
    Secretary Rumsfeld. Well, if I might say, the Paladin is 
scheduled to go out each with the Crusader coming in. I think 
it is not correct to say it is stretching the rubber band. I 
think the fact of the matter is the Paladin is a weapons system 
that was entered after the Gulf War. It is not something that 
like the B-52s that dates back 40 or 50 years. Portions of it 
preceded it and as most things, they evolve over time. But it 
is a weapons system that the current Paladins are 5.6 years 
old.
    Senator Dayton. I did not make the analogy to stretching 
the rubber band. The Secretary of the Army did.
    Secretary Rumsfeld. Right. I understand.
    Senator Dayton. My time has expired.
    Chairman Levin. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. While we are on 
that subject, let us pursue that a little bit. First of all, I 
do not know who all understands this chart up here. I got the 
presentation in my office, and I do appreciate it. I have said 
many times that I think we have the best national security team 
in the history of this country. I hold you guys in very high 
regard.
    What I think the problem here is, you are busy prosecuting 
a war, you are busy looking at a national missile defense, 
things that we are going to have to have, and I think this just 
slipped by and did not get the proper attention. This is my 
concern that we have, and I do not want anything that I say to 
reflect in any way in a negative way, because you know what I 
have said in the past about you.
    But when we are talking about this Paladin, that is 
essentially the howitzer M-109. That was 1963. Now, there have 
been some upgrades. There are upgrades every year. There have 
been upgrades to the B-2. There have been upgrades to the C-17. 
We constantly upgrade. But this is a basic system that did 
start in 1963. The basic changes between that and when we 
started calling that system a Paladin in 1993 were the GPS and 
the new fire control system allowing the guns to spread out and 
compute their own fire area.
    Still, it is manual. It is kind of like looking at the 
Civil War movies. They put the shell in and they fire it by 
hand and they pull it out and they clean out the bore. This is 
not a modern system, and it is a system that is, I contend, 40 
years old. It is the same as it was in 1963 in terms of the 
maximum range, the maximum rate of fire, just the same rate of 
fire, cross country speed, crew size--all of that is the same 
as it was back in 1963.
    I wish we had more members here to listen to this, because 
I think we have gotten some information that is inadvertently 
wrong. One was when you talked about how it takes 60 to 64 C-
17s to move 18 Crusaders. Mr. Secretary, I do not believe that. 
I know that you do. I think that maybe there is a 
miscommunication here because in the Department of Defense 
Weapons Systems 2002 Book, it specifically says ``in addition 
to strategic deployability'' two howitzers are transportable in 
the C-17.
    Now, they are talking about two howitzers that are 
transportable in the C-17, and I think if you have to have the 
resupply vehicle in them, it would only be one. I have heard 
this over and over and over again. That is a different thing. 
You always have to worry about getting ammunition to the area 
where it has to be used. But essentially, we are talking about 
one with the resupply vehicle being able to be transferred in 
the C-17, and two, if you do not use the resupply vehicle.
    Essentially then, if you had 18, it would take 18 of our C-
17s. Our C-17s have proven to be the greatest lift vehicle we 
have ever had. Now, you can certainly respond to that if you 
want to, not taking too much time because we are limited on our 
time.
    Secretary Rumsfeld. I will just make a brief comment. It is 
true that what you said is technically possible. That does not 
include the armor. The armor has to be taken off of the 
Crusader, carried on a separate aircraft. It does not include 
the fuel, it does not include the ammunition, it does not 
include the vehicle that is needed to be in close proximity to 
the weapon.
    We asked the Army and the Army came back with that answer. 
The answer is 60 to 64----
    Senator Inhofe. I will just say, Mr. Secretary, that the 
Army did not read their own manual if that is what they came 
back saying. Now, I want to get back to something else that is 
very significant, Secretary Aldridge. Did you hear my opening 
statement?
    Secretary Aldridge. Yes, I did.
    Senator Inhofe. In my opening statement I talked would 
about our attempting to find out what costs would be associated 
with cancelling a program at this time. I said if you only take 
one of those four costs that would be there, the other costs 
would have to do with upgrading other vehicles, that just the 
cost of termination according to what we got in a range from 
the PMs. We made the effort to find out, then we called and 
talked to the contractor. It is going to be in the range that I 
outlined between $300 and $520 million.
    Now, I know it is a negotiated thing. They will come up 
with a figure, you will come up with a figure if this should 
happen, and you negotiate. But I am saying it is very 
conceivable it could be in this range. We have to get out of 
this mindset that we have $475 million to reprogram into 
another system. It flat is not true.
    Secretary Aldridge. The numbers we are getting from the 
Army at this point, and I would highly suspect the numbers we 
are going to get from the contractors, which are going to be on 
the high side, guaranteed, because they want to get as much 
money from the termination as they can. But it is a negotiated 
term. The numbers we are getting from the Army now will give us 
better confidence that we are able to do the termination to 
complete the work in fiscal year 2002 without any significant 
cost.
    One other point is that we want to use a lot of the 
technology that has been developed for Crusader in the Future 
Combat System, and particularly the gun, some of the armor, 
some of the technology----
    Senator Inhofe. But to me that is the best argument to wait 
until the AOA to find out what we do need in this system, and 
at that time if it is necessary to have the analysis, have the 
analysis, cancel the program----
    Secretary Aldridge. If we wait we will not have the ability 
to use the funds that will be available to us to go do the 
things that are identified here----
    Senator Inhofe. Okay. We are not getting anywhere here, 
because I am contending there may not be any funds at all. Mr. 
Chairman, I think if you are making a mental list of those 
things that we really need to determine, that should be high on 
that list, because we do not know. You do not know, I do not, 
they do not know.
    Secretary Rumsfeld. I do not think you can know termination 
cost until you negotiate the termination cost with the 
contractor.
    Senator Inhofe. A criticism I have of the way this was put 
together was--and I know you guys did not put this together in 
terms of the handouts that were there at the Pentagon 
briefing--when they announced that this program would be 
canceled. But in this Pentagon briefing, you quoted all kinds 
of publications.
    I have to admit, and you guys know it also, that there are 
a lot of newspapers out there, a lot of people in the media 
that do not think we need a defense to start with. But one of 
the highlights that you used was from a columnist for the San 
Francisco Examiner. They said if this is a white elephant, we 
need--well, it was a very damaging type of thing.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Inhofe. Now, the San Francisco Examiner has also 
said in recent publications talking about a national missile 
defense system--it is important that you hear this--despite the 
enormous sums of money spent creating innovative, high-tech 
weaponry is difficult. Pinpointing warheads going 15,000 miles 
per hour has been likened to trying to find a fly ball looking 
through a soda straw. Nevermind the problem of decoys or M 
missiles during tests, ground base, interceptors, missed 
targets two out of three times and they went on to the 
conclusion that it is a fantasy.
    They use Star Wars and all of these antiquated things to 
try to denigrate our wanting to defend ourselves against an 
incoming missile. That is what they think about national 
missile defense system. F-22, they say already in the same 
article, ``Drowning in $9 billion worth of cost overruns, the 
plane holds the dubious distinction of being the costliest 
fighter aircraft ever built and is not in the view of most 
experts do anything any different than joint strike fighter, 
also in development.''
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    
      
    Senator Inhofe. Now, I would only ask why would we use a 
source like that to try to denigrate, which they did in your 
handout, the Crusader?
    Secretary Rumsfeld. I do not know what you are referring 
to.
    Senator Inhofe. Well, this is a Department of Defense 
publication for the Pentagon briefing of May 8, 2002.
    Secretary Rumsfeld. What does it do, quote a bunch of 
newspaper articles?
    Senator Inhofe. Yes.
    Secretary Rumsfeld. They put out newspaper articles every 
day.
    Senator Inhofe. I am sorry, not you, but the Department of 
Defense put this out for your briefing for the May 8 briefing.
    Secretary Rumsfeld. You mean for the Pentagon briefing?
    Senator Inhofe. Yes.
    Secretary Rumsfeld. I just have not seen it, I am sorry.
    Senator Inhofe. Okay. Senator Warner brought up something 
that is a concern of mine and that is the President has 
developed some pretty firm ideas, and I just wonder if the 
President has really had the briefings necessary. He has had 
his mind on a lot of different things.
    Secretary Rumsfeld, I have taken the time to call you and 
to call Secretary Wolfowitz. I have called everyone I can think 
of, everyone in the military to get advice; I have called the 
secretaries, all of the secretaries. I have called the 
Secretary of the Army to ask him on several occasions if he has 
had a chance to brief the President about the Crusader. The 
last time I called, he said he had not; he wanted to do it but 
had not been able to do it. Do you know if Secretary White has 
had a chance to sit down with the President of the United 
States and give him a briefing?
    Secretary Rumsfeld. Senator Inhofe, Secretary White sees 
the President on a variety of occasions. I do not believe he 
has briefed him personally on it, and I know that General 
Shinseki has seen the President on a variety of occasions and I 
do not know if he has briefed him on it.
    To put it in perspective, the Crusader program is 0.5 
percent, less than 1 percent, one half of 1 percent of the 
Defense Department budget. It is a lot of money, do not get me 
wrong, $470 million, but it is one half of 1 percent. It is 
about a percent and a half of the Army budget, and it is about 
2\1/2\ percent, I think, of their investment budget.
    Senator Inhofe. Exactly. I agree. However, if we can 
increase, use one half of 1 percent of that budget to give us 
superiority in an artillery system I, as one member of the 
Armed Services Committee, think that is a very good investment.
    I do not think anyone is going to argue with the cost of 
the rounds. Yes, the Excalibur, if we got to the ultimate 
number, the lowest it has been, and I have the evidence of 
this, it could get down to $36,000 a round. But we are talking 
about an artillery shell which is $200 a round. If we are 
concerned about the superiority of our system as opposed to the 
existing Paladin it is outgunned in range and in rapid fire by 
equipment that is manufactured in four other countries and 
readily available on the market. This concerns me a great deal.
    Secretary Rumsfeld. Senator, I do not disagree. I think 
that the way to think of--you are quite right on the cost of 
the two rounds. The problem is that you have to use a bucket of 
the dumb rounds to achieve what a single round can do if it is 
a smart round. The same thing is true for bombs. We found that. 
The difference is enormous. It is not just enormous in the 
numbers of things that have to be used, it is the number of 
things you can use them for.
    Because if you are using dumb bombs, you cannot use them in 
high collateral areas. You cannot use dumb artillery shells in 
high collateral areas because they are going to have a spread 
that is very notably different from a precision weapon. So, I 
think comparing the two numerically is correct, but I think 
that we have to add that dimension to it.
    Senator Inhofe. But numerically as we start off, you can 
actually fire a thousand dumb rounds for the cost of one 
Excalibur at the current time.
    Secretary Rumsfeld. The problem is you could not, Senator, 
because you could not use dumb rounds in a lot of places where 
we have to fight. You need precision rounds.
    Senator Inhofe. A question I had was, and it has already 
been answered once by Secretary Wolfowitz in previous hearings, 
are you confident enough that we would not have ground wars in 
places like Iraq, China, Iran, and other places where we would 
need that very precise thing according to the testimony of the 
uniformed officials? I do not think you are very comfortable 
with that.
    In fact, Secretary Wolfowitz, I believe you said ``I would 
not want to bet the farm that we would not need that type of 
artillery capability in the future,'' and you complimented it 
saying it is the best one out there.
    Secretary Wolfowitz. Senator, we very much think we need to 
have that indirect fire capability. That is why whether we are 
looking at a simple comparison of Paladin versus Crusader, we 
came to the judgment in the 2003 budget that it was the right 
choice. But as we did this work in looking forward to 2004 and 
began to look at the other ways we could spend that money on 
Army indirect fire systems, we concluded that precision, 
mobility, and deployability were much more important 
characteristics----
    Senator Inhofe. Let me ask you one more question. We are 
all concerned with the JROC, the Joint Requirement Oversight 
Council, and the role that it plays in these things. Was the 
JROC consulted in a part of the decision to terminate the 
Crusader?
    Secretary Rumsfeld. No. The JROC basically is functioning 
with the vice chiefs as the members and the vice chairman as 
the chairman to look at requirements and look for 
interoperability. The JROC looked at Crusader 8 years ago, and 
it looked for it with respect to rate of fire and mobility, but 
not precision.
    Senator Inhofe. Well, how about the Secretary's Executive 
Council (SEC)? I was very much impressed when you first took 
this position and you talked about the role that would play. 
Did it have a deliberation over the termination of the 
Crusader? It is made up of the secretaries of all the--not for 
your benefit, but for our benefit--along with Secretary 
Aldridge, those who are at the table here.
    Secretary Rumsfeld. Pete, do you want to tell the entities 
that analyzed it?
    Secretary Aldridge. We actually did some hearings with the 
Army and the SEC. They were not involved in the final 
determination.
    Chairman Levin. Senator Cleland.
    Senator Cleland. Secretary, my first instinct is that I am 
embarrassed for you and the Department for having to come here 
and fight out internally over an artillery piece. I would much 
rather you come here and match wits with your wonderful mind 
and your great staff about the strategic future of our Army, 
the strategic future of our forces, and the number of forces it 
will take to win what Senator Nunn calls the war on 
catastrophic terrorism. I would much rather argue that out 
about how much time it is going to be before some terrorist 
organization lays its hands on a weapon of mass destruction. I 
would rather we engage in those kinds of debates.
    However, there are two disturbing things about this 
argument that bother me. One is the way in which it was 
handled. In many ways, Senator Roberts and I have seen this 
movie before. The Crusader decision is similar to the B-1 
decision last year. Last summer Senator Roberts and I were 
engaged in a fight with DOD and the Air Force on their decision 
to consolidate the B-1 bomber force. Neither DOD nor the Air 
Force had analysis to support the decision. It was quite the 
opposite.
    The data that Senator Roberts and I had was contrary to the 
Air Force's decision. I also want to point out that the 
Crusader decision mirrors the B-1 decision in that we, 
Congress, were notified by the media reports. The process that 
DOD has used regarding the Crusader and the B-1 bomber is 
disturbing.
    I am troubled that we are here today discussing the fate of 
this weapon system. There are many more issues that warrant 
attention, as I have said. However, we did not create this 
process and this procedure; we are only responding to it. 
Rather than becoming a partner in the decision, we, Congress, 
are relegated to reacting rather than being consulted. That is 
the process.
    The thing that really bothers me, though, is the substance 
of the decision. On the one hand, we have a former Secretary of 
Defense, Frank Carlucci, a former Chairman of the Joint Chiefs 
of Staff, General John Shalikashvili, and the former Chief of 
Staff of the Army, General Gordon Sullivan, as well as the 
Chief of Staff of the Army now, all end up supporting this 
system.
    Quite frankly, General Sullivan's argument in The 
Washington Post today makes some sense to me. He is an Army guy 
who served on the ground. General Sullivan points out that the 
Crusader covers an area 77 percent greater than the current 
systems and has a three-to-one advantage in rate of fire. You 
keep saying that that is not precision. Well, I have been on 
the ground seeing a 155mm howitzer, not the Paladin, and 
certainly not the Crusader, and I have certainly seen the B-52 
bomb strike. A B-52 bomb strike is not precision either, but we 
need it.
    I will say to you that it does bother me if you are asking 
us to in effect ratify the decision you have already made that 
eliminates this program of the Crusader, where we have already 
pumped $2 billion into it and exchange it for what? You have 
not even analyzed the alternative. You do not have an 
alternative. That chart is not an alternative. You have not 
analyzed alternatives. Now, what are potential alternatives?
    As far as I can tell, there is a system called Excalibur, 
which, I gather, is a round of some sort, some family of guided 
munitions still in research and development, some guided 
multiple launch rocket system. Development is underway. That is 
all I can find out about it.
    DARPA, the Defense Advanced Research Projects Agency, has 
something called NetFires in research and development stage, a 
prototype has yet to be tested. In my part of the world, they 
call that a pig in a poke. Quite frankly, based on what I 
gather are the requirements of the war of terrorism, where we 
are already in harm's way in Afghanistan at this very moment, 
this weapon system could be utilized and expand the range of 
the 101st Airborne and the 10th Mountain Division and the range 
of our artillery support for our Special Operations Forces. It 
could be used there now. It could be put on a C-17 and flown 
there in 24 hours.
    That is real. I understand that. I get that. I do not get 
that chart. I do not get no analysis of alternatives. Where is 
the so-called cost effectiveness in all of this? I mean, 
supposedly over $400 million is going to be ``saved for higher 
technology purposes?'' Where is it going to go? What other 
weapons system is this going to be part of? That is kind of 
mush and iffy thinking as far as I am concerned.
    So I cannot buy a pig-in-a-poke, not with the troops in the 
field out there. They need increased artillery support. I am 
going to support Senator Inhofe's amendment and gladly so, 
because, number one, I think the Army needs more troops, which 
is a subject for another hearing and another amendment which I 
will be proposing. I think the Army also needs greater 
firepower and lethality and greater range of coverage artillery 
support of all the troops on the ground. You can see it in 
Exhibit A in Afghanistan today.
    Mr. Secretary, why after pouring $2 billion down on this 
artillery piece did your staff, your top people, not buy the 
argument of a former Secretary of Defense, a former Chairman of 
the Joint Chiefs of Staff, and two of the most recent Army 
chiefs of staff? It seems to me that is pretty compelling 
testimony. Why did not you buy that?
    Secretary Rumsfeld. Senator, let me make a couple of 
comments and ask Deputy Secretary Wolfowitz to make a comment. 
First, I would like to clarify something that Senator Inhofe 
and you raised; you said just put it in a C-17 and take it 
over. The answer I gave you, to be very precise, is 60 to 64 C-
17 sorties to lift 18 Crusaders, 18 supply vehicles, the 
battalion, what you need to function and operate, is what it 
takes to move from the United States somewhere in Texas to the 
Middle East, for example.
    If you are going to Korea, it would take 50 to 64 depending 
on how it was done. That includes the 18 Crusaders, the 18 
supply vehicles. These 18 tubes is what you are getting. The 
ammo, the fuel, the water, the food, the command, the control, 
the crew, and what the unit needs to go and function. In other 
words, how they go and fight. I did not want to leave you with 
an inaccurate impression there.
    Senator, you asked how can you not take the advice of the 
former Secretary of Defense and the former Chief of Staff. 
These are fine people. I do not deny that. They're friends of 
mine. They are the people who make the system, a lot of them, 
and that is fine. They ought to be for it. I have said it is a 
good system. There is nothing wrong with it. The question is 
not whether the Crusader a good system; the question is how can 
the taxpayers best put their money to see that we have the 
fighting force we are going to need for the future.
    One other thing I would say. I do not know if you were here 
when I mentioned it, but when the Army came to me 25 years ago 
and said they wanted to have an M-1 tank with a diesel engine, 
the Army was unanimous. We decided to go with a turbine engine, 
and the Army thinks that is a good idea today. The very people 
who opposed it think it is a good idea today.
    The cruise missiles. The military did not want cruise 
missiles. They wanted to trade them off about 25 years ago and 
we insisted. The cruise missile has been a very fine weapon. 
The Air Force was not enamored of GPS. Over time, the Air Force 
recognizes how critically important GPS is. The Air Force 
wasn't enamored of unmanned aerial vehicles. In fact, General 
Jumper was, as an individual, as it turns out.
    But JDAMS. JDAMS were not the top of the list of the 
military. These situations have to be looked at that you should 
expect the services to come up with what they honestly believe 
is best, and there is no question that the Crusader is a better 
weapon than the Paladin, and we all acknowledge that.
    The Department as a whole has to look at what the joint 
warfighter has to deal with. He is not interested in what the 
Army thinks is the best piece of artillery, in what the Navy 
thinks is the best cruise missile, or what they think is the 
best airplane. He is interested in what he can bring to bear on 
a target in a given situation. It is that joint combined 
capabilities that make the difference.
    So, while I have a lot of respect for those people, it does 
not bother me that a Department could come, and there was 
plenty of analysis. The PA&E was involved in it and others 
were, the Joint Staff was in different pieces of this. Paul, 
you might mention some of these are actually--there is more 
development in some of them than there is in the Crusader.
    Secretary Wolfowitz. Yes. If I might, Senator, just on this 
issue of whether it is a pig-in-a-poke. The Guided Multiple 
Launch Rocket System is a system that is already far ahead of 
Crusader. The High Mobility Artillery Rocket System is another 
one that is far ahead. The Excalibur round, and we can give you 
detailed information on every one of these programs, which was 
planned for a 2008 IOC which would be the same as Crusader, we 
actually believe with this new funding we are requesting could 
be accelerated as early as 2004, 2005.
    You are absolutely right, I believe, about the need for 
indirect fires. We already demonstrated 10 years ago that our 
then-existing artillery and guided rocket systems were 
devastating to Iraqi forces. The systems that we are talking 
about here would be even more so, and it is the judgment, in 
fact, that those are more urgently needed than the high rate of 
fire and range that could be delivered by Crusader.
    Chairman Levin. Thank you. Senator Santorum.
    Senator Santorum. Thank you, Mr. Chairman. I just would 
like at the beginning to in part associate my remarks with 
Senator Lieberman. As the Chairman of our Subcommittee on 
Airland, he and I have been very concerned about this bow wave 
that is out there, very concerned about the Army's ability to 
make their tough decisions to modernize and at the same time 
field an Interim Force which this subcommittee has been the 
only subcommittee questioning the wisdom of doing so, and the 
financial strain it puts on modernization as well as 
maintaining a Legacy Force. I think we have been able to see 
some of the fruit being borne by some of the decisions on that 
issue. That is the cancellation of other programs and this one. 
There are 18 other programs that were canceled this year in the 
budget.
    I understand your analysis and why you are doing it from 
the standpoint of whether this is truly a transformational 
system, and whether it fits in with the transformation. My 
concern is one of finances principally. But I obviously have to 
consider your comments about whether this is, in fact, an 
appropriate system for transformation.
    I asked Secretary Wolfowitz, when he called me last week 
and we talked about this, were there any other proposals given 
to you, options given as far as downsizing of the amount of 
Crusaders that you are going to buy. The reason I asked that is 
because all the literature suggests that Crusader has three 
times the firing rate of the existing Paladins. So why are we 
doing a one-for-one replacement of 480 Paladins for 480 
Crusaders if we have three times the fire rate?
    When you are also talking about, as the Army seems to 
suggest that they want to be lighter and more lethal, having 
the same number of battalions of Crusaders, which is a heavier 
system than Paladin, it does not sound lighter. It sounds 
lethal, but it does not sound any lighter to me. So one of the 
things I asked Secretary Wolfowitz was were there any options 
being laid on the table where we could take a system that fires 
at three times the rate, and maybe reduce our buy by two-thirds 
and still have the same capability as the current Paladin gun 
system.
    If we did that, obviously the $11 billion program is not an 
$11 billion program anymore, number 1. Number 2, because of the 
increased automation of Crusader, it is a highly automated 
system where the Paladin is not, we would have a dramatic 
reduction in force structure associated with operating those 
artillery units.
    I asked my staff to put together a financial analysis of 
how this would work out, and if we, in fact, reduced the number 
of active duty howitzer battalions from 20 to 7 and reduced the 
number of personnel necessary to support those battalions, we 
would have an annual cost savings of $403 million. Now, there 
are two components of that: one is you are buying less 
Crusaders; and two, we have a lot less people involved in 
operating these systems.
    My question to you is, first, did the Army ever approach 
you when you worked at terminating this program because of your 
concerns about cost and suggest that this might be a viable 
option?
    Secretary Wolfowitz. I would say to the contrary, Senator. 
You might not have been here when Secretary Rumsfeld described 
the process in which we went through all of this here to 
produce a briefing that would be compelling to him about the 
decision to put Crusader in the budget. One of the things we 
went through in some eight meetings I had with the Army and 
multiple meetings that Secretary Aldridge's staff had with Army 
staff was to locate a way of showing you could actually get a 
significant force structure reduction out of Crusader. We never 
got an option out of the Army that showed that.
    But the other point is that as it became clearer and 
clearer to me that the real alternative was not to compare 
Crusader versus Paladin, but to look at what improved accuracy 
could get for you. Improved accuracy could have enormous 
effects including in lethality, including in avoiding 
collateral damage, but also in reducing the huge requirement, 
and it is huge, to deliver artillery shells.
    If you can hit a target with 30 rounds--say one round 
instead of 30 or one round instead of 100 or 150--it is going 
to have a big effect on that piece of your force structure. But 
what I found ultimately compelling was this argument for 
precision and for deployability.
    Senator Santorum. I guess, Mr. Secretary, I accept that 
argument. I accept that we have to be higher tech and we have 
to be lighter and higher tech means more lethality. I also 
share the concerns of others which is just having the raw 
firepower capability as an arrow in our quiver here is not 
something as you said you can dismiss out of hand.
    My concern is really not with you, but with the Army, as it 
has been for quite some time as I have served as a member of 
this committee. We have a member here from Georgia who suggests 
that he is going to offer an amendment to increase end 
strength. I would just suggest the opposite. We need to be 
talking to the Army in particular about not trying to hold on 
to people and to try to do what business is doing, what we are 
trying to do here which is to substitute technology for people 
and use the cost savings to increase our lethality and our 
efficiency.
    What I have seen here is a case in point of the problem 
with the Army. The Army has not come forward and said, yes, we 
want to give up people to have a mission that is more 
affordable and more lethal and higher tech. What you are 
telling me is in your meetings with the Army, they never put 
that on the table, is that correct?
    Secretary Wolfowitz. Essentially, yes, sir.
    Secretary Aldridge. Senator, could I just make a quick 
point? One is we have about $2 billion left to spend just 
through the fiscal year 2007 for the Crusader R&D. If we kept 
even whatever the size of the number of Crusaders we bought, we 
would still have a $2 billion bill and the R&D could not be 
applied to these new capabilities.
    Second, in terms of firepower, if you talk about a command 
center, command and control post, which is a typical Army 
command post of 20 by 20 meters, it takes 147 dumb artillery 
rounds to kill it. It takes three Excaliburs to do so. That is 
firepower when you can kill that target with three rounds 
immediately.
    Secretary Rumsfeld. The important part of that is that it 
is not just the fact that it takes three rounds to kill 
something. The logistics part of it is just enormous. The cost 
of bringing along the extra hundreds of weapons that are not 
needed if you have a precision weapon is just enormous. It is 
enormous in terms of dollars, and it is enormous in terms of 
time that you are capable of deploying and it is enormous in 
terms of maintaining it and moving it.
    Senator Santorum. Again, I accept all those things, but I 
think what you are saying is we need to go to precision 
weapons. I accept that. But I think what we are saying here is 
that there also is a place for this kind of firepower, a 
potential need for this kind of firepower. At least it is been 
testified over and over again that there is a need for this, 
and what you are saying is yes, we accept that need but we have 
a greater need for precision weapon.
    What I am saying is that at least for the analysis that I 
have looked at here, there is a potential to accomplish both. 
Now I understand the R&D costs and that funding gap, but it 
seems to me that the gap under this analysis is a lot closer, 
particularly if we can reduce personnel costs because those are 
not just 1, 2, and 3-year costs. Those are long-term costs and 
very expensive costs over the long-term--again, I do not fault 
you, I fault the Army for not coming forward with what I think 
would have been, well, let us just put it this way, would make 
your job a little harder to make this decision that you just 
made.
    Secretary Wolfowitz. Senator, could I just make two points? 
Number one, we have enormous capability to deliver massive 
firepower. We demonstrated that 10 years ago even with the 
systems of 10 years ago with our artillery and rocket systems. 
I think all the evidence from Desert Storm, no offense to the 
Air Force, that the Army artillery systems, rockets, and 
howitzers were much more devastating to the Iraqi artillery 
than anything we could do from the air. We have a lot of that 
capability already, and accelerating HIMARS and GMLRS will give 
us more of that mass.
    Point number two, and I think it is an important point, is 
this recommendation that we are making to Congress is not just 
to terminate Crusader, but to keep that money in Army indirect 
fires. I do think that one of the reasons for the phenomenon 
that you were describing and you are concerned about--that I 
believe the concern on the part of the Army is that if they say 
here's a savings that we can offer in order to get something 
that is more efficient, before they know it the savings will be 
taken and the efficiency will not be provided.
    This is a two-part recommendation. It is a recommendation 
to terminate Crusader, but to keep that money in systems that 
we vitally need. If we don't make good on that second part of 
it, the kind of resistance that you are describing will just 
grow.
    Senator Santorum. Mr. Chairman, I know my time is up, but I 
do want to make a point that the second part of your 
recommendation is vital, that we need to fund the Objective 
Force and we have done so in our subcommittee, even above what 
you recommended, and we do need to work to make the Army more 
relevant to the fighting of today.
    Senator Inhofe. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I 
appreciate your willingness to hold this hearing so quickly, 
and I want to thank Secretary Rumsfeld and General Shinseki for 
joining us this afternoon and I want to say thanks to Under 
Secretary Aldridge for dropping by. I want to join others in 
telling you that I am disturbed and concerned about the way the 
Department of Defense has handled the Crusader program in the 
past few weeks.
    In most situations I consider the Secretary of Defense to 
be the expert, expert on the needs of men and women serving in 
the Armed Forces. I rely on his advice and direction for what 
the Department needs to execute its mission of preserving our 
national security. A lot of my trust in his expertise and 
advice of his staff is based on my belief that he relies on 
those in the Department, both uniform and civilian, to 
determine what is best for the Department of Defense.
    I am having a very difficult time with this issue because 
it seems apparent to me that the Army is not being heard on 
this issue. I understand and support the need to transform the 
Army to be a lighter and more lethal force. I wholeheartedly 
support efforts to improve the technology necessary for the 
United States to maintain its superiority on the battlefield.
    I also, however, value the opinion of those who utilize the 
weapon system under discussion and must rely upon it for the 
safety of our men and women in the military.
    I am concerned with the precedent this action sets with 
respect to the Department's budget request. We rely heavily on 
the President's budget request to shape the authorization and 
appropriations, legislation for the Department of Defense. The 
Department's modification regarding Crusader so late in the 
process causes me to wonder whether this is going to be a 
continued practice by the Department.
    Normally when the budget request is received for a fiscal 
year, we rely on the information provided. My question to you 
is: are we now to expect that the budget request we will 
receive in the future will be subject to such changes and 
should not be relied upon as reflective of the Department's 
priorities for the upcoming fiscal year?
    Secretary Rumsfeld. Senator, just to walk through the 
process, of course, we started working in the Department of 
Defense on the budget for the year 2003 in the spring of 2001. 
It then is worked on and brought along with the services and 
then with the Office of the Secretary of Defense and it is sent 
over to the Office of Management and Budget in about November 
2001.
    It then is decided by the President and sent to Congress 
February 1, 2002, this year. This is for the year 2003. 
Congress starts working on it in February, March, April, May, 
June, and July, all the way through the year until it is 
finally passed the authorization, the appropriation, the 
supplementals, whatever it may be, and it starts on October 1.
    This is a fast-moving world. There inevitably are going to 
be amendments proposed to budgets that are fashioned a year and 
a half earlier. There is not any other way to do it that I know 
of, and I feel our obligation is that as we proceed with our 
work and as we develop defense strategy and go through the 
Quadrennial Defense Review. As we take the proposals from the 
services and meld them together into something that makes sense 
from a joint standpoint, not from a service standpoint, it is 
interesting what the services propose. But it is not 
determinative, it shouldn't be, because the warfighter does not 
go out and fight with the Army or fight with the Navy; he 
fights with all of those capabilities together, as you well 
know.
    So I guess the answer is, Senator, yes, there will continue 
to be amendments proposed. I do not know of anything that can 
be done about it. I wish there were some other solution.
    Senator Akaka. As I have said, I have been bothered by what 
has happened in the last few weeks, and I have wondered about 
the motive. Can you tell us where the option of cancelling the 
Crusader came from? Was this something that was first advanced 
by the resource community, the acquisition experts within the 
Department, or somewhere else in DOD? I am trying to understand 
the primary rationale and what it is behind your decision. Can 
you explain that?
    Secretary Wolfowitz. Senator, let me try to explain. Over 
the course of the first months of this year as we were 
developing Defense Planning Guidance to develop the 2004 
budget, we heard increasingly, particularly from the staff of 
the Under Secretary for Acquisition, the staff of Program 
Analysis and Evaluation, but also from outside experts 
including some retired Army officers, including some senior 
generals, from some members of the Army Science Board, and from 
people in DARPA that the real alternative to Crusader was not 
simply Paladin, that looking at it in terms of platforms was 
the wrong way to look at it, that the right way to look at it 
was in terms of technology and particularly the technology of 
precision strike.
    It was that analysis and that study which was quite 
considerable and consumed many hours that eventually led Under 
Secretary Aldridge to come to me late in that process of 
developing the planning guidance with the recommendation that 
there was this clearly better way to spend that money than to 
continue down the road with Crusader, and that is how we got to 
this recommendation.
    Senator Akaka. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Levin. Senator Bunning, you are recognized.
    Senator Bunning. Thank you, Senator. I appreciate that. 
First of all, I would like to enter into the record a letter of 
July 5, 2001, to General Henry H. Shelton from General 
Shinseki. For the record I would like it to be put in.
    [The information referred to follows:]

                                United States Army,
                                        The Chief of Staff,
                                                      July 5, 2001.
Gen. Henry H. Shelton,
Chairman of the Joint Chiefs of Staff,
9999 Joint Chiefs of Staff Pentagon,
Washington, DC.
    Dear Chairman: At the capabilities of the SLRG tomorrow, the QDR 
IPT may propose the termination of the Crusader. I know of no 
warfighting analysis supporting this recommendation and the risk such 
an action creates for the Joint Force commander is unacceptable. After 
consulting with the other Service Chiefs, we believe a decision to 
terminate Crusader without warfighting analysis would be a serious 
mistake.
    Until the Army fields its Objective Force, it will continue to have 
a critical shortfall in combat capability. Identified during Desert 
Storm, due to the obsolescence of its cannon artillery. Then and now, 
many of our potential adversaries have more capable artillery systems 
and in larger numbers. Since Desert Storm, we have reduced our active 
division strength from 18 to 10 as well as reduced key combat systems--
Abrams Tanks and Bradley Fighting Vehicles--in these divisions by 25 
percent. Also, the Army reduced the number of artillery battalions by 
35 percent while also reducing the number of howitzers within each unit 
from 24 to 18. These decisions were based on projected delivery of key 
combat enablers, a critical one being Crusader. Crusader mitigates this 
existing risk with its revolutionary fire support technology--
technology that ensures decisive overmatch while the Army transforms to 
the Objective Force.
    Crusader embodies more than two-dozen cutting-edge technologies, 
providing a more efficient and effective developmental path for the 
Army's Future Combat System. It allows the Army to validate doctrine 
and tactics for combat that rely on cockpit automation, robotics, and 
information exploitation in lieu of soldier-performed tasks. Crusader 
also provides unmatched synergy within the Joint Force as it 
capitalizes on advanced technologies to integrate with manned and 
unmanned ground and aerial platforms that employ information-dominant, 
network-centric warfare. Crusader-equipped battalions will provide the 
Joint Force Commander with continuous, immediate, all-weather, 360-
degree precision fires at an unprecedented 50-kilometer range and a 
sustained rate of fire over 11 rounds per minute (vice 1 round per 
minute for Paladin). Current and future Joint Forces require a 
strategically deployable system with enhanced mobility, sustainability 
(through reduced bulk ammunition demand) and higher operational ready 
rates. When combined with a reduction in system weight by one third, 
this weapon provides a dramatic increase in lethality per system 
deployed. Crusader unequivocally meets warfighting requirements.
    A decision to cancel Crusader would not only jeopardize an 
essential battlefield capability, but also eliminate a vital 
technological bridge for the Army's ongoing transformation. The 
Crusader is the cannon artillery system we are counting on to guarantee 
landpower dominance in this new century. I ask for your support for 
retaining this critical system.

            Sincerely,
                                          Eric K. Shinseki,
                                       General, United States Army.

    Senator Bunning. I am embarrassed. I am embarrassed for all 
three of you, Under Secretary Aldridge, Deputy Secretary 
Wolfowitz, and Secretary Rumsfeld who have come before this 
committee with a predetermined decision and no consultation 
with Congress of the United States after the QDR was finished, 
after all of the process that you went through to come up with 
the 2003 budget for the military, and then to hear the 
explanation you have given not only Senator Inhofe but almost 
everybody who has asked the question about how quickly you 
changed that decision once it became public. It went from 60 
days to 30 days, and it went to 4 days just like that.
    Now, it is hard for me to trust that decision. We honor the 
President of the United States today, who always said trust but 
verify. I am having a very big problem verifying the decision 
you have made with all of the explanations you have given 
today. I question why the same group of people who have had 15-
plus years on the V-22 to make it airworthy, and it still is 
not because you postponed the testing of it again and would not 
think about the $1.5 billion that is in the budget this year 
for that program.
    Let me ask you if this is accurate, because what we read 
sometimes does not have a darned thing to do with accuracy. In 
eastern Afghanistan at dawn March 2, U.S. troops assaulted 
Taliban and al Qaeda strongholds deep in the mountains with the 
expectation that 25 minutes of planned air strikes had softened 
or eliminated enemy resistance as Operation Anaconda kicked 
off.
    When the U.S. bombers and strike force had gone, the enemy 
popped out and took deadly aim at the troops that had come from 
my Fort Campbell, the 10th Mountain Division and the 101st 
Airborne Division springing off their helicopters.
    Back at U.S. military headquarters, staff officers 
frantically demanded more air strikes as units on the ground 
reported being under heavy mortar fire and requested immediate 
evacuation of their wounded. One of the officers of the 10th 
Mountain Division asked for helicopters. It is too risky, they 
were told. The artillery that the Army would normally use in 
this situation had been left at home, and instead the troops 
were depending on air support. Now, is that accurate or 
inaccurate?
    Secretary Rumsfeld. Senator, I would have to ask General 
Franks to ask the commander who was in charge of Anaconda to 
track back and trace that. I do know one piece of it that you 
and I have talked about, and that is the artillery issue. When 
you asked me that question in a private meeting, I asked 
General Franks about the question as to artillery and was 
advised that someone had made a request of the land component 
commander as to whether or not they were going to bring their 
artillery with them when they deployed to Afghanistan. The 
decision was made apparently below General Franks by the land 
component commander that the artillery would not be appropriate 
in that situation, and they instead, as I recall, brought 
mortars. But I do not know technically the other pieces of it.
    Senator Bunning. Could you, Mr. Secretary, have General 
Franks at least give us the courtesy of verifying one way or 
the other whether that was factual or whether it was not?
    Secretary Rumsfeld. I will be happy to do so.
    [The information referred to follows:]

    The Central Command Commander provides the following information in 
response to your question: [Deleted]. This situation would have existed 
regardless of the use of mortars, artillery, or close air support.
    Fire support during Operation Anaconda was adequate. [Deleted].

    Senator Bunning. I remember also a while back when you, 
Secretary Wolfowitz, and Under Secretary Aldridge came before 
this committee and asked for verification of your positions, 
and you told us--and I asked one question of all of you. You 
have to tell us the truth.
    I asked the same thing of the military people who were 
sworn in. I mean the Secretary of the Army, Secretary of the 
Navy, Secretary of the Air Force. Hope and pray to God that 
that is what we are getting today. I am having difficulty 
because of the circumstances under which this program has been 
canceled.
    You are supposed to be the experts, but I do not think 
anybody on this committee had any idea of what your intentions 
were when you submitted that budget. It was not until the day 
that this committee went into markups at the subcommittee level 
for this year's budget that we got wind of anything about the 
Crusader.
    Now, either that is poor timing or that is the way you 
wanted it. I do not know. Maybe you can explain that to me. But 
we were going in to markup on the Defense Authorization Bill in 
the subcommittees the day we heard about the Crusader. Can 
somebody answer that?
    Secretary Rumsfeld. I would be happy to. Would you put the 
other chart back up? Senator, the way this process works is 
that Congress, one house or the other, is continuously meeting 
on either a supplemental or----
    Senator Bunning. I was here when you had the chart up.
    Secretary Rumsfeld. There are, I think, just a handful of 
days where some body of Congress, committee or the whole House 
or Senate is not engaged in some aspect of the budget. The 
budget, as I said, is one that we prepared last year and worked 
over the summer, end of the fall, submitted to OMB in November, 
sent up here in February. There inevitably are going to be 
amendments to it.
    I do not know any other way that we can do business. As we 
go through the defense planning process, defense guidance 
process for 2004 to 2009, which is what we are in right now and 
which studies are being done and which will end and then will 
build the budget in summer or fall, we are going to have 
decisions come along.
    Then the question is what do you do with those? If you have 
your study complete, if you have done your work, if you have 
come to a conclusion, or whatever changes and you see where you 
are and you say, well, should we tell them now since that is 
where we are or shouldn't we? If we wait, more money is spent. 
It is awkward, I agree with you. To have it in the middle of a 
markup is not your first choice.
    Senator Bunning. We are having a difficulty getting a 
budget to the floor for 1 year in the Senate, as you might 
expect. My time is up. I understand that, Mr. Chairman. So I 
have some very serious reservations about your program. Thank 
you.
    Chairman Levin. Thank you very much.
    Senator Byrd.
    Senator Byrd. Thank you. Mr. Secretary, I come to this 
question today without feeling very sure-footed about where I 
am going to come down on it, as has been the case.
    I think I have to give you the great credit for your 
courage in cancelling a weapons system. This isn't something 
that's done every 24 hours here. You're entitled to a great 
deal of credit for having made a tough decision. I think I 
might be able to imagine, at least, the pressures that were on 
you. Having said that, I'm not, in my own mind, convinced one 
way or the other yet.
    Let me ask you a question on another issue, if I might. 
During the past 24 hours, new details as to who knew what and 
when about the September 11 attacks have surfaced. President 
Bush and many of his top advisors were told by the CIA on 
August 7 that Osama bin Laden planned to hijack commercial 
airliners. Mr. Secretary, were you aware of this CIA report?
    Secretary Rumsfeld. Let me take my time and respond very 
carefully about that.
    Senator Byrd. Certainly.
    Secretary Rumsfeld. I get daily--well, maybe 4 days a week, 
on the average, I get a briefing from the Central Intelligence 
Agency, as do any number of senior people. There are 
interruptions from time to time. You read through it, and you 
ask questions, and give assignments of additional work you'd 
like done. Sometimes you keep some of the less classified 
materials to read at a later time. Anyone who gets those 
briefings is at a senior level and is not the individual who is 
the person who would take action on an actionable piece of 
intelligence. So I don't want to leave the impression that what 
I'm going to say next is necessarily correct. But to my 
knowledge, there was no such warning, no alert about suicide 
hijackers or anything.
    There have been concerns about hijacking for months and 
years. I mean, that's why we have air marshals. That's why 
people have worried about hijacking for a long time. But I 
certainly don't recall having been presented or ever read 
anything that suggested anyone was going to hijack an airplane 
and fly it into a building.
    On the other hand, one has to assume that there was not 
sufficient granularity to issue specific warnings, or specific 
warnings would have been issued, had there been anything that 
would have been sufficiently actionable of the nature that you 
have described. In my view, as far as I'm aware, the people 
responsible for taking appropriate action took action that was 
appropriate, given the nature of the intelligence.
    I know that from time to time the Department of State 
issues warnings to their various embassies in parts of the 
world to the effect that they ought to be on notice, high 
alert, or they ought to move their people out of the embassy. 
We do that constantly. Our combatant commanders have that 
responsibility for force protection, as you well know, and they 
are, every day, changing alert levels, depending on their 
assessment of that information.
    But, in my view, I have not seen anything authoritative. 
All I've done is seen an article in the paper. I think it would 
be grossly inaccurate to suggest that the President had a 
warning of suicide hijackers about September 11. There's no 
question but that there were, and are today, daily repeated 
warnings about various types of threats all across the globe 
which are looked at by people who care about this country, care 
about U.S. interests, and take actions that are appropriate. A 
very small fraction of them are the kinds of intelligence that 
one would characterize as actionable. For example, a specific 
threat on a specific ship in a specific port, and, therefore, 
you might build your force protection, or you might get the 
ship out of port so you don't have another situation like the 
U.S.S. Cole. Those things are constantly being done. But 
anything that would be characterized as what I've seen in the 
press that would have suggested that the President had or 
should have had or might have had actionable intelligence with 
respect to what took place on September 11, I think, would be 
grossly inaccurate.
    Senator Byrd. When were you aware of this intelligence 
report?
    Secretary Rumsfeld. First of all, I'm not sure it was--when 
we say ``intelligence report,'' I think we think of the Central 
Intelligence Agency. My impression is that--what I look at 
tends to be fused intelligence. It will come from all 
intelligence sources, including the FBI. It's not clear to me 
that I would want to differentiate as to where this came from, 
because I simply don't know. I certainly don't recall anything 
about the flight schools, for example, in Arizona until well 
after September 11.
    Senator Byrd. I know that hindsight's pretty good. It's 20-
20, or better, I guess. Can it get better? I also know that the 
intelligence community must receive hundreds----
    Secretary Rumsfeld. Oh, thousands.
    Senator Byrd.--thousands of tips on a regular basis. 
Sifting through these must be not only a time-consuming job, 
but a very frustrating one. But this alert, this threat, was 
strong enough to present to the President of the United States, 
so it had to be serious.
    My concern is that the threat, like the FBI memo dated July 
10 that warned of bin Laden's use of flight schools, which you 
just mentioned, to train for terror attacks was virtually 
ignored. Were you about to comment on that?
    Secretary Rumsfeld. I think that that would not be a--I 
think that any implication that it was ignored--that the 
President had it and it was ignored by the President, it seems 
to me, would not be correct.
    But I'm really not the right person to be asked about this. 
As I say, I have so many things that I do, and one of them is 
not that. I scan them.
    You said something had to be sufficiently important to be 
presented to the President. I think that may be a misreading of 
the situation. Not surprisingly, it is not--threats, you cannot 
validate, generally, without a lot of work. As the threats come 
in, they then--the work goes into the process of trying to 
validate them.
    The question is what does one do if their task is to fuse 
intelligence and present it to policymakers, ought they to 
present a threat unvalidated? The answer is: sometimes yes, 
sometimes no. They do sometimes. So the number of threats that 
we see at that level are not a few. They're quite a few.
    Senator Byrd. Yes.
    Secretary Rumsfeld. Most are not correct. Most prove not to 
have been the case. Most prove not to have been actionable.
    Senator Byrd. Yes. I realize my time's up. The CIA briefing 
was presented, as I understand it, to the President at his 
Crawford ranch on August 7. The intelligence community 
certainly knew of the potential of Osama bin Laden and his 
terrorist network. There is a track record of bin Laden using 
aircraft as weapons. He reportedly tried such a tactic in Paris 
in an effort to destroy the Eiffel Tower. His plans were 
thwarted by a SWAT team when it shot the terrorist.
    In light of the alert and the Paris incident and the 
knowledge that bin Laden's terrorist network is well trained, 
let me ask this question as a closing question. Why was it that 
AWACS radar planes were not sent aloft to guard against this 
danger? It seems to me this would be something in your 
bailiwick. Why was it that AWACS radar planes were not sent 
aloft to guard against this danger to monitor for a rogue or a 
hijacked aircraft? Why were those planes left on the ground 
until after the attacks occurred? Could you answer that?
    Secretary Rumsfeld. Senator, I can't--in answering, I would 
not want to validate the premises in your question, because I 
am not knowledgeable enough about what you have said. I don't 
know what the President was briefed or when he was briefed or 
where he was briefed about what. I just really cannot address 
that.
    Senator Byrd. I can appreciate your answer, but it seems to 
me that the AWACS radar planes--in the light of the track 
record of Osama bin Laden--should have been sent aloft to guard 
against this danger. So I'm concerned as to why those planes 
were not sent aloft until after the attacks occurred.
    Secretary Rumsfeld. Well, I guess the answer would be that 
the people who deal with that very likely had no reason to 
believe that the hijackers would take planes filled with 
Americans and, for the first time in the history of our 
country, fly them into buildings. It was an event that was 
unprecedented. It had not ever been done before in our country. 
The minute--the hijacking problem was a continued threat for 
many years beforehand, and we all knew that. But the way that 
was dealt with was entirely differently. The airplanes were 
equipped with beacons and indicators and radio signals that 
they could send if they were in a hijacked situation. The FAA 
had procedures. It is perfectly possible to put planes on alert 
and track things once that hijacking alert goes out. But that 
is a very different thing from what took place on September 11.
    Senator Byrd. Mr. Chairman, I have exceeded my time. You 
have been very liberal, thank you. Thank you, Mr. Secretary.
    Chairman Levin. Thank you, Senator Byrd.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. Mr. Secretary, 
first of all, I want to say that I support fully your decision. 
I know it was not an easy one. I know it's always difficult and 
very disappointing to large numbers of supporters of a very 
excellent weapons system. I also know that other tough 
decisions are going to have to be made in the future. This is 
only the first, since anyone who looks at the projected number 
of weapons systems that are on the drawing board or proposed or 
in various stages of development--we will not have sufficient 
funds to fully fund all of these systems.
    I think Senator Lieberman already referred to the 
``Transforming Defense: National Security of the 21st Century'' 
report in December 1997. Back in 1997, they concluded, as far 
as land forces are concerned, ``become more expeditionary, 
fast, shock-exploiting forces with great urban operations 
capability, reduce systems that are difficult to move and 
support, shift to lighter, more agile automated systems.''
    As far back as 1997, we are pretty aware that there has to 
be a transition and a transformation as a result of the end of 
the Cold War and the new challenges that we face in Kosovo, 
Bosnia, and in Afghanistan. Again, it was proved, the efficacy 
and, indeed, the requirement for precision-guided weapons and, 
frankly, a kind of mobility that even those of us who study 
these issues were probably not aware of.
    I'd also add, Mr. Secretary, that during the Presidential 
campaign, I had the privilege of campaigning with the 
President. He stated unequivocally on numerous occasions all 
over America that we had to transform our military 
establishment, that changes had to be made, and that tough 
decisions had to be made; he was fully prepared to make them. I 
know you didn't make this decision without full consultation 
and approval of the President of the United States.
    Finally, let me say, I've seen this debate going on about 
the timing. I'm a bit entertained, Mr. Secretary, because just 
last December, I happened to be combing through the Defense 
appropriations, not authorization, bill and found that we were 
going to lease/purchase a hundred 767s. I didn't hear any 
complaints about the timing and we didn't even have a hearing. 
We didn't have a hearing. The chairman of the committee was not 
even consulted. There was not a phone call from your Secretary 
of the Air Force to the chairman of this committee to obligate 
this--the taxpayers of America to somewhere around $26 billion.
    So the argument that you didn't adhere to some certain time 
schedule, frankly, is not too persuasive. The way that we are 
doing business around here, by putting in billions and billions 
of dollars into the Defense Appropriations Bill, which we 
always consider last and vote on just before we go home for 
Christmas, is not exactly a model, I would think, for any kind 
of process in making decisions as far as our nation's defense 
is concerned. Someday maybe this committee will reassert its 
jurisdiction and authority, at least I will continue to work in 
that direction.
    So, Mr. Secretary, I know there's no good time for a 
decision such as this. There is no good time. Not Christmas 
Day, not when we are going into markup, not any other day. I 
wish that circumstances would have been such that we could have 
fully briefed every member of this committee, which the 
Appropriations Committee does not do when they are putting the 
Defense Appropriations Bill together.
    I guess I would just ask a couple of questions. For 
example, the Paladin is supposedly 40 years old. Is that true?
    Secretary Rumsfeld. Well, I'm no expert. Senator Inhofe and 
I have talked about this. There's no question but that the 
basic artillery piece started decades ago, which, of course, is 
also true of most of our weapons. The F-16s, they go----
    Senator McCain. Under this kind of calculation, the F-18 
would be about 40 years old?
    Secretary Rumsfeld. I guess. The fact is that the Paladin 
that we now have is about five and a half--5.6 or 6.6 years 
old, average age, and it was entered into the force in its 
current configuration in 1992 after Desert Storm, and that 
there are elements of it that preceded that.
    Senator McCain. By the way, Mr. Secretary, you know that 
the engines for the Crusader are made in Arizona, and a lot of 
the testing of the Crusader would take place at the Yuma 
Proving Ground in Arizona. So I take that into consideration, 
as you do as to where these weapons systems are manufactured 
and where they will be employed and tested.
    But I am of some confidence that the artillery systems that 
you are putting in place earmarked for the United States Army 
will require expenditure of funds, testing and development, et 
cetera. Isn't that an accurate statement here?
    Secretary Rumsfeld. Would you respond to that, please?
    Secretary Wolfowitz. There's no question that, in fact, 
we're not talking about reducing the Army budget, reducing the 
budget for Army artillery. In fact, I believe that actually by 
investing more in systems that have, I think, a longer future 
to them and accelerating those systems and keeping Army 
artillery relevant for future battlefields, if one's talking 
about sort of business or commercial interests, then we're 
actually enhancing the future of artillery.
    Senator McCain. Mr. Secretary, what role would the Crusader 
have played in Afghanistan?
    Secretary Rumsfeld. That's a question, I think, that 
probably would be better asked of General Franks, but the 
period of systematic organized ground action was relatively 
brief. The deployment of Crusader is not a simple matter. Is it 
a complex matter. You have to either have a port, or you have 
to have airfields that can take those aircraft and that are 
sufficiently secure from attack that you can get them off the 
aircraft and get them reassembled, put back together, and then 
find ways to get them from where that airfield is to where the 
battle is; that is not an easy thing, given the weight. It's a 
heavy piece of equipment.
    Senator McCain. In Kosovo, the entire operation was carried 
out from the air. As I recollect it, the war in Afghanistan was 
primarily from the air until we reached, sort of, mopping-up 
operation. But the initial battles such as outside of Kandahar 
and other places, using Northern Alliance troops, but with the 
major weapons being precision-guided missiles from the air. Is 
that an accurate----
    Secretary Rumsfeld. That's true, but that didn't work until 
we had forces on the ground imbedded with those militias in a 
way that they could provide the targeting and provide the 
coordination that began to make just an enormous difference.
    Senator McCain. My time is expired. Mr. Secretary, I hope 
that you succeed here. I think that all of us should be aware 
that if you fail here, it will be very difficult to make any 
other of the much-needed changes and transformations that you 
committed to at your confirmation hearings in response to 
questions from the members of this committee. I thank you.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Collins.
    Senator Warner. Mr. Chairman, could I address the chair 
before my colleague starts?
    We have a second panelist, General Shinseki, who is 
waiting. I would strongly recommend that we not go to another 
round of questions, following the exercise of a question period 
by those who haven't had an opportunity to do so. In fairness 
to him, he's been waiting for some period of time. Frankly, I 
think reporters and others following this hearing would want to 
hear his views firsthand, before the newspapers have to go to 
bed, as the old saying goes or the news cycle is gone. The 
Secretary has fully replied with good statements.
    Chairman Levin. Even though I thought the media was 24/7 
these days, never goes to bed, never rests, I think it's a good 
suggestion. Is there any opposition to that idea that we go 
directly from this round to General Shinseki?
    By the way, Senator Dayton had to leave to preside over the 
Senate. He will be back after his hour of presiding is over at 
7 o'clock. I'm sure we're still going to be here, and he's very 
vitally interested in this subject.
    So if there's no objection, we will just have one round of 
questioning, and then we'll go to General Shinseki. Okay? Is 
that all right with everybody?
    Senator Collins.
    Thank you for the suggestion.
    Senator Warner. Thank you, Mr. Chairman.
    Senator Collins. Mr. Secretary, senior Army leadership from 
the Secretary to the Vice Chief of Staff have testified 
repeatedly before this committee about the transformational 
capabilities of the Crusader. Strong testimony from the Army 
was given before this committee as recently as March 14. Did 
you consult with senior Army officials and the Secretary before 
making your decision, or did you essentially inform them of 
your decision?
    Secretary Rumsfeld. Senator, I guess the answer is that we 
went through a process over a year and a half where we had 
meeting after meeting after meeting. The Crusader was discussed 
in any number of meetings with the civilian and the military 
leadership of the Department. The technical question of ``did 
someone consult before the final decision was made,'' it seems 
to me, is an awkward one, because what took place was that I 
was out of town, and the Deputy was chairing a series of 
meetings during the week. I was in Afghanistan and the 
neighboring countries. I came back, and it ended up, before he 
made a final recommendation to me, before I ever spoke to the 
President, it was in the press. It had leaked to the 
contractors. The contractors had called Congress. The whole 
iron triangle worked in real time, just magic. As Senator 
Bunning said there's no question but that it ends up being 
untidy.
    I don't know quite what one does about it in Washington, 
DC, when you have the intimate relationships between the 
contractors, Congress and the Department of Defense, and 
everyone has an interest, and everyone's interested, and the 
minute someone hears something, before someone even finished a 
meeting, they were receiving phone calls about the issue.
    Now, I think the answer is that the senior Army officials 
had, over a period of a year and a half, a great deal of 
involvement in this. They briefed me. They briefed the Deputy 
Secretary. On the other hand, it is perfectly possible for 
someone to say at the last moment that they did not know the 
last decision. But that's true with everything, with me, with 
the President. The President--we have interagency things, just 
as we do in the Pentagon where we have inter-service things. 
When the services make their recommendations, it comes up, and 
they have to be melded together at some point, because the 
combatant commanders don't fight Army or Navy or Air Force. 
They fight joint, and they have to. So someone has to pull that 
together.
    Senator Collins. That's certainly true. What I'm trying to 
determine was the extensiveness of consultations and whether or 
not you would disagree with press reports that said that Army 
officials were surprised by your decision.
    Secretary Rumsfeld. There's no question but that a single 
person in the Army could say they were surprised. There's also 
no question but that I could say I'm surprised. When we have a 
big interagency discussion and the President goes off and makes 
his decision, I'm not in the room when he makes his final 
decision and he announces it. That's the way it is in big, 
complicated organizations.
    Senator Collins. Right. I'm not talking about a single 
member of the Army. I'm talking about the senior leadership of 
the Army.
    Secretary Rumsfeld. Well, the Deputy Secretary was dealing 
with them every day.
    Secretary Wolfowitz. We had months of intensive discussions 
with the Army at all levels, including staff levels, including 
my level with the Secretary of the Army, and a great deal of 
exchange of views. As the Secretary said, when it came to the 
final moments of the decision, who was in the room was a 
different issue, but we had extensive discussions with the Army 
about Crusader and also as these alternatives developed.
    Senator Collins. Under Secretary Aldridge, defense programs 
that have been cancelled in recent years, for the most part, 
because they were in violation of the Nunn-McCurdy law. What is 
the cost status of the Crusader program? Were there any 
significant cost overruns or any breaches of the Nunn-McCurdy 
law?
    Secretary Aldridge. There's only been one program that I'm 
aware of that's been terminated based on Nunn-McCurdy. That was 
the Navy Area System that I did not certify. There is no 
problem with the Crusader program. It's in system development 
and demonstration phase, which is essentially the engineering 
development phase. The decision was going to be made to enter 
into that phase in April 2003, so it has not entered into 
engineering development as of this date. The program was on 
schedule--it was within the cost estimates. There was some 
uncertainty with regard to performance, with regard to its 
weight, because they still had problems in getting its weight 
down. But it was not an issue of cancelling a sick program. The 
program was proceeding. It was a question of what is the right 
alternative to the program, not because it was in trouble.
    Senator Collins. Mr. Secretary, Senator Santorum mentioned 
the issue of the manning--the personnel costs of DOD. People 
are expensive. There are lifetime costs associated with it. 
It's my understanding that the total crew for the Crusader for 
both the howitzer and the resupply vehicle is only 6 people, 
where you would have to have, for the Paladin, a total of 27 
members of the crew to have the equivalent fire power. What was 
your assessment, as far as the life cycle costs and the manning 
costs, for the two systems?
    Secretary Aldridge. Let me address that. As we have said on 
numerous occasions, it was not a question of Crusader versus 
Paladin. I mean, we understand. The Paladin is an older system, 
although it's still only 6\1/2\ years average age. But the 
Crusader was going to be a better system with a better gun, 
with a better cockpit, with more data and so forth.
    But, as we look into the future, if you go to the Future 
Combat Systems, which--there is no disagreement between the 
Office of Secretary of Defense and the Army as to the ultimate 
objective. The Future Combat Systems is the right direction 
with all of its lethality, mobility, and survivability, et 
cetera. So the question was--we were heading in that direction 
and Crusader got in the way, because it was a $9 billion bill 
that prohibited us from moving in that direction as fast as we 
would like to have gone.
    When we get to the Future Combat Systems, we're going to be 
looking at a lot fewer manning per unit. For example, the 
NetFires concept, which is, essentially, a 15-tube missile in a 
box that is highly mobile, taking only two people to run the 
whole thing, so it doesn't require all the firepower and 
manning, and it could be operated much less expensively than 
any of them even Crusader or Paladin.
    So we need to move in that direction, and we need to get 
there faster. That's what the reallocation of these resources 
will allow us to do. While we're getting there, we can make the 
old artillery much more effective. Excalibur gets into the 
field 2 years earlier. It's much more accurate than it would be 
with Crusader, because Crusader was going to deliver Excalibur 
in the year 2008--associated with Crusader. We can actually now 
make it available for Paladin, for the lightweight 155 and for 
any other artillery gun that will carry that 155, including our 
allies.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Collins.
    Senator Hutchinson?
    Senator Hutchinson. Thank you, Mr. Chairman. I understand 
and know General Shinseki has been waiting patiently, and I'll 
try to be brief. Much of this has been hashed and rehashed. I 
was gone during part of it, so forgive me. I know there's been 
some acknowledgment--we've all got parochial interest. I think 
everybody on this committee, and hopefully everybody in the 
Senate and Congress, cares most of all about our country and 
the defense of our country, but we also care about jobs in our 
states and our communities, and these programs all involve 
that.
    The Department has indicated that the Crusader funds might 
be used for transformational weapons systems like the MLRS 
system and the HIMARS, both of which are produced in Camden, 
Arkansas, so I have an interest in this, as well.
    If I could just ask Secretary Wolfowitz to help me in 
walking through the time line on the decision-making process in 
recommending termination of the Crusader. I know that the 
chairman went through this, and I was scribbling down dates and 
making notes, and I'm sure I didn't get it all right.
    April 29, there was, I understand, a Secretary Aldridge 
recommendation for termination. At some point, there was a 
discussion with Secretary White. Secretary White, who had 
reservations about that recommendation asked for a 60-day 
review. That there was a decision then to give a 30-day review 
of that recommendation or a further analysis. Am I on track on 
those dates at all, or--help me out, Paul.
    Secretary Wolfowitz. Let me back up, because there was--it 
was a long process that began long before April 29. Forgive me 
if I'm repeating things that you heard already, but I think you 
may have been out of the room.
    Starting early this year, we began both looking at how to 
present the issue, the argument for Crusader in the context of 
the 2003 budget. We also began to work on the defense planning 
guidance that would guide the 2004 budget. Over the course of 
those briefings, discussions, and extensive analyses by 
civilian staffs of the Under Secretary of Defense for 
Acquisition, the office of PA&E. Along with a number of outside 
people we consulted with, including retired generals, we 
increasingly, frankly, had some doubts about the strength of 
the case for Crusader. But, more importantly, we developed a 
much stronger appreciation of what the real alternatives were 
and that the real alternatives were precision systems and 
lighter systems like the HIMARS or the NetFires or the Future 
Combat System.
    So all of that started to come together in April. I'm sorry 
Senator Bunning isn't here, but I think it is important to 
emphasize that in every step in this process we have tried to 
be as clear and direct with Congress as we can. We don't turn 
off our brains on the 2004 budget when we're up here talking 
about the 2003 budget. I was asked by the Chairman on April 9 
about Crusader. As I said earlier, what I said then is that 
Crusader is a system that brings us some dramatic new 
capabilities, but if we can bring forward some of the 
transformational capabilities more rapidly, we might see ways 
to put that Crusader technology into a different system. That 
was on April 9.
    By April 29, Secretary Aldridge had come to me with a very 
specific proposal for how to do exactly that. We met with 
Secretary White on the evening of April 29, discussed that 
alternative, and my decision--I believed we should proceed in 
that direction. He said he wanted to think about it overnight. 
He left my office. It turned out, even as we were meeting, we 
were starting to get phone calls because of that iron triangle 
communication that the Secretary referred to.
    He came back the next morning, May 1, and said he would 
like 60 days to study the alternative. We said we'd consider 
that, told him in the afternoon that that was too long, given 
where this body was in its deliberations about the budget. We 
thought we could do it in 30 days. But, frankly, the enormous 
amount of debate and discussion that had been generated by 
those leaks and, I think, to some extent, by the unfortunate 
talking points, made it clear that if we're going to have 
information here in a timely way for this committee to make its 
decisions, we had to do our analysis faster. That's how we got 
to where we are. We have, in fact, completed that analysis. 
Secretary Aldridge's office and the Army had come to an 
agreement about the right way to design that alternative, and 
we will be presenting that here shortly in detail.
    Senator Hutchinson. It just seems to be--I think----
    Chairman Levin. I didn't quite hear. What will be here 
shortly? Excuse me.
    Secretary Wolfowitz. The specific allocation of money in 
the budget amendment will be here shortly.
    Senator Hutchinson. Ideas as to where you would recommend 
the Crusader funds--how that would be used for other----
    Secretary Wolfowitz. Right.
    Senator Hutchinson.--transformational programs.
    Secretary Wolfowitz. Right.
    Senator Hutchinson. The question that the chairman asked at 
one point was what happened between May 2 and May 8, because 
there was an agreement, or there was a decision to give 30 days 
of further analysis and review, and we ended up with a decision 
that happened much, much quicker. Though we can talk about 
expedited analysis, it seems to me what really happened was 
that there were talking points, and there were leaks. By the 
way, my office didn't get those talking points. I don't know 
how we got left out of the loop on that. But that's really what 
happened. That seems to me that as far as further analysis, 
further review, or further evidentiary, gaining greater 
knowledge on it, that really wasn't what happened. That really 
wasn't the issue.
    The issue was that we had leaks, we had talking points, 
and, therefore, without regard to 30 days of additional 
analysis and review, here was the final decision. I understand 
that decision-making process had been long and there was a 
complete analysis and that you're satisfied with the decision. 
But the fact in my mind is there was an agreement, we're going 
to look at this 30 days more, and that ended up being truncated 
for a May 8, announcement or recommendation.
    So do you, Secretary Rumsfeld, just for my comfort level, 
do you anticipate making other cancellation recommendations on 
programs in the coming weeks?
    Secretary Rumsfeld. Senator, if I knew of any, I would do 
them today, because time is money. I don't know if you were 
here when I mentioned about our Defense Planning Guidance 
process, but we really had four baskets. We said, in the first 
instance, do this, and we don't want to discuss it anymore. 
Second is, come back with several options, but make sure one of 
the options is this, because we think that's the best option. 
The third is, come back with options of any type. We don't have 
an opinion. The fourth was, come back with a plan as to how we 
can improve some capability that this country needs.
    A whole series of programs were put in those various 
baskets, and those studies will be coming along in the next 30, 
60, 90, and 100 days, some places 6 months. We would like to 
see that we could get them done as we build the 2004 to 2009 
budget. I mean, that's our job.
    Senator Hutchinson. Mr. Secretary, you know where those 
baskets are a lot better than I do, and you know, where all of 
those are in the process. My question was, do you anticipate 
any of those coming to the point that you're going to be making 
those decisions and recommendations in the coming weeks?
    Secretary Rumsfeld. My answer was my--to the best of my 
ability, if I knew one, I would tell you right now. I do not 
know how those studies are going to come out. I just can't 
know.
    Senator Hutchinson. Mr. Chairman, as Senator McCain said, 
there's never a good time to make a tough decision. I agree 
with that. There's not a good time. There may not be a good 
way. But there's certainly a bad time, and there's certainly a 
bad way. From my perspective, there was some mishandling of 
this decision-making process.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hutchinson.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. I recognize that 
it's been a long afternoon. I have one general question. But I 
also recognize that this is a tough decision that you've made, 
Mr. Secretary. Regardless of the conclusion, I think we 
recognize the fact that you're not shy about making tough 
decisions, and that's a quality that I think should be 
recognized in a Secretary of Defense.
    A lot of what we're all speculating about is what the 
battlefield of the future looks like. I just want to get your 
response to the notion that somehow related to eliminating 
Crusader is perhaps the perception that we won't be fighting in 
the future with heavy forces--with tanks, with self-propelled 
artillery, with mechanized infantry--that the battlefield will 
look a lot more like Afghanistan and other places than it does 
the central plains of Europe or previous scenarios.
    That is an important question, because the United States 
Army is not the sole force for that type of warfare, but that's 
its marquee mission. There's concern that this decision goes 
beyond simply one system, but embraces a view of what the 
battlefield of the future will look like. I would just like to 
have your comment about that.
    Frankly, I guess one could argue that if we do feel the 
future we're fighting with heavy forces, particularly if we 
feel that our opponents might be capable one day of denying us 
space assets, like GPS, of operating in a toxic environment, 
that this Crusader looks a lot better than it does today when 
we're making the match-up based on recent experience in 
Afghanistan.
    Secretary Rumsfeld. Senator, that's an important question, 
and there is no question in my mind but that the Army--that 
this decision ought not to be interpreted in any way as 
suggesting that the United States is not going to need an Army 
or that we're not going to need artillery. We are. If for no 
other reason, the deterrent effect of having that capability is 
what keeps other countries from developing those capabilities 
and believing then that they can use them against us. So the 
fact that every aspect of the United States Army did not end up 
being used in Afghanistan, which was distinctly different and, 
I would submit, unique. It's land locked. It's a long way from 
here. It's got difficult situations on its borders. It's 
mountainous, porous borders. So I think we ought not to think 
that Afghanistan's the model for the future.
    I do think that our forces are going to have to be--we're 
going to have to have capabilities that we will characterize 
with respect to some of our forces, a good portion of our 
forces, that are light, that are rapidly deployable, that are 
lethal and precise. That doesn't mean that the other 
capabilities aren't going to be needed. So it's not an accident 
that we're suggesting that the funds from this particular 
weapons system stay with the Army and provide the kinds of 
things that were on that earlier chart.
    Senator Reed. Thank you, Mr. Secretary. Again, this has 
been a long hearing. We still have not heard from General 
Shinseki, and I think the difficulty of your choice has now 
been visited upon us. Thank you very much.
    Secretary Rumsfeld. Thank you.
    Chairman Levin. I believe Senator Sessions has not had a 
round.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I can see relief 
fade on the panel. [Laughter.]
    Mr. Secretary, I just want to tell you, you've done a 
tremendous job as the Secretary of Defense of this country, 
even better the second time. You have really served us well. 
You understand the complexities of modern warfare, and you know 
the history of the American military. I know this has not been 
an easy decision.
    I have people I respect on both sides of the issue. My 
respect for Jim Inhofe is just unbounded. There's nobody on 
this committee that's spent more time seeing the troops and 
talking about these issues than he. But I'm inclined to believe 
that we've just got to make this move. I intend to support you 
in it. It's quite possible, I believe, that we could leap 
ahead.
    Tell us about this money. We've got $8-or-so billion, $9 
billion left to spend. If we stop this program, can you 
accelerate some of these other programs that are out there in 
our plans? Can they actually be speeded up if you make this 
decision?
    Secretary Rumsfeld. I think two things happen. The first 
thing is something bad doesn't happen. That is that as we go 
forward to the bow wave, the Crusader will not shove out Future 
Combat Systems farther than it already is, and I think that's a 
good thing. Second, we do----
    Senator Sessions. When you say ``shove out'' our goal to 
reach the Future Combat System, it's being shoved out because 
the money isn't there to bring the Future Combat System up 
sooner, because it----
    Secretary Rumsfeld. The bow wave that we would face if we 
had all of these programs and platforms in the budget, the bow 
waves, as they go up and become at the stage of deployment, 
starts going up like this. That means everything gets squeezed. 
What gets squeezed is what does not exist. What does not yet 
exist is the Future Combat System.
    So there's no doubt in my mind but that the funds can, in 
fact, strengthen the Paladin, accelerate the Future Combat 
Systems, migrate the technologies from Crusader, which, in a 
number of instances, are impressive, into other systems, and 
advance Excalibur and bring forward some precision munitions, 
which we believe will have a significant effect on the 
battlefield.
    Senator Sessions. Well, I think it's important for the 
American people to realize that you have--you're not cutting 
the defense budget.
    Secretary Rumsfeld. That's true.
    Senator Sessions. You came to this office, and you've 
recommended and presided over tremendous increases. As a matter 
of fact, we were under $300 billion, I believe, when you took 
office. Then it was up $40 billion, now up to $379 billion in 2 
years, plus the supplemental that I'm not counting in there. So 
that's a tremendous advancement in our commitment to our 
national defense, but even with that, as you noted, we've got 
to pay for salaries and health care and overhead and all of 
those things. Even with that, we don't have a dime to waste, 
not one dime to waste.
    Secretary Rumsfeld. Exactly right.
    Senator Sessions. I don't know the perfect answer, but I 
know that this isn't a decision you made just in the last few 
days. You've been wrestling with this decision since the day 
you took office. There's been hearings and meetings and 
committees and Congress has known this program has been under 
review, as have been several others. So, Mr. Chairman, I'm glad 
we don't have to have Congress meet down here and sit on that 
table to answer how we do our decision making process. 
[Laughter.]
    It's pretty good all in all, all things considered, I 
think, the procedures that you have utilized. So, I will yield 
my time. Thank you, Mr. Chairman.
    Secretary Rumsfeld. May I make a couple of comments, Mr. 
Chairman? One, I do want to thank Senator Inhofe. He has 
invested an enormous amount of time in the Army, in artillery, 
and his comments and suggestions in my view have contributed to 
a constructive development of a record.
    Second, I want to clarify one thing I said to him. I said 
to him that the data had come from the Army with respect to the 
airlift of 60 to 64 in one case, and 50 to 64 in another. I 
double checked it, and it turns out that the battalion 
information on operation and organization came from Fort Sill's 
draft plan for the Crusader battalion. It was meshed then with 
TRANSCOM's airlift loading model to produce the data that I 
presented. That's where that came from.
    Next, we've talked a lot about what military people 
recommend, generals and admirals, and it's important what they 
recommend, and we care about what they recommend. I think the 
reality is that if any general or admiral is asked whether they 
would trade the capabilities this country has for the 
capabilities of some other country that may have a weapon that 
shoots farther or shoots more rapidly and has to go up against 
the joint strike capability that our country has, I think there 
isn't a general with his head screwed on that would not, in a 
second, say he wouldn't trade ours for anybody's.
    Next, I think it's important that we've spent this time on 
this subject, not because Crusader is the only thing that's 
important, but transformation is important. It seems to me that 
if--you have to ask the question: If not now, when? Is there 
nothing--is there nothing--that we're doing that we can ever 
stop? We have to be able to address important issues, get them 
up on the table, talk about them, and, in an orderly 
constructive way, come to some conclusions with respect to 
them. The choices are not easy.
    President Bush is determined during his term to contribute 
to transformation of the Armed Services. I am determined to do 
so. When I was confirmed, I said I was not accepting his 
request that I serve as Secretary of Defense to sit on top of 
the pile and tweak and calibrate what's going on, but I did 
believe things needed to be done, and I intended to make 
recommendations to Congress and to work with Congress to try to 
see that that's done.
    I would say, last--several Senators have mentioned it--we 
simply have to care about the taxpayers' dollars. We have an 
obligation, because, as Senator Sessions says, the dollars, as 
many as there are, and it's many, many billions of dollars, 
hundreds of billion dollars, we still are not doing things we 
could be doing, we should be doing. We need more ships. We need 
a more modern aircraft fleet. To think that we should be 
reluctant to make changes in programs and to not transform and 
to not modernize and take those steps, and, instead, to 
continue doing things that we might better not do or is 
attractive as they might be or might not be the very best way 
to do something, I think, would be unfortunate.
    So I appreciate your taking the time to do this. I look 
forward to working with you to see if we can't leave a better 
military for our successors.
    Chairman Levin. Just a couple of comments. First of all, 
for the record, we will expect, Secretary Aldridge, your 
recommendation of April 29, I believe.
    Second, I would make part of the record a portion of the 
Army Inspector General's report, a redacted portion, but it 
addresses an issue which has been very troubling to many of us, 
and that is subparagraph B on page 45, which says the 
following--this is the Army's own Inspector General--``The 
evidence established that the Vice Chief of Staff of the Army, 
the VCSA, received a document from a defense contractor source 
on April 30, 2002 which addressed the termination of the 
Crusader program. Prior to receiving this document, the Army 
was unaware of any proposed change to the Crusader program.'' 
That's the Army's Inspector General who says prior to receiving 
a document from a contractor on April 30, the Army was unaware 
of any proposed change to the Crusader program. That is a 
highly disturbing finding of the Inspector General.
    [The information referred to follows:]
                  Secretary Aldridge's Recommendation
    On April 29, I recommended that the $475.6 million of fiscal year 
2003 funds be redirected into five programs. These were: Excalibur, 
Guided Multiple Launch Rocket System, NetFires, High Mobility Artillery 
Rocket System, and Crusader Technology.
                Army Inspector General's Recommendation
    The evidence established that the VCSA received a document from a 
defense contractor source on April 30, 2002, at 0901, which addressed 
the termination of the Crusader program. Prior to receiving this 
document, the Army was unaware of any proposed change to the Crusader 
program.

    Finally, Mr. Secretary and your colleagues, let me just say 
this.
    Secretary Rumsfeld. If I'm not mistaken, if I may, on that 
subject, so it's part of the record right there--my 
recollection is that that occurred also before the Deputy 
Secretary advised me of his recommendation, or I advised the 
President of my recommendation.
    Chairman Levin. Okay.
    Secretary Rumsfeld. So the contractors were Johnny-on-the-
spot.
    Chairman Levin. Yes. There's one thing that we shouldn't 
let the contractors do, or anyone else do, with leaks, and 
that's drive public policy.
    Secretary Rumsfeld. That's right.
    Chairman Levin. I think what troubles me process-wise here 
the most is that after there is a process put in place that 
says we're going to look at the pros and cons and the 
alternatives for 30 days, that because something is leaked to 
the press, then suddenly there is a change of course, and a 
policy decision is made that had not previously been made.
    We cannot allow leaks to drive policy in this town, or else 
we're all going to be driven crazy. Leaks occur every single 
day, and we will make some bad policy decisions, because leaks 
are a way of life around this place. So I think that when you 
acknowledged that it was leaks to the press that suddenly 
truncated that 30-day process, and now we're not going to let 
that 30-day process finish, where the pros and cons are 
completed, where the alternatives are looked at, tough 
decisions are made tougher. There's no doubt these are tough 
decisions, but they're made a lot tougher when there's a 
process put in place, the alternative are supposed to be looked 
at, and a decision is supposed to be made, then there's a leak, 
and boom! That's it. We're now making a decision, and that's 
the end of that.
    Secretary Wolfowitz. Mr. Chairman, if I might just say----
    Chairman Levin. I'm going to have to bring this to an end. 
I think you've had plenty of time to comment. I mean, someone's 
going to have to have a last word here, and it's going to----
    Senator Warner. I'd like to have a word.
    Chairman Levin. You can have a word. [Laughter.]
    In that case, since I'm the chairman, I'm going to have the 
last word, so I'll finish after Senator Warner.
    Senator Warner. Mr. Chairman, I think we've had a very good 
hearing. I approached you on the seriousness of this matter. 
Our colleague over here, we met as late as yesterday afternoon 
on how we would put this hearing together. So in every way, I 
think you've been eminently fair, which is your style, to your 
members and fair in getting the facts out. We've built a good 
record and we'll have to assess that record.
    Mr. Secretary, I was impressed with your concluding 
remarks. We always have to be conscious of the taxpayer. But to 
you, my good friend, contractors have freedom of speech, but 
they don't drive policy. However, they're the ones who are 
building the equipment enabling the Armed Forces of America 
today. I value some of their views and some of their expertise 
and frequently call upon it. They will not have the final say 
with me, but I wish to go on record that they are a valuable 
part of our defense structure. The industrial base is something 
we're constantly concerned about.
    Secretary Wolfowitz. Mr. Chairman?
    Chairman Levin. I reserved the last word, but Secretary 
Wolfowitz, why don't you get the second-to-the-last word?
    Secretary Wolfowitz. I just wanted to say, what drove our 
decision on timing was the need to get information to this 
committee in a timely way for your deliberations and a decision 
that we could do so, and we have been able to do so.
    Chairman Levin. That runs exactly counter to the chart you 
put which says there's always deliberations going on.
    Let me now have the final, final word. One other thing for 
the record, and that has to do with the cancellation costs. 
We're going to need more information on that. Would you give 
us, to the best of your ability and for the record, the 
comparison of cancellation costs if cancelled now compared to 
if terminated at or after Milestone B. I know there's 
negotiations that have to take place that affect that, but I 
think you can give us the range of the likelihood of those 
costs.
    [The information referred to follows:]
                           Termination Costs
    Negotiations between the prime contractor, United Defense Limited 
Partnership, and the Department of the Army have been initiated. The 
prime contractor has been asked to prepare an initial rough order of 
magnitude as to the termination costs. The data have not been provided 
to the Army as of September 11, 2002.

    We've been informed, and I don't know that it's accurate, 
that termination costs would be significantly higher than they 
would be if we went to a Milestone B. It may or may not be 
true, but we need some information on that point, because the 
taxpayer dollars are critically important, and we want to make 
sure that every dollar that is spent for defense will make us 
stronger.
    Mr. Secretary, you and your colleagues have been here a 
long time today. We appreciated your being here. We appreciate 
you, Secretary Wolfowitz, Secretary Aldridge, for all the work 
you do. We will now move to our second panel.
    We're going to take a 10-minute stretch. [Recess.]
    We'll come back to order, and we welcome you, General 
Shinseki, to the committee this evening. We very much look 
forward to your testimony. I'm going to ask Senator Warner, 
who's going to have to leave us in a few minutes, if he would 
make a welcoming statement.
    Senator Warner. Thank you, Mr. Chairman. General Shinseki, 
I will stay for part of your statement. I've read your 
submitted statement. Unfortunately, I must leave shortly to go 
to the Senate floor for a debate on a pending bill about the 
enlargement of NATO. I have some views that are at variance 
with other colleagues. The Chairman of the Foreign Relations 
Committee is awaiting my presence on the floor so that we can 
engage in a colloquy on that subject, which is very important 
to our overall future security.
    So I thank you for this opportunity. As I look back on my 
years here, I'll never forget the day that you came before this 
committee for confirmation, with a magnificent introduction by 
our valued colleague, Senator Inouye, and your strong 
testimony. You're a soldier's soldier. This has not been an 
easy chapter, but you're up to it, and you will so express your 
views today as a professional, the professional that you are, 
sir.
    General Shinseki. Thank you, sir.
    Chairman Levin. General Shinseki, I'm not going to repeat 
what I said in my opening statement. Did you by any chance hear 
it?
    General Shinseki. I did, sir.
    Senator Levin. Okay, so that you are aware of the fact that 
we said some things that relate very much to what the 
difference is here, that's an honorable difference, that we 
expect you to give us your best professional view and your 
personal view, as you've committed to do, and that we think 
this strengthens our country when we have this kind of 
exchange. Then after it is all over, we know that, as a good 
soldier and you believing in the civilian control of the 
military, you will do your duty to carry out any legal order 
that's given to you, and it's an honorable tradition. You're an 
honorable person. We all admire you, and it's now your turn to 
give us your testimony.

STATEMENT OF GEN. ERIC K. SHINSEKI, USA, CHIEF OF STAFF, UNITED 
                          STATES ARMY

    General Shinseki. Thank you, Mr. Chairman, Senator Warner, 
and other members of the committee. I have a longer written 
statement, Mr. Chairman, that I'd like to have entered for the 
record.
    Chairman Levin. It will be made part of the record.
    General Shinseki. I'd like to make a very short opening 
statement here.
    Mr. Chairman, Senator Warner, distinguished members of the 
committee, it's again my great privilege and thanks for the 
opportunity to appear before you.
    Over the past several weeks, lots of exchanges have 
occurred on the subject of today's testimony. Some of it has 
been captured publicly in print. I, for one, regret the degree 
to which some of those utterances have gone beyond what is 
normally what we're accustomed to in the normal course of our 
business.
    For example, some have characterized this acquisition 
process as a disciplinary action between the Office of the 
Secretary of Defense and the Army. However, the SECDEF has a 
mandate to set priorities within limited resources, and he has 
done that. So descriptions by those characterizing this as a 
pitched battle are not helpful.
    Some describe Members of Congress as being driven primarily 
by special interests. I've had occasion to work with many 
Members over the past 3 years, and with all of you from this 
committee, and in some cases because the Army was having to 
make its own tough decisions to terminate or restructure some 
29 programs. These were difficult discussions. Without fail, 
Members supported the Army and sided with what was best for the 
national security. So allusions to Members' self interests are 
not helpful in understanding this issue.
    Some have described the leadership of the Army as slow to 
change, lethargic, trapped in a Cold War mentality, lacking in 
talent and toughness. Well, that's not accurate either. So 
those discussions are equally not helpful.
    What is helpful to this discussion is to try to understand 
why this service chief, who has been devoted to fundamental and 
comprehensive change in the Army, would have supported a 
weapons system that does not match the characteristics we laid 
out 3 years ago for our own future Objective Force. Crusader is 
heavier than we want for the Future Combat Systems that we have 
characterized as being more deployable, more agile, more 
lethal, and more survivable than today's systems.
    Three years ago, we directed corrective action to move 
Crusader in the direction of a lighter and more deployable 
configuration. Frankly, it didn't go as far as we wanted. 60 to 
40 tons is about as much shedding as could be accomplished in 
this amount of time. Nevertheless, this 30 percent reduction 
provided a C-17 deployable indirect fire system.
    Why would we have continued to support a need for Crusader? 
Because there is a requirement for organic indirect fire in the 
close fight to support and protect soldiers who are carrying 
the toughest part of battle, the last several hundred meters of 
the fight. We didn't have any other solutions for this 
requirement in the mid-term. We need to have a solution for 
this requirement, and we will find one.
    We wanted to provide soldiers the best available 
warfighting capabilities to fight, win, and survive the rigors 
of combat. We owed them that effort, and we still do. Every 
decision we make rests upon that principle--as best we can, to 
provide soldiers what they need to execute successfully the 
missions that we send them on. That is and has been the basis 
for the Army's position on issues of this sort: the 
accomplishment of the mission and the welfare of our soldiers.
    We have a valid requirement for organic indirect fire, and 
we will move aggressively to solve that requirement. We will 
work closely with the Office of the Secretary of Defense 
following decisions, appropriate decisions, that are rendered 
to find solutions. We appreciate their commitment to support an 
accelerated time line in reaching those solutions on behalf of 
soldiers.
    Mr. Chairman, thank you for this opportunity once again to 
represent the Army. I look forward to your questions.
    [The prepared statement of General Shinseki follows:]
            Prepared Statement by Gen. Eric K. Shinseki, USA
    Mr. Chairman, distinguished members of the committee. Just over 2 
months ago, Secretary White and I reported to you on the posture of our 
Army. Then, as now, the Army embraces an ethos of service to the 
Nation. Its primary mission is to conduct prompt and sustained ground 
combat to fight and win the wars of the Nation--decisively. Because of 
that ethos and that mission, the Army decided 3 years ago to undertake 
fundamental and comprehensive change to prepare for the requirements of 
the dynamic strategic environment we envisioned for the early 21st 
century. That commitment was to undertake change so dramatic and 
fundamental that we felt we could not simply call it ``modernization,'' 
but labeled it ``Transformation.'' We felt it had to be far- and wide-
reaching enough to touch the culture of the Army, a proud and battle-
tested culture. So on October 12, 1999, the Army articulated its vision 
for its future that defined how we would meet the Nation's requirements 
now and into the foreseeable portion of the 21st century. With the help 
of this Congress, we have been steadily generating momentum and 
building support for that vision--a vision that addresses our people, 
readiness, and transformation. Army Transformation is first and 
foremost about dealing with the volatility and uncertainty of the 21st 
century strategic environment. It leverages the potential of emerging 
technologies, new concepts for warfighting, greater organizational 
versatility, and the inspired leadership that would generate a force 
that is more strategically responsive, more deployable, more agile, 
more versatile, more lethal, more survivable, and more sustainable than 
the forces we have fighting the global war on terrorism today. It would 
also provide stability in those regions where American presence 
contributes to keeping the peace, deterring potential adversaries, and 
reassuring our Allies about our willingness to take on the tough 
missions asked only of a global leader. These are the capabilities we 
must have. The events of September 11 and our operations since that day 
have validated the need for Army Transformation and the urgency to move 
even faster. In crafting our vision, we believed that Army 
Transformation was essential if we were going to keep this great Army 
the best, most dominant ground force for good in the world.
    Transforming the Army involves the management of risk--balancing 
between today's readiness to fight and win wars decisively and 
tomorrow's need to have the right capabilities in order to be equally 
ready every day hereafter for the foreseeable future. It requires 
having a consistent overmatch in capabilities while simultaneously 
reducing our vulnerabilities to those who would threaten our 
interests--and then dominating them should they miscalculate.
    Army Transformation encompasses synchronous change in the Army's 
cultural imperatives: doctrine, organization, materiel, training, and 
soldier and leader development. Going beyond the mere modernization of 
materiel, Transformation is a fundamental review of how the Army 
addresses its cultural imperatives in order to execute a doctrine for 
full spectrum dominance in the 21st century. Thus, Transformation will 
result in a different Army, not just a modernized version of the 
current Army.
    As we transform, we must have a reliable and continuous process for 
assessing the emerging threats and assuring that we have required 
capabilities to defeat them decisively. To pursue this kind of 
capability, the Army described a transformation process requiring 
synchronous change along and among three primary vectors: an Objective 
Force vector, a Legacy Force vector, and an Interim Force vector--one 
Army, not three, managing acceptable levels of risk while maintaining 
warfighting readiness for the Nation.
    The Objective Force is our main Transformational effort; it is the 
force of the future and the focus of the Army's long-term development 
efforts. It seeks to leverage advances in technology and in 
organizational innovation to transform land-power capabilities. Better 
than 90 percent of our science and technology investments are focused 
on this future Objective Force.
    By comparison, the Legacy Force of today's Army--which serves in 
Afghanistan, Kosovo, Bosnia, the Sinai, Korea, the Philippines, Kuwait, 
and Saudi Arabia among other locations--enables us to meet our near-
term military commitments. Until the future Objective Force is fielded, 
the Legacy Force will provide the formations within which soldiers will 
fight our Nation's wars, engage and respond to crises, deter 
aggression, bring peace and stability to troubled regions, and enhance 
security by developing bonds of mutual respect and understanding with 
allies, partners, and even potential adversaries. The Legacy Force is a 
product of Cold War designs that include operational shortfalls that we 
cannot wait for the Objective Force to correct.
    Most evident among these operational shortfalls is the gap between 
early arriving light forces, which deploy quickly but lack staying 
power for protracted, high intensity conflict, and later arriving heavy 
forces, which provide decisive combat capabilities but are slower to 
deploy and difficult to sustain once deployed.
    This gap in capabilities, revealed during the Gulf War over 10 
years ago, requires an Interim Force to bridge the shortfall in 
capabilities between today's light and heavy forces. With your support 
and OSD approval, the current budget funds an Interim Force consisting 
of six Stryker Brigade Combat Teams, which we will begin fielding early 
next year.
    Another operational shortfall of even longer standing has been in 
organic indirect fires. There are three roles for the employment of 
indirect fires: the suppression of enemy forces, destruction of enemy 
capabilities, and protection of friendly forces. Indirect fires 
suppress enemy forces, keeping them in their ``holes'' and unable to 
engage our formations as we maneuver to destroy them. Suppressive fires 
enable ground forces to create synergy between their ability to 
maneuver and their ability to distribute and focus direct and indirect 
fires in the execution of combat maneuver doctrine--fires enable 
maneuver, and maneuver facilitates the execution of fires. Effective 
synchronization of fires and maneuver leads to decisive outcomes over 
our adversaries.
    If a target can be identified and accurately located, that target 
can be destroyed. Those targets may include enemy forces, equipment, or 
infrastructure. Precision munitions play an enhanced role here. 
Accurate, organic, timely indirect fires at the immediate disposal of 
ground commanders have been the critical means by which to destroy 
enemy indirect fire assets that threaten our soldiers--the counterfire 
mission of artillery.
    Finally, there is uncertainty and risk in every operation; 
commanders need the responsive capability to rapidly and effectively 
generate ``walls of steel'' to deny the enemy any opportunities by 
protecting the exposed flanks of our forces, a mission which will 
become even more important on a future, non-linear battlefield where 
enemy formations will be more widely dispersed. Indirect fires used in 
this protective role isolate portions of the battlefield and prevent 
enemy forces from maneuvering, reinforcing, or attacking our 
formations.
    Successful ground combat against determined enemies requires 
responsive and timely indirect fires. Organic and inorganic indirect 
fire support are important to ground combat operations, but organic 
fires have been indispensable to success.
    A variety of platforms--cannons, mortars, missile and rocket 
launchers, attack helicopters, unmanned combat aerial vehicles, joint 
air assets--and enablers such as target designation and network 
capabilities, better sensors, more responsive fire control, more 
accurate fires, and more lethal munitions contribute to the 
complementary delivery of those fires.
    The Army's need for organic fires requires responsive, immediate, 
24-hour-a-day, 7-day-a-week, accurate support in all weather and 
terrain, capable of re-engaging fleeting targets, and sustainable for 
as long as they are required. These indirect fire capabilities are what 
we must provide to our soldiers as they fight to win the close battle.
    Secretary White and I have testified consistently about the need to 
fill these requirements. That requirement remains valid today, and we 
intend to fill it. My testimony on that requirement has in the past, 
and is today, based solely on my best, professional military judgment. 
We have also testified in the past that the redesigned Crusader 
artillery system best satisfied that requirement in the mid-term. For 
fiscal year 2003, the President's budget submission funded that weapon 
system, and we supported that budget. Now, as part of a process that 
demands making hard, critical choices among a wide variety of 
priorities--all of which are dominant--the President and the Secretary 
of Defense have decided to recommend terminating that system. They have 
done so in reinforcing their commitment to Army Transformation and the 
need to accelerate it. They have also validated the continuing 
requirement for responsive, organic indirect fires for ground forces.
    The Army has its order, and we are executing it; we are moving 
aggressively to try to find alternate solutions to satisfy this 
requirement in light of this decision. The Army will manage risk and 
remain ready even as it transforms.
    Mr. Chairman and distinguished members of the committee, nearly 3 
years ago, the Army committed itself to transforming the way it will 
fight to win the wars of this new century. This committee elected to 
underwrite Army Transformation at a time when little help was available 
anywhere, and Transformation was a new and unknown term. Today, when 
one considers the magnitude of what we have accomplished with your 
support, it is staggering.
    In closing, let me express my continuing gratitude to members of 
this committee, to our soldiers and civilians and their families for 
what they do for the Nation, and for how very well they do it, and to 
all of our men and women in uniform. They are doing the heavy lifting 
in this global war on terrorism; they are fulfilling our ongoing 
commitments to peace and stability around the world; they are training 
hard to fulfill today's missions and preparing for those that will 
arise in the future; and they remain the centerpiece of our formations. 
We can never do enough for them. It is with their welfare, their 
requirements, and the accomplishment of their missions in mind that our 
decisions have been and will continue to be made.

    Chairman Levin. Thank you very much, General. We'll have 8-
minute rounds for questions. Let me call on Senator Warner 
first.
    Senator Warner. Thank you.
    General, I think the fundamental question before us is, do 
you, in your own personal and professional opinion, believe 
that this system is essential for the future transformation of 
the United States Army?
    General Shinseki. Senator, my best military judgment is 
contained in the President's budget in which Crusader is a 
part. It's there because it meets both mid-term need, in terms 
of risks that we understand and we've been carrying for some 
time, and it also has technologies that we believe will be 
transferable to any future weapons capabilities that would go 
into that future Objective Force. In fact, we see that the 
Crusader capabilities would have been around for a significant 
period because of the units in which this weapons system was 
intended to be introduced.
    Senator Warner. So I judge that your answer is yes, that it 
is still needed, in your professional judgement.
    General Shinseki. The requirement is still there, yes, sir.
    Senator Warner. Then that's an answer that requires a 
follow-up. The requirement, if it continues, can that 
requirement be fulfilled by the alternatives that have been 
addressed today in earlier testimony, alternatives, we are 
advised, which can be moved up such that they become available 
operationally to the Army earlier than previously stated?
    General Shinseki. Senator, we have not completed an 
assessment at this point. I think if we go back to what was 
intended as an assessment timeline, an analysis of alternatives 
was scheduled for spring of next year. That analysis over a 
period of time has been moved to a much shorter timeline, 
September, and then about 30 days. Frankly, we have not done 
the analysis.
    What is described as opportunities for earlier fielding all 
have capabilities that are useful, but we would have to look at 
what Crusader would have provided and then compare that to what 
is the likely contributions of all of these systems.
    Senator Warner. You state forthrightly you have not had the 
opportunity to do the analysis.
    General Shinseki. Have not.
    Senator Warner. But I judge that the previous panel feels 
that they've had the opportunity to do that analysis and have 
so stated today that in their judgment the alternative options 
provide the Army with artillery capability which will be 
stronger than could be offered by Crusader. So have you studied 
their analysis which gives rise to the opinions they shared 
today?
    General Shinseki. I have not had that opportunity, Senator.
    Senator Warner. All right. My questions are completed. I 
thank you, General.
    Chairman Levin. Thank you, General.
    Senator Warner. I find those answers very forthright and 
somewhat astonishing.
    Chairman Levin. In your judgment is Crusader the best 
approach to meeting the requirement, based on what you know?
    General Shinseki. It is in my best judgment. It's the 
reason why we had it in the President's budget--in the mid-term 
it addressed the risk that we have been dealing with for some 
time, since the experiences of the Cold War--or the Gulf War, 
our inability to keep our artillery systems with our tanks and 
our Bradleys. In fact, we had to slow our pace of attack down 
in order to keep artillery with us, the range issue that we 
had, by being outranged by enemy systems. For these reasons, 
Crusader fixes what we've known has been a shortfall in our 
fire for 10 years now.
    Chairman Levin. Could you be a little more explicit on what 
that shortfall was that was ascertained during the Gulf War 
that----
    General Shinseki. Well, it was the lack of the ability of 
our artillery to keep up with our tanks, for one thing. So you 
would make a movement with a maneuver force, and then you'd 
have to slow the attack down for the artillery to catch up. 
When they got into position, the potential for being outranged 
by our adversaries also put our maneuver at a disadvantage, and 
so you had to get far closer in under the potential fire of our 
enemy artillery in order for us to be effective. It's that----
    Chairman Levin. So range and speed?
    General Shinseki.--breakdown in the calculus of how we 
would like to fight.
    Chairman Levin. So in terms of both range and speed?
    General Shinseki. Range, speed, the volume of fire that 
we're able to put out. Paladin, on a sustained rate of fire, is 
somewhere between 1 and 3 rounds per minute. The Crusader will 
fire a sustained rate of fire of 10 rounds per minute.
    Chairman Levin. So 3 to 10 times greater.
    General Shinseki. That's correct. Three to four times 
greater.
    Chairman Levin. Three to four times greater. In your best 
judgment--well, let me ask what your reaction was to any 
cancellation of Crusader. If so, when?
    General Shinseki. I don't know that I was asked directly 
any question like that. In the period of time that discussions 
have been underway for the Defense Planning Guidance, there 
have been studies that were designed to try to answer the 
question of trade space and options. One study dealt with a 
Crusader in a variety of options, one of which was 
cancellation. This is the study that we were in the process of 
putting together. That study was never accomplished.
    Chairman Levin. Why?
    General Shinseki. Just time.
    Chairman Levin. Were you in the middle of a 30-day study 
when this was cancelled?
    General Shinseki. Well, we were putting together a study 
that was designed to answer the question by September.
    Senator Levin. Then at the end of April, was there not a 
decision made that within 30 days the Army would be putting 
together an option paper looking at various alternatives?
    General Shinseki. That's correct. There was at one point a 
discussion of termination with other alternatives, and that 
study is what we were in the process of putting together, the 
30-day study.
    Chairman Levin. So termination was one of a number of 
alternatives which was being looked at?
    General Shinseki. One of the options, that's correct.
    Chairman Levin. That was the study that was, in effect, 
going on when the termination decision was made. Is that 
correct?
    General Shinseki. That's correct. We were really pulling 
together the study, in fact, and putting the study group 
together.
    Chairman Levin. Did somebody call you into the office and 
say, ``Hey, we know that you're in the middle of a 30-day 
study, but the decision has now been made to terminate. What do 
you think of it?''
    General Shinseki. I was informed of that 7 or 8 May by the 
Secretary of the Army.
    Chairman Levin. Were you surprised?
    General Shinseki. I was surprised that it was terminated.
    Senator Levin. You weren't consulted prior to that 
decision, relative to termination?
    General Shinseki. Not to terminate.
    Chairman Levin. Do you know of anybody, any uniformed 
member of the Army, that was consulted prior to that decision 
to terminate Crusader?
    General Shinseki. I am not personally aware of anyone.
    Chairman Levin. We had some testimony relative to the 
statistics that it would take 60 to 64 C-17s to move 18 
Crusaders and resupply vehicles with their basic ammunition 
loads and ancillary vehicles and equipment. The GAO said it 
would take four C-17s to move two Crusaders and resupply 
vehicles with their basic ammunition loads. Now, do these 
figures sound accurate? Would you explain when you would fly 
two Crusaders and when you would fly a battalion of 18 
Crusaders or when you would deploy by ship? I mean, how does 
that issue get into your thinking?
    General Shinseki. Well, I think it's important on how the 
question is asked. I think if you ask someone what it takes to 
fly an entire Crusader battalion, you're going to get a 
computation that has trucks and bullets and water associated 
with that.
    But I think it's important to remember that the Crusader 
program today is not the Crusader program that was in place 3 
years ago. Three years ago, we decided to take the Crusader 
program and restructure it and focus those assets into a single 
offensive/counter-offensive corps that we intended to be the 
punch, so to speak, if we had to go to a large war scenario. 
That corps deploys by sea, not by air.
    At the same time, we directed that, because of the planned 
weight of the Crusader at that time and roughly about 60 tons, 
as I recall. The Army directed that that was going in the wrong 
direction, and we wanted immediate movement to take the size of 
the Crusader down. Today, I believe the transportable weight of 
the Crusader is about 40 tons.
    We would still send Crusaders by ship. That is the intent, 
for them to go with the heavy corps. If we had a contingency in 
which you needed massive fire power on a short-notice basis, 
you could take a gun platoon of Crusaders, three-gun platoon, 
with its associated resupply vehicles, and you could probably 
get them out the door on about six aircraft. They would be 
three times the fire power, but they would also be 
transportable. The contingency for which you would do that is 
to either have them in a contingency where perhaps just that 
gun platoon was required to augment other light forces that are 
on the ground, or it is the lead contingent to provide fire and 
security as the heavier force comes in by sea.
    The intent of flying an entire battalion of Crusaders, I 
don't think, was ever in anyone's computation. But if asked, 
I'm sure that there is a number there that would be 
significant.
    Chairman Levin. In other words, that was never the plan.
    General Shinseki. It's never been the intent to ship a 
battalion of Crusaders by air.
    Chairman Levin. By air. I think Senator Akaka is next. Then 
we'll also go back to the transporting of the Crusader.
    Senator Akaka. Thank you very much, Mr. Chairman, and thank 
you, Senator Inhofe. I have to preside at 7:00, so I'll ask 
just one question. I have others, but I'll ask one question.
    General Shinseki, you know that we're very, very proud of 
you and your work, your position and what you've stood for as 
an Army man. We certainly prize your opinion. So my one 
question to you at this time--and this would be asking your 
opinion--what is the impact of the decision to terminate the 
Crusader program? What impact would that have on the United 
States Army and its transformation plans?
    General Shinseki. Well, there are several. But the two I 
would point out is, one, dealing with the risk that we know 
that we've been carrying in terms of a shortfall in artillery 
capability that the Crusader was intended to fill. That window 
of risk is extended now until we find a replacement system for 
it. We are going to work aggressively to do that. It is a 
shortfall in fire. We don't want to be extended any longer than 
we have to.
    The second impact would be to the kinds of technologies 
that are resident in the Crusader: the command and control, the 
lightweight materials that are tied to the tungsten gun mounts 
and other aspects of lightening components of weapons systems, 
the pre-robotics investments that go into the cockpit of the 
Crusader, the liquid-cooled cannon that puts out 10 times the 
amount of sustained artillery fire than a comparable system, 
and the range of the weapon. Given the high rate of fire and 
just what that does to a gun tube, and yet to be able to get 
the range that this was intended to get are all technologies 
that we think are important and we would find ways to keep for 
transformation purposes. We'll find a solution here.
    Senator Akaka. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Levin. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. Before asking a 
question, Mr. Chairman, I think it would be important to 
clarify something that has nothing to do with the testimony of 
General Shinseki as to the cost of termination.
    I outlined four areas of cost of termination. One was the 
contractual cost of termination. I think it's very important 
that we get the direct answer that you have asked for, Mr. 
Chairman, as to what that cost is going to be, because the 
range that I have heard I used in my opening statement. I 
believe that to be true. In the event we would have a free ride 
to the AOA, which would answer all these questions that haven't 
been answered today--in other words, if that $475 million is 
going to be met or exceeded in termination costs, either direct 
or indirect, then I think we need to know that. I believe that 
it would come close to that amount. If we wait until the end of 
the contract period, which would reach the AOA sometime in 
March, the cost of termination would be zero. It's very 
important that we all understand this if what I'm thinking is 
true and, so, we need to find this out. I think it's very 
important, Mr. Chairman.
    The question comes up: Can the requirement be satisfied by 
alternatives? I think, General Shinseki, that we don't really 
know that until we see the analysis of those alternatives. One 
of the things that came up was a question as to whether or not 
it could be used in Afghanistan. On March 14, General Keane 
gave us an answer to that, and he went into more detail in his 
answer than I'll go in. He talked about how specifically two of 
those would have to come in. It might take two C-17s to bring 
them in on short notice. Then he talks about the road to 
Kandahar and how to get them down to Gardez and all of that.
    But then he said we could have used the Crusader in support 
of our troops, who were attacking in the mountains and get 
responsive artillery fire with that degree of precision at 
considerable range and distance that we can't do with any of 
our other systems. We'd have to get considerably closer to the 
mountains than what we could today with this system--and we 
would have had to have more forces to protect them. Do you 
agree with that statement that General Keane made?
    General Shinseki. I do, Senator.
    Senator Inhofe. Another question has come up as to whether 
or not this would be in lieu of moving to the Objective Force 
or as support for the Objective Force. I remember testimony 
that you had that I used in my opening statement when you said 
that technology is what we need to continue to develop so that 
in years ahead, as we go to the Objective Force capability, 
which is what we all want to get to, is to transition this into 
robotics systems that we're looking at. Does that statement 
still stand today?
    General Shinseki. It is. It does.
    Senator Inhofe. Thank you, sir. General Shinseki, I also 
think it's important to kind of pursue this a little bit, 
because there is a lot of talk about precision. Of course, if 
we're talking about the Excalibur, that's something that would 
have, if anything, more precision, because you have a longer 
range in the projectile that could be used with the Crusader, 
as opposed to the Paladin. But I believe there are times in 
combat, and I'm going back long ways to my Army days, but when 
the sheer number of artillery rounds are more important than 
precision, such as suppressive fire and final protective fire. 
Would you agree with that, and would you elaborate a little bit 
on the necessity to have the sheer volume of rounds used in 
combat?
    General Shinseki. May I take a little bit of time to answer 
that question?
    Senator Inhofe. Yes.
    General Shinseki. I would suggest to you that there is a 
doctrine we follow in warfighting, and that doctrine emphasizes 
several things. One is that we went on the offense--you must be 
able to defend well, but you have to be able to have offensive 
capability, because that's what breaks down the other side.
    When we talk about winning on the offense, it is also about 
seizing the initiative, making the first move and being bold 
about it, and then denying that initiative to your adversary, 
who wants it as well, and then building momentum and putting so 
much pressure on him that he either collapses or leaves. If 
you're going to do that, the elements of synchronizing that 
kind of warfighting doctrine, which is ours, talks about four 
or five things as being elements of how you synchronize that 
power. One is fire. One is maneuver. Protection is a third. The 
fourth is leadership. The fifth is information, because it 
empowers all of that. But the two primary pieces of this is 
fire and maneuver. Generally we talk about that being both a 
direct and an indirect fire capability.
    Indirect fires are a key part of the synchronization 
between a maneuver and direct fire, because it does several 
things. One, if you have accurate locations on enemy 
capabilities, you can apply destructive fire on them, indirect 
destructive fire. Precision works there. If you have imprecise 
locations, or if you just know that there's enemy force out 
there, but you don't have them accurately located, precision 
doesn't help you very much. The ability to suppress a large 
area by a volume of fire, dumb rounds, cheaper dumb rounds, if 
necessary, is effective, because it will keep him in his hole. 
That allows you to make the maneuver to such a point that you 
can then do the close fight.
    The array of fire available--indirect fire--available to a 
commander run the spectrum of mortars, cannons, of which 
Crusader would be a piece, missiles, rockets, attack 
helicopters, and then high-performance air platforms that 
deliver munitions from the air. All of them have utility in 
this discussion of fire.
    A precision 2,000-pound bomb has great utility when you 
have an uncomplicated, accurately-located target. There is no 
better weapon. But if that target is complicated, either by 
concerns about collateral damage or the close proximity of 
friendly troops or innocents to such point that the size of the 
warhead is not useful, precision all by itself doesn't matter.
    At some point in this close battle of fire and maneuver, we 
get to engaging the enemy in such distances where you come down 
to a select number of weapons systems that are useful. Rockets 
are not useful because of the large footprint over which they 
throw their bomblets. High dud rate of those bomblets is not 
something we like marching through. So you come down to the 
cannon capabilities--mortars, short ranges with mortars, and 
then your cannon artillery--which means that if you have 
cannons that can mass fire and keep your enemy in his holes 
until you achieve that close battle where you can take down his 
objectives, they are very useful.
    Precision warheads for those cannons are also of 
importance. For example, Excalibur, which was part of our 
program, which was something that was intended to be developed 
and fielded some time around 2012, I believe. With the 
decisions to accelerate, we'll pull that forward and see what's 
possible.
    Senator Inhofe. That's an excellent answer. I appreciate 
that.
    Mr. Chairman, there are two other things I'd like to add 
and I know my time has expired.
    Chairman Levin. We're going to have a number of rounds, so 
you can proceed.
    Senator Inhofe. The question was asked by the chairman 
about the 3-to-1 ratio, and you started off saying 10-to-1. In 
a sustained rate of fire, isn't it true that if the ratio is 
10-to-1, that it would be 10 per minute, as opposed to 1 per 
minute on the Paladin.
    General Shinseki. The Paladin, at a sustained rate of fire, 
would be a 1 round per minute, and the Crusader, a 10-round 
sustained rate of fire.
    Senator Inhofe. That's good. I appreciate that.
    All right, Mr. Chairman.
    Chairman Levin. General Shinseki, if the Crusader funding 
was used instead for precision munitions and for accelerating 
the indirect fire capability of the Future Combat Systems, do 
you believe that those technologies could be available in time 
to fulfill the requirement the Crusader was intended to meet?
    General Shinseki. I don't have a good answer for you, Mr. 
Chairman. Frankly, when we laid out our timelines for the 
Future Combat Systems, a non-line-of-sight weapons system as 
part of that transformation effort was not intended to be 
addressed until about block III, which would have been 2014 
timeframe. Part of that was driven by the belief that, in the 
interim, the Crusader's capabilities would give us significant 
fire along with the residual Paladins in the force.
    I do appreciate the apparent commitment here that says that 
we are being asked to accelerate a variety of weapons' warheads 
and also Future Combat Systems non-line-of-sight cannon, which 
is the artillery variant of that, to try to get that into the 
fiscal year 2008 timeframe when Crusader would have been 
fielded. I'll have to go and take a look.
    Chairman Levin. How long would it----
    General Shinseki. If it's possible, we'd like to do that, 
but I'm not----
    Chairman Levin. How long would it take you to give us your 
opinion on that option? Is that a matter of days? Weeks?
    General Shinseki. Not in weeks. I mean, I'd have to go and 
look. This was not something we had even addressed as part the 
initial block I package for future a combat system. It was way 
out there, and I'll have to go and try to find out what it 
would take to get a good answer for you. At this point, I'm 
more interested in a good answer than a fast one.
    Chairman Levin. Yes. Could you let us know as quickly as 
possible when we could get your answer to that question?
    General Shinseki. Yes, sir, I'll do that.
    [The information referred to follows:]
                         Technology Assessment
    In the memorandum from the Under Secretary of Defense (Acquisition, 
Technology, and Logistics) to the Secretary of the Army, subject 
``Crusader Artillery Program Termination,'' dated May 13, 2002, the 
Under Secretary of Defense directed the Army to review the Crusader 
program, identify desired technologies, and report the results before 
June 30, 2002. I believe that it would be premature, at this time, to 
speculate on our ability to transfer, accelerate, or develop these 
technologies by a specific timeframe prior to completing the review 
directed by the Under Secretary of Defense. The results of our review 
should be available after the end of June 2002.

    Chairman Levin. Is it your opinion that Crusader represents 
the surest way to address the shortfall of fire support in the 
mid-term?
    General Shinseki. That was my best military judgment, that 
that was the solution to the problems we had discovered and 
have been carrying now for about 10 years.
    Chairman Levin. One of the questions which was raised 
relates to the question of precision and accuracy. We heard 
from the first panel that when the JROC reviewed Crusader 8 
years ago, in terms of the requirement for rate of fire and 
maneuverability, they did not review Crusader for a set of 
requirements relative to precision and accuracy. Is that 
correct?
    General Shinseki. That may be correct. I just don't have 
that information off the top of my head. But I will tell you 
that someplace here in the development of Crusader, the 
probable error at about 30 kilometers, because your dispersion 
will vary with greater range. But at 30 kilometers, a Paladin 
will be several hundred meters in dispersion, more than 200, 
something less than 300. At the same range, Crusader's design 
was to get inside a hundred meters, 95 meters in circular error 
probable. So whether it was intended as a key performance 
parameter or not in the design, that kind of accuracy has 
resulted.
    Chairman Levin. Is there any reason why there could not be 
a JROC to re-validate the requirement to include accuracy as 
one of the criteria?
    General Shinseki. I'm sure that could be done. In fact, the 
concerns about the accuracy of the weapons system resulted in 
Excalibur being put into study and development so that after 
the Crusader arrived, that we would have greater precision with 
a good bullet and Excalibur. It was our understanding that it 
was not going to be available much before 2012. We in the Army 
decided, through our systems review process, to move that up to 
2008. That decision has yet to take effect. I mean, it was our 
intent to do that so that it would arrive at about the same 
time that Crusader did so that range and precision capabilities 
would arrive at about the same time. That was our intent.
    Chairman Levin. The Inspector General of the Army 
concluded, after doing his interviews, that the evidence 
established that the Vice Chief of Staff of the Army received a 
document from a defense contractor source on April 30, which 
addressed the termination of the Crusader program. Prior to 
receiving this document, the Army was unaware of any proposed 
change to the Crusader program. As far as you know, was that 
accurate?
    General Shinseki. That's correct. In fact, I think perhaps 
the only person that knew at that point was the Vice Chief 
whenever this information came in and--at least some indication 
that consideration was underway, not that the termination 
decision had been made.
    Chairman Levin. One of the fundamental questions that we 
face is the relationship of the cancellation of Crusader to the 
transformation of the Army. Now, you've been the godfather of 
transformation. I think if anybody is connected to the 
transformation, at least in the Army, it is General Shinseki. 
Yet the argument has been made against the Crusader that it is 
not transformational. So General, Transformation, what is your 
comment about that issue?
    General Shinseki. Well, sir, I wish 3 years of trying, my 
tenure in office, to drive this weapons system in the right 
direction would have given us a lighter gun. But in 3 years, 
taking it from 60 to about 40 tons is what was achievable. We 
would have continued to demand better sizing for the system. 
But there is an understanding, when you're dealing with recoil 
engineering, that there is a certain point at which a base 
foundation for a recoil system--frankly, you just can't make 
the rules, the scientific rules, go beyond what is in the realm 
of the possible.
    We were looking at new rules for the Future Combat Systems, 
but in the mid-term we still had a problem with dealing with 
this 10-year shortfall in fire that we've tried to fix. So 
where weight is concerned, we didn't go far. It just didn't go 
fast enough and far enough. But where all the other 
technologies with Crusader is associated more than convinced us 
that we needed this to fill the requirement that we understood 
since the Gulf War that we have had as an issue of risk.
    Translate that a few years forward now in post-Anaconda and 
post-Afghanistan. In the first 2 days of Operation Anaconda, 28 
of our 36 casualties were due to indirect fire from mortars. It 
would have been in our interest to put together the 
capabilities to have turned those guns off, turned those 
mortars off, found them and be able to lift the burden of fire 
falling on our troops.
    At that close range, my sense is there were all kinds of 
aircraft available overhead with available munitions. But at 
the range of engagement, 50 to 100 meters, just the size of the 
warheads of those air munitions would have precluded us from 
using them. So there is a point here in which cannon artillery 
with long reach that has the ability to mass fire, even though 
the specific locations of enemy forces is imprecise, we could 
have used and we would have used.
    Another aspect of this----
    Chairman Levin. Is that what Crusader is intended to be 
able to do?
    General Shinseki. That's correct, to support with 
suppressive fire in the close fight.
    We use artillery in the close fight in three ways: to 
destroy enemy capabilities, and that's a little more precise. 
If we know where they are, then it's to put as much pressure as 
possible--as many rounds on that single location. If we don't 
know exactly where they are, they're in an area, then a volume 
of fire, suppressive fire, is what we would use. Then in the 
protection of our forces, cannon artillery would be the kinds 
of things that we would fire concentrations on the flanks of 
our units as they're moving to protect them from being 
penetrated. We'd also use cannon artillery to smoke. There is a 
protection element if you're able to mask your own locations in 
that kind of close fight to get the heat off of you. Crusader 
would have been capable of doing all of these.
    It is the responsiveness and the accuracy and the 
timeliness of cannon artillery that right now is one of the 
issues we are trying to solve. That's not to say that we don't 
have a large choice of weaponry that are available for indirect 
fire. But, as I indicated, some point in close proximity, some 
of those fires become less useful. Rocket fire, for example, 
the very large footprint, the imprecise footprint that goes 
with rocket fire keeps you from using them within a thousand 
meters of friendly forces, sometimes 2,000 meters.
    The minimum range on multiple rockets is 10 kilometers. So 
if you're in contact inside that 10-kilometer range, that 
pattern of fire that's so powerful that we would like to 
accelerate is less useful in that circumstance, and you have to 
go with cannon artillery and mortars to be able to cover your 
indirect fire requirements.
    I would say in the first couple of days of Operation 
Anaconda, we probably had the best indirect support plan that 
was intended for that operation with available aircraft 
hovering overhead in order to provide support and tremendous 
capability from those platforms and the pilots that flew those 
missions. As I recall, the average time between a call for 
immediate close-air support from the arrival of munitions was 
something like 25 minutes. Twenty-five minutes gets measured a 
lot of ways, but if you're sitting there taking incoming mortar 
fire, 25 minutes is a long time; cannon and mortars are 
intended to return fire in 2 to 3 minutes.
    So this is also part of the equation, and that is having a 
selection of capabilities is always in the best interests of 
the ground commander and the soldiers fighting these 
formations. Being able to deal with these problems as was 
played out here in Anaconda, cannon artillery would have been 
entirely useful.
    Chairman Levin. Thank you very much.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman. General, I 
apologize for missing your testimony. I was presiding over the 
Senate for the last hour. I'm sure I had to inform my mother, 
who sees me on television more presiding, that it's like the 
rookies carrying the water pail for the veterans; there's a lot 
that falls on you when you're hundredth in seniority in a troop 
of 100. So I apologize having missed you. I don't know what 
questions have been asked. I'll review the record when I have a 
chance. If there are any gaps, I'll submit the questions in 
writing.
    General, you say that your testimony has in the past and is 
today based solely on your best professional military judgment. 
I respect that enormously.
    I'm new to this committee. When I joined it, I was advised 
by the distinguished chairman and by our distinguished Senator 
Warner to put the interests of the country ahead of any of my 
state's concerns. I acknowledge certainly that Minnesota has an 
important part of this project, important to the people who 
have been working very hard on it. I've toured that operation, 
and when something is cancelled because it isn't performing 
properly or because it's delayed or because it's over budget, 
then I think that people can understand when they believe that 
they're carrying a mission to fulfill the service of their 
country just as important to them, in which they deserve pride, 
just as men and women in uniform do. It's obviously very 
difficult.
    But I'm in the position of being new to the committee. I 
recognize that it's men and women like yourself, the ones who 
are on the line, who have the experience in these areas, but 
also whose lives will be at risk, depending on whether we 
fulfill our obligation to provide you with all that you need, 
the best possible equipment, munitions, technology, and 
everything else that we possibly can.
    So, I have taken every possible opportunity to ask the 
generals, the battalion commanders, and the regular soldiers in 
what they think of the Crusader. I was out at the National 
Training Center in California a little over a year ago. I 
witnessed the tank exercise there, and asked half a dozen or so 
battalion commanders and others what did they think of the 
Crusader. I got uniform, strong, high marks, and genuine 
enthusiasm for it and a desire for it to come online as soon as 
possible.
    I had the opportunity in the last couple of months, to ask 
the outgoing and the incoming commanders in chief in the areas 
like Korea and all of Europe what their views are on Crusader. 
Again, uniformly, very positive, very supportive, very 
definitive that the Crusader would have a important role to 
play, especially in terrain in areas such as Korea or in Easter 
Europe, or, God forbid, anywhere else in the world.
    Then I take the testimony that has been presented just 
within weeks by others and by you, who again, are putting 
forward in a different context your own sincere views on this 
and the importance of it and the need for it. It's difficult to 
then pirouette, because of a decision that's been made, which I 
certainly respect those who did so, and I agree with those who 
have observed that these are difficult decisions.
    Inevitably, if anything is going to be eliminated, it's 
going to involve people--Americans who are working and states 
and districts of those of us who would be, therefore, affected. 
But are we doing the right thing by America? Are we going to 
leave your men and women with what they'll need now and in the 
interim and then the long run--perhaps long run is more 
conclusive. But can we walk out of this room and look the men 
and women of the Army in the eye and say that what we're doing 
is right for them?
    General Shinseki. Well, Senator, the requirement for 
Crusader, if not Crusader, we will find a system that will 
solve the problems that the Crusader was intended to solve. We 
have to do that.
    Senator Dayton. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Dayton.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    General, I checked with industry since we heard about 
accelerating the Excalibur up to 2008. I asked the same 
question about the Crusader, and found that, yes, it could 
actually be accelerated up to 2006.
    I would like to ask you what kind of upgrade would be 
necessary in order to have the Paladin fire the Excalibur? 
Would it have the same capabilities as if fired from the 
Crusader? I understand that there's no question as to the 
propellent-charge capacity of a Paladin, in terms of being able 
to project the same range. Do you have any thoughts about the 
upgrades that would be necessary to bring the Paladin up to 
that capability?
    General Shinseki. Well, Senator, they both fire 155 
munition. The Excalibur munition that was being designed with 
the Crusader in mind is not able to be fired out of the 
Paladin, so we'll have to redesign it as a .39-caliber warhead.
    There are some challenges with firing out of the Paladin 
because of trying to get through the amount of force that is 
imposed on the warhead. To my understanding, we have not solved 
that problem yet. So there's a good bit of work to be done.
    Senator Inhofe. General, there's a lot of questions and 
conflicting testimony about the descriptions and the capability 
of the Crusader. In your manual, the United States Army Weapons 
System 2002, I'm sure you've read the section in there about 
the Crusader. To your knowledge, is this accurate?
    General Shinseki. As I recall, to the best of my knowledge, 
it is.
    Senator Inhofe. Okay. What's the Department's record for 
developing new systems? How long does it normally take? Is 
there some risk involved here when we're talking about maybe 
moving faster than we originally thought we could do? There's 
even been some slippage in the Crusader, although, by and 
large, it's on schedule.
    General Shinseki. Slippage on the Crusader was driven by 
our decision to----
    Senator Inhofe. Make it light?
    General Shinseki.--to take it from 60 down to a much 
lighter weight. In doing that, that's delayed it a couple of 
years.
    Senator Inhofe. Did you hear the testimony of Senator 
Santorum?
    General Shinseki. I may not have caught all of it, Senator.
    Senator Inhofe. All right. I'm sorry he isn't here. He kind 
of came up with an argument that the Crusader would replace 
Paladin at the one-to-three ratio. When you're looking at AOA, 
wouldn't it be wise to look at one of the alternatives as being 
maybe cutting the numbers of the Crusader down, as opposed to 
altogether eliminating it, on the same ratio that it is fire 
power to overcome the Paladin?
    General Shinseki. Certainly.
    Senator Inhofe. That could be one alternative, couldn't it, 
if you look at it?
    General Shinseki. I think we may have already taken that 
alternative, Senator. When a decision was made to find a better 
artillery system than the 109 that went to the desert, tank 
battalions were downsized by 25 percent. Mechanized infantry 
battalions were downsized by 25 percent. Artillery formations 
were downsized eight to six guns, by about 25 percent. All of 
that betting on a couple of things. One, that we were going to 
find a solution, in terms of artillery cannon fire that was 
going to fix the problem. Two, that we were going to field an 
armed reconnaissance capability that was going to be able to 
tie to that better gun that was going to provide the weight of 
fire. Three, that we were going to have a digitized link 
between all of this that would give us the kinds of 
capabilities that would allow us to take these downsizing 
decisions, that the risk associated with making our tank and 
infantry battalions and our artillery battalions smaller in 
order to husband those resources and get a new capability. At 
that point, we didn't know what it was going to be called. It 
ended up being Crusader as the fire piece of that.
    Three years ago, the Crusader program involved over 1,100 
systems. The Army decided that we were going to focus our 
transformation on a different set of requirements that went to 
faster, more deployable, and more lethal. But it did not want 
to take unacceptable risk in not having at least one of our 
formations--one of our four corps, the counterattack corps--
having the best of all capabilities in the event that the worst 
of situations happened, and that was to have a large war. So 
that's where Crusader was focused. The buy was downsized to 
something like 480 systems.
    Senator Inhofe. From around----
    General Shinseki. Eleven hundred--almost 1,200--down to 480 
systems and focused on this one corps. The rest of the Army 
came down in tanks and mechanized systems. So, in some way, the 
downsizing that would have come out of that analysis of 
alternatives was taken up front. That's why when we ascribed 
the risk that we incurred, we imposed, we accepted here in the 
1990s and we've been carrying ever since, what Crusader was 
intended to fix was, again, to accommodate the risk that was 
accepted in the 1990s. We'll have to figure out how to solve 
that problem.
    Senator Inhofe. You saw the chart that I had up here 
earlier. I think I showed that to you at one time. I don't know 
whether it's over there now or not, but it shows the Paladin 
and then the Crusader, and then it's a chart showing rate of 
fire and range and the fact that there are four countries that 
are manufacturing an artillery piece that is better in range 
and rapid fire than our Paladin, although all would be inferior 
to what we would come up with a Crusader.
    General Shinseki. Right.
    Senator Inhofe. My concern is this. We talked about the 
expense out there. I mean, you go out there, you might have an 
MLRS, a guided MLRS, as an alternative when you're in the 
field. Each round would be in the neighborhood of, I think, 
$36,000. A round for an Excalibur would start off around 
$200,000. It's my understanding that if we got in a real 
accelerated program in buying these that you wouldn't be able 
to get below around $36,000 a round, while your regular 
artillery shells would be around $200 to $300. But you've got 
to make decisions in the field.
    My concern has always been, sure, we want to have the 
Excalibur, and we want to have that capability and the guided 
capabilities, and we want to have the rockets and the missiles, 
but we still have to keep that rapid fire capability of 
artillery shells. We're going to have to have that for combat.
    I took the time, General, to go over to Germany and see 
these alternative systems, the next best one being the PzH 2000 
in Germany. Still we have the need for that, and if we decide 
that we're not going to use the Crusader in the future, what 
we're saying is, in my opinion, is that we're willing to send 
young troops out with less equipment and less capability than a 
prospective enemy might have. I would contend when you have 
four countries making systems, and they're on the open market 
today, that they could get into almost anyplace that has the 
money to buy it. That's my concern. Is that a concern to you?
    General Shinseki. It is. That's what was intended to be 
addressed here with the Crusader's capabilities.
    I guess, Senator, I would tell you I agree with the 
requirement for suppressive fire, as I described why and how 
that role would fit. That's not to suggest we're not interested 
in precision at some point. Bullet warhead is entirely useful 
under a select set of circumstances. Where you have imprecise 
targets, that precision warhead is an expensive investment and 
is being used in the same way you'd end up using a cheaper 
warhead that didn't have all that technology tied to it. But 
having that warhead for the right target is entirely useful. 
But there are a set of targets just in the business of----
    Senator Inhofe. But that doesn't replace the need for the--
--
    General Shinseki. No.
    Senator Inhofe.--artillery, the dumb bombs.
    General Shinseki. A suppression mission associated with 
ground combat is still one of the major requirements.
    Senator Inhofe. Mr. Chairman, I'm very proud of the 
General. He's answered every question I had, and he's been very 
forthright and honest, and a lot of pressure is on him, and I 
appreciate it very much and am glad to be a member of the Army 
caucus with you.
    General Shinseki. Thank you, Senator.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. I just have a few more questions. About 2 
years ago, the Army began referring to the Crusader as a Legacy 
to Objective Force System. I think that means or meant that the 
Crusader would have a role in the Legacy Force, the Interim 
Force, in the Objective Force, and the transformed force. So do 
you consider, then, the Crusader a transformational system, or 
aspects of it a transformational system?
    General Shinseki. In terms of a technology that it provides 
to us, those technologies are transformational. About the only 
thing that doesn't fit our definition of our future 
transformation is the weight of the Crusader. As I indicated, 
we started after that 3 years ago. We got it to where it could 
physically go. There may be more opportunities here, but it 
just didn't go fast enough. But all of the other technologies 
associated with Crusader are transformational.
    I think, when we talk about weight, we ought to ensure that 
at least we put it in the right perspective. Certainly, weight 
is transportable weight--what fits and how much tonnage. But if 
you generate a system that has three times the capability and, 
therefore, for the same amount of fire power can ship only a 
third of what you have now deployed, and it takes you, say, 50 
percent of the lift that you would have to use today to send 
your current systems, then there is a difference--a measurable 
difference in lift. So the weight of the individual system is 
less of a factor to be considered.
    As we look for whatever is going to meet the requirement 
that the Crusader was intended to meet, weight will continue 
to, I think just engineering-wise, be an issue here, and what 
we need to ensure this metric is the fire power that is 
comparable and how we get that in the theater and make sure 
we've got a good comparison between those factors.
    Chairman Levin. But if it's the technologies that are 
useful in that Objective Force, why not just buy the 
technology? Why buy the whole system?
    General Shinseki. I'm sure that there's probably a better 
answer for that, just buying the technologies, but I don't know 
that they exist out there on the marketplace. I mean, they are 
tied to a development program that tried to make this weapons 
system fix all of the problems that we understood, our 
shortfall on fire. So it's very definitely tied to Crusader.
    Can it be transferred to some other system? Maybe so. But 
no analysis has been done, and I would think that an analysis 
would give a better answer than I've just given.
    I don't know that the technologies exist out there. Liquid-
cooled cannon--I mean, it's only tied to the Crusader. So we'd 
have to go and try to understand what that means if we were to 
transfer that to something else. A smaller logistics 
footprint--because inside the Crusader, we were using spray 
cooling of electronics and then, imbedded electronic manuals 
and diagnostics--I think that's transferable. I mean, it's 
particular to the Crusader for us, but that's transferable.
    Titanium gun mounts, I think the first time for us on an 
artillery piece, and we'd have to understand how to take that 
and move that forward. Cockpit design and the layers of fire-
control procedures that we were able to eliminate with a system 
like Crusader because of its independent operation with the 
accuracy of its sub-location and then the range, I don't know 
that it exists anyplace else. We'd have to go and understand 
how we could transfer that.
    But I think those would be the examples I would give you of 
the technologies that we would like to see carried forward.
    Chairman Levin. I want to go back to the transformation in 
general again. If we decide to proceed with Crusader, to fund 
it, does that slow down transformation?
    General Shinseki. I don't----
    Chairman Levin. Does it accelerate--pardon?
    General Shinseki. I don't believe so. I'm trying to 
interpret what ``slows down'' means for someone who's been 
pushing this transformation as hard as I think I've been 
pushing it for 3 years.
    Chairman Levin. Well, the opposite is that if we cancel 
this system that allegedly was designed for a different 
strategic context, that this will accelerate the transformation 
to the future Army.
    General Shinseki. I'd have to go and make that assessment. 
I don't have a good answer today for how cancelling Crusader 
would accelerate some of those initiatives that we have been 
asked to go and consider, the HIMARS, the guided MLRS, 
Excalibur. There'll be some improvement to the fire process. 
Not all of it addresses what Crusader was intended to address 
in terms of a platform that would keep up with our formations, 
our offensive formations, the reach and the mass of volume of 
fire delivered. I'd have to give you a better answer.
    Chairman Levin. If you could, give us a timetable for that 
assessment in the next couple of days. I'm not saying give us 
the assessment. If you could just give us an idea as to how 
long that assessment would take.
    General Shinseki. I will.
    [The information referred to follows:]
                        Analysis of Alternatives
    A formal Analysis of Alternatives (AOA) is a comprehensive, complex 
undertaking. An AOA is a specific type of analysis mandated by 
Department of Defense policy to evaluate the operational effectiveness 
and costs of alternative materiel systems to meet a mission need 
required for milestone decision reviews of acquisition programs. This 
analysis typically includes special consideration of system 
performance, training and logistics, as well as costs and force 
effectiveness. The AOA examines the weapon system capabilities in both 
present and future operational environments and organizational concepts 
by running several joint context scenarios including the alternatives 
developed in the study plan.
    Prior to the Crusader termination recommendation, the Army had 
initiated an overarching AOA in preparation for the Milestone B 
decision in April 2003. The AOA was to have been completed prior to the 
April 2003 Milestone decision. The Crusader AOA Senior Advisory Group, 
comprised of Army and Office of the Secretary of Defense 
representatives, approved a study plan to look at the system in 
comparison to four other alternatives. These alternatives included the 
present system, the M109A6 Paladin as a base case, as well as an 
improved Paladin, investing in precision munitions in lieu of Crusader, 
and finally, accelerating the proposed Future Combat Systems (FCS) 
indirect fire variant.
    The Army's recommended course of action is to continue with the AOA 
along the timeline described above. An appropriate decision of this 
magnitude requires a comprehensive analysis. This analysis requires 
time, resources, and coordination among multiple agencies. 
Additionally, the Crusader AOA should logically be synchronized with 
the FCS AOA, which cannot be further accelerated prior to the April 
2003 timeframe. Anything short of this course of action would result in 
an effort lacking the necessary analytical underpinnings required.
    The Army is, however, prepared to develop a white paper that will 
examine the impact of fielding alternatives to Crusader to provide 
fires in close support of maneuver. This conceptual paper could be 
delivered within 75 days, assuming 15 days to develop and coordinate 
the terms of reference. The paper will be based in large part upon 
military judgment and not analytical data as there will not have been 
enough time. Then, proceeding with the AOA as originally planned, we 
are prepared to provide emerging results, to include initial cost, 
training, and logistical impacts in December 2002.

    Chairman Levin. Finally, you're facing this huge 
modernization bow wave between 2008 and 2010 with the Crusader, 
Comanche, and FCS all being fielded at the same time. How much 
of that is unfunded in the Program Objective Memorandum (POM) 
and in the extended planning period, number one? Related to 
that, if you were required to pay a $9 billion bill, would you 
chose to do it by terminating Crusader? If not, how would you 
pay that bill? There's really three questions there. Maybe I 
should split them up for you, but they're all related.
    General Shinseki. I don't have a good idea of what the 
unfunded bow wave is at this moment. It would have been 
something we would have calculated in the 2004-2009 POM bill 
process. There would be an Unfunded Requirement (UFR), and it's 
probably a significant one.
    As I've testified previously, about $10 billion a year of 
unfinanced requirements is what has been carried. Some would 
ask, ``Well, how did the $10 billion increase in this past year 
get applied?'' As I've testified before, about $3.3 billion 
went to defense health. About $1.9 billion went to 
compensation, in terms of pay raise. These are all good moves, 
but they were off the top; about $1 billion in pricing, just 
pricing adjustments; and then about $3 billion that went into 
programmatics; about $900 million into the readiness 
recapitalization of selected current systems; about $700 
million into FMTV, the family of medium tactical vehicles, 
requirements that we've been long in need of addressing; about 
$500 million in chemical demilitarization; and then the 
remaining $900 million into a variety of programs. I would say 
about $200 million of that into FCS and Objective Force 
programs. That's what happens to this plus-up when it gets 
divided.
    Chairman Levin. Senator Dayton, Senator Inhofe, any other 
questions?
    Senator Dayton. I'd just say that on Monday, I sat through 
about a 2 hour hearing in the Governmental Affairs Committee on 
the transformation of the postal service. Now after, what, a 5 
hour hearing on the transformation of the Army, I guess--I hope 
you're using the words--you and the postal service are using 
the word differently, because I would hate to see the post 
office end up looking like the Army, or vice versa.
    But with all due respect to the postal service, I want to 
give this group credit--you, General, and the Secretary and 
others. As I think others have said, too, if there's not 
agreement, that's a healthy tension to have. But I think that 
the meat on the word ``transformation'' that you have placed on 
it, the amount of forethought, not that all the questions are 
answered, and, as I say, there may not even be the right kind 
of transformation. But, that aside, I think that the 
seriousness of purpose with which you and the Secretary and all 
have undertaken this and have been able to articulate what it 
is that you're leading the Army toward is really commendable. 
The citizens' freedoms depend on your leadership. I think all 
of America is well served. So I thank you.
    General Shinseki. Thank you, Senator.
    Senator Inhofe. Mr. Chairman, let me make one comment, for 
the record. In the previous panel, I talked about the JROC and 
whether or not it should have been appropriate for them to be 
advised and be a participant in this decision. I'd like to say 
that, under the functions of JROC, what I'll now read into the 
record, it says, ``Conduct program reviews between formal 
acquisition milestone-phased decisions as required to assure 
system performance meets original missions needs and to address 
synchronization of evolving requirements with and among current 
acquisition programs.'' I think that pretty much describes what 
we are doing here, and I think it would have been very 
appropriate to have their involvement in it.
    Whenever we talk about how we would spend this money and 
reprogram it, Mr. Chairman, we've just got to find out if 
there's going to be any money should this be terminated, 
because I have seen a lot of estimates that it could actually 
cost more to terminate, and then we would not have the benefit 
of the analysis. So I just would hope we'd keep in mind that 
there may not be any money to reprogram anyway.
    Chairman Levin. We would ask you the same question about 
termination costs. Could you ask your deputy for acquisition to 
take a look at that issue and give us, for the record, an 
assessment as to what the termination costs will be, the range 
if it's terminated now compared to if it were to be terminated 
at Milestone B, for instance.
    General Shinseki. I will do that.
    [The information referred to follows:]
                       Crusader Termination Costs
    We are currently working to refine our initial estimates of the 
costs associated with terminating the Crusader program for fiscal years 
2002 and 2003. In determining the total cost impact to terminate 
Crusader, we have to include not only the costs associated with 
termination of the contracts, but also the in-house costs at Picatinny 
Arsenal and the Tank and Automotive Command, where the program is 
managed, the impact to other government activities where work 
supporting the Crusader program was being performed, and the impact to 
other programs that shared development work, facilities, or industry 
overhead with Crusader. To better define our current estimate of the 
costs associated with terminating Crusader, we have formally requested 
the prime development contractor to provide us with is not to exceed 
price for the termination by May 23, 2002.
    Our current estimate of the costs associated with terminating 
Crusader now is approximately $290 million. Of the $290 million, about 
$16.5 million is in-house cost, $4.3 million for other government 
agencies, $42 million for other programs impacted, and the remainder is 
our current best estimate of the costs associated with the termination 
of Crusader's development contracts.
    Our estimate of the costs associated with allowing the program to 
continue to the planned Milestone B decision in April 2003 is 
approximately $385 million.

    Chairman Levin. Also, if you would, for the record, add 
anything further, particularly with that last question in mind 
as to how we're going to pay that $9 billion bow wave bill. Add 
any thoughts about what your priorities are. We have a real 
problem, and I know we've got to face it. The Army's got to 
face it. We have $9 billion, I believe, unfunded in the Program 
Objective Memorandum, according to my figures, and we've got to 
pay for it somehow.
    If you have any further thoughts for the record as to 
whether terminating Crusader is something you'd be willing to 
do if--before you'd be willing to do other things that might be 
on someone's list for the chopping block, it is a factor. The 
department points to that as being one of the reasons for their 
decision to recommend termination of the Crusader. So we'll 
leave the record open for that purpose, as well.
    General Shinseki. I would just say, Senator, over the last 
3 years, the Army has cancelled something like 29 programs, 
restructured 16, and taken the results of that, nearly $13 
billion, and focused it into the things that we've said were 
important. The results of that analysis were contained in the 
budget we submitted based on our assessment and best military 
advice that I could provide.
    I will go and take a look and try to answer your question. 
We are prepared to make other tough decisions. The fact that 
Crusader was retained for the budget was not a decision taken 
lightly, and I'll go back and take a look.
    [The information referred to follows:]
                      The Procurement ``Bow Wave''
    The Army ``bow wave'' pertains to the Army's research, development, 
and acquisition (RDA) program in the extended planning period (EPP). 
The EPP extends beyond the current Future Years Defense Program (FYDP), 
in this case, fiscal year 2008-fiscal year 2019. The bow wave is the 
difference between the requirements during that period, and the 
anticipated funding level. In fiscal year 2003 constant dollars, the 
requirement is approximately $32 billion per year while the funding 
during that time period is about $25 billion per year. This difference 
creates a $7 billion RDA bow wave.
    The Army has a plan to reduce the effects of this bow wave in the 
EPP. First, the Army plans to continue to take risk by not funding 
certain Legacy Force modernization programs. In the past 3 years, the 
Army terminated 29 different programs and restructured another 16 
generating more than $24 billion for higher priority Transformation 
programs. In the current FYDP, the Army only funds about 60 percent of 
its requirements for modernization of the Legacy Force. By continuing 
to accept risk in the Legacy Force, the Army will be able to reduce the 
bow wave by $3-$4 billion per year. Next, the Army plans to continually 
reevaluate its RDA portfolio for programs that can be reduced as the 
technologies associated with the FCS mature. The Army expects to 
generate several billion dollars per year of savings in the future by 
doing this.
    The Crusader and Comanche requirements are fully funded in the 
Program Objective Memorandum (fiscal year 2003-fiscal year 2007). Since 
the costs to develop and acquire the FCS are still emerging, we are not 
in a position to say the program is fully funded at this time. We will 
be in better position to articulate the resource requirements and any 
unfunded requirements for FCS when the fiscal year 2004 budget is 
submitted.
    Lastly, the Army's strategy to reduce the bow wave in the EPP is 
consistent with its priorities to field six Interim Brigades by fiscal 
year 2007, field the first Objective Force unit of action by fiscal 
year 2008, and have initial Objective Force operational capability by 
fiscal year 2010. Although the analysis remains to be done, it is our 
belief that terminating Crusader will not significantly reduce the bow 
wave since Crusader funding is not a large component of the Army's 
program. Crusader procurement was to be completed by fiscal year 2015, 
and the Army's requirement for indirect fire support still exists, and 
those requirements will need to be determined. Because of these 
reasons, the Army would not have chosen to terminate Crusader to pay 
down the bow wave.
                           crusader precision
    Precision is and has been a requirement within Crusader's 
Operational Requirements Document (ORD) since its inception. However, 
it is not a key performance parameter (KPP). Improved accuracy will 
provide this howitzer with an overmatching lethality to achieve greater 
damage against the anticipated suite of threat targets. The howitzer 
will be firing at longer ranges and a much more rapid rate-of-fire than 
predecessor systems. To maintain effectiveness, greater emphasis on 
accuracy at greater ranges and rates of fire will be required.
    The updated ORD, currently being staffed within the building, has 
the following requirements for precision circular error probable (CEP).

------------------------------------------------------------------------
              Range (kilometers)                   Precision (meters)
------------------------------------------------------------------------
15............................................                       55
25............................................                       95
35............................................                      155
40............................................                      210
------------------------------------------------------------------------

    CEP is defined as the radius of a circle within which 50 percent of 
the projectiles fired will impact. Precision measures the tightness of 
sequentially fired, identically aimed projectiles. Contributors to 
precision error are random variations in muzzle velocity, projectile 
drag effects and gun pointing. One of the technological advancements 
onboard Crusader which addresses these variations is the integrated 
Projectile Tracking System (PTS). The PTS tracks each round fired along 
its flight path and computes its ``did hit'' data, which is then 
quickly compared to ``should hit'' data. These computations are then 
quickly applied to each subsequent round, making each of them more 
accurate than the previous shot. In fact, Crusader has already 
demonstrated a CEP of 96 meters at 30 kilometers, surpassing the 
established requirement.
    Target location accuracy must also be considered. Forward 
observers, unmanned aerial vehicles, and other target acquisition 
sources provide locations of targets for indirect fires. This 
determines the aim point at which howitzers will shoot, but there may 
be inaccuracies in the location.
    The best solution set comes from combining weapons precision with 
precision munitions and minimum target location error. When there is an 
exact target location or a very small target location error, precision 
munitions can maneuver directly to the target and are effective. For 
example, Excalibur's ORD requirement for accuracy for detonating 
projectiles is 30 meters or less with respect to the aim point, 
ensuring maximum effectiveness and to minimize collateral damage.
    Precision, while not a KPP of the Crusader system, is nevertheless, 
extremely important, and every effort is made to be as accurate as 
possible. For close support of maneuver, the paramount requirement is 
volume, or rate of fire, and range. We can overcome inherent 
inaccuracies as observers can adjust fires onto the target. As a 
result, weapon precision, though an important requirement, was not 
stated as a KPP. Visibility on this requirement, as well as all others, 
is ensured as the system goes through the Army Requirements Oversight 
Council/Joint Requirements Oversight Council (AROC/JROC) process. 
Crusader went through a system review in 1997 where the Office of the 
Secretary of Defense made precision a ``special interest'' topic to be 
briefed at the next Milestone review. The Army has maintained 
continuous oversight of this significant requirement throughout its 
development. Further, this area, among others, will be reviewed again 
as Crusader is scheduled to go through an AROC/JROC later this year in 
preparation for Milestone B, scheduled for April 2003.

    Senator Inhofe. Yes, and isn't it true, General, that these 
downsizing--these cuts, these cancellations--were done by the 
Army, not by DOD. You were working on this. Were some of these 
decisions to downsize-predicated on the assumption that we 
would have a Crusader?
    General Shinseki. That is correct.
    Senator Inhofe. Thank you very much.
    Chairman Levin. General, you have served our Nation with 
great honor and distinction, and you have maintained that 
tradition today. I know it was a very uneasy place for you to 
be, but you have carried it out, I think, with great honor and 
with great dignity. It has been of great assistance to this 
committee. It will, I hope, benefit the decision that we're 
going to have to make, along with the House on this matter.
    So, with that, we will stand adjourned, and again, please 
accept our thanks.
    General Shinseki. Thank you, Mr. Chairman.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
     schedule for fielding non line of sight future combat systems
    1. Senator Levin. Secretary Rumsfeld, the plan to cancel the 
Crusader program is partially based on the development of indirect fire 
systems as part of the FCS program. However, the FCS indirect fire 
systems are still high risk science and technology programs and are not 
expected to develop operational prototypes and enter system development 
and demonstration (SDD) until fiscal year 2007, according to the Army. 
For example, DARPA is expecting that NetFires will have a SDD phase 
that lasts 2 to 4 years. This will mean that NetFires will probably not 
be ready for deployment at least until fiscal year 2011. The Army has 
indicated that the deployment date may be even later, in fiscal year 
2014. Your testimony indicated that FCS indirect fire systems would 
play an important role in providing indirect fire capabilities after 
2010. It is important to note that most programs run into technical 
difficulties, which often delay their development schedules. Given the 
above considerations and assuming the absence of Crusader, what will 
happen to our indirect fire capabilities in the fiscal year 2010-2014 
timeframe if the production date of the non line of sight portion of 
FCS slips?
    Secretary Rumsfeld. In the event that non line of sight portion of 
the Future Combat System does not materialize in the fiscal year 2010-
2014 timeframe, the Department would have to place a higher reliance on 
other alternatives to accomplish the indirect fire mission. The defense 
program provides a rich mix of indirect fire systems. These systems 
include other towed and self-propelled artillery systems, mortars, 
rocket and missile systems, attack helicopters, bombers, AC-130 
gunships, naval surface fire support, and joint assets such as tactical 
aircraft (and their precision munitions), and cruise missiles. While 
Crusader would be better than any fielded howitzer, it represents only 
a single element of a broad array of U.S. indirect fire systems.

               multi-role armament and ammunition system
    2. Senator Levin. Secretary Rumsfeld, the Army is developing a new 
105mm howitzer system as part of its Multi-Role Armament and Ammunition 
System (MRAAS). This is being highlighted as an alternative to 
Crusader. However, the system is not planned to enter SDD until 2007. 
How long will it take for the system to get through SDD and into 
production and deployment?
    Secretary Rumsfeld. The MRAAS is currently a Science and Technology 
program that will be evaluated and is a potential candidate for FCS 
Block II fielding. It provides direct and indirect fire capabilities 
from a common armament system design to support the lethality needs of 
the Army's Future Combat System. Included in the development of three 
munitions, all based on common cartridge configurations, are: an 
advanced kinetic energy munition for 0-41 kilometers Line of Sight; a 
2-15 kilometer Beyond Line of Sight; and an 4-50 kilometer Smart Cargo 
Round for Non Line of Sight engagements. The benefit to the Army of the 
MRAAS System is the reduced logistics footprint associated with a 
common armament and ammunition configuration. MRAAS was not 
specifically designed to replace the Crusader. Under its current 
funding profile, MRAAS could enter SDD in fiscal year 2007. If the Army 
decides to go forward with MRAAS as an Acquisition Program, then MRAAS 
could enter Production in fiscal year 2011 and be deployed to the field 
in fiscal year 2012.

    3. Senator Levin. Secretary Rumsfeld, how does this date change 
with any technical problems that may occur?
    Secretary Rumsfeld. Unforeseen technical problems would add time to 
field the system.

    4. Senator Levin. Secretary Rumsfeld, how does the fielding date of 
this system factor into the Crusader cancellation decision?
    Secretary Rumsfeld. There is no relationship between the fielding 
date of the MRAAS and the decision to terminate Crusader.

           accelerating technology transition and deployment
    5. Senator Levin. Secretary Rumsfeld, the GAO has noted repeatedly 
that cost, schedule, and performance problems are more likely to occur 
when programs start with technologies at lower technology readiness 
levels. Is there a concern that artificially setting an FCS 
demonstration and deployment date, in the absence of the answers to 
many technical and doctrinal questions, will drive this program into 
the same problems?
    Secretary Rumsfeld. The Department of Defense will review the 
Future Combat System in May 2003 prior to its entry into System 
Demonstration and Development. At that time, the Department will assess 
the technology readiness levels (TRL) of the critical components of the 
Future Combat System. The formal assessment of the TRLs is required to 
establish confidence in the demonstration and deployment dates.

    6. Senator Levin. Secretary Rumsfeld, how will that affect our 
indirect fire capabilities in the timeframe fiscal year 2010-2014?
    Secretary Rumsfeld. If the Non Line of Sight variant of the Future 
Combat System is not fielded in the fiscal year 2010-2014 timeframe, 
the defense program provides a rich mix of indirect fire systems. These 
systems include other towed and self-propelled artillery systems, 
mortars, rocket and missile systems, attack helicopters, bombers, AC-
130 gunships, naval surface fire support, and joint assets such as 
tactical aircraft (and their precision munitions), and cruise missiles. 
While Crusader would be better than any fielded howitzer, it represents 
only a single element of a broad array of U.S. indirect fire systems.

    7. Senator Levin. Secretary Rumsfeld, accelerating FCS to 
operational status will require an efficient transition of technologies 
between the Army and DARPA. This connection has traditionally been very 
difficult to make. How will you ensure that these technologies will be 
accelerated through a notoriously slow acquisition system?
    Secretary Rumsfeld. The Director of the Objective Force Task Force, 
LTG John M. Riggs, is responsible for ensuring an expeditious and 
efficient transition of DARPA technologies into the Future Combat 
System. The Under Secretary of Defense (Acquisition, Technology and 
Logistics) will review the progress of the technology transition 
against the program's milestones. Additionally, we have established 
acquisition initiatives to improve the acquisition process. These 
initiatives include the use of spiral development, interoperablility 
mandates, realistic costing, competitive sourcing, and the publication 
of new regulations to shorten the acquisition cycle.

    8. Senator Levin. Secretary Rumsfeld, how will you ensure that 
there is adequate time for doctrine development and testing and 
evaluation?
    Secretary Rumsfeld. The Future Combat System will undergo a major 
program review in October 2002. The Milestone B decision will be in May 
2003. This will be the initial opportunity to examine the complete 
program as all of the vehicle configurations will be established and 
decisions will have been reached as to which technologies will be in 
Block I. If there is inadequate time for test and evaluation, schedule 
adjustments will be made as a result of the programmatic review.

                    utilizing crusader technologies
    9. Senator Levin. Secretary Rumsfeld, one of the plans that OSD has 
for a canceled Crusader system is to use any technologies that are 
appropriate as part of an accelerated FCS program. How will this be 
possible given the fact that many of the subsystems, technologies, and 
expertise reside with contractors who are not necessarily part of the 
FCS team?
    Secretary Rumsfeld. Once the appropriate technologies are 
identified, the Director of the Objective Force Task Force, LTG John M. 
Riggs, will be responsible for integrating the technologies into the 
variants of the Future Combat System. All technologies that were 
developed under the Crusader program can be applied to the Future 
Combat System. The Department of Defense funded these technology 
developments and is entitled to apply them to any new initiative 
irrespective of whether or not the originating contractor is a member 
of the Future Combat System team.

                  joint requirements oversight council
    10. Senator Levin. Secretary Rumsfeld, in your testimony, you 
indicated that the Joint Requirements Oversight Council (JROC) is 
limited to looking at requirements and interoperability issues. This is 
in conflict to the understanding that Congress has had as to the role 
of the JROC, which was to include program reviews between formal 
acquisition milestone phase decisions, validation of mission needs 
statements and capstone requirements documents, operational 
requirements documents and key performance parameters, and overseeing 
the Joint Warfighting Capability Assessment Process. Has the role of 
the JROC changed and if so, what organization will provide the Chairman 
of the Joint Chiefs with advice to support his Title 10 
responsibilities?
    Secretary Rumsfeld. Your understanding as to the role of the JROC 
is correct and that role has not changed. The major responsibilities of 
the JROC are to oversee the requirements generation system, validate 
systems acquisition milestones before they are sent to the Defense 
Acquisition Board, oversee the Joint Warfighting Capabilities 
Assessment process, and advise the Chairman, Joint Chiefs of Staff 
regarding warfighting capabilities, requirements, and priorities. 
Crusader is an Army--only program and the Operational Requirements 
Document approval was delegated to the Chief of Staff of the Army on 
November 10, 1994; but Key Performance Parameters approval/validation 
was retained by the JROC.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                        impact on army's tactics
    11. Senator Thurmond. Secretary Rumsfeld, although resources and 
capability are key in determining whether or not to proceed with any 
weapon system, the need for the system to support the warfighter in a 
tactical environment must be included in the decision making process. 
In reaching your decision to terminate the Crusader, I understand you 
received input from both the budget and testing and evaluation 
communities. What input and from whom did you receive an evaluation of 
the tactical implications of terminating Crusader?
    Secretary Rumsfeld. The input that led to my recommending to 
Congress that Crusader funds be redirected is documented in two reports 
prepared by the Office of the Director, Program Analysis and 
Evaluation. These reports are:

        <bullet> ``Crusader: Overview of PA&E Analysis'', April 23, 
        2002.
        <bullet> ``Achieving A Transformation in Fire Support'', June 
        2002.

    12. Senator Thurmond. General Shinseki, what are the implications 
of Crusader's termination on the Army's capability to fight a 
conventional conflict?
    General Shinseki. The Army will be forced to accept risk in the 
short term. Crusader was a critical component of the total combined 
arms capabilities of our armored and mechanized forces of the 
Counterattack Corps--the Army's premier digitized, combined arms force 
and the Nation's strategic hedge as the Army transformed to the 
Objective Force. The reason we had Crusader was to increase the 
contribution of indirect fire support. We had to have extended range 
lethality to impose far greater killing power before forces were in 
contact, not over-rely on tactical assault for decisive results, 
account for enemy long-range precision lethality, and provide fires in 
close support of maneuver from dispersed locations. Superior lethality 
was possible from much smaller firing units to get the job done. 
Crusader provided very responsive and reliable fires on demand to 
forces in contact with comprehensive coverage over expanded operating 
areas.
    While Crusader was to go initially to the Counterattack Corps, it 
was always intended to be available to support the Interim and 
Objective Forces, as required. Crusader would have remained in the 
force through 2032, well beyond retirement of the Counterattack Corps. 
Crusader was intended to help provide the operational hedge that 
allowed the time for the development of Future Combat Systems non-line 
of sight cannon in approximately the 2014 timeframe.
    Without Crusader, the Army must now accept extended risk in this 
force as it transforms. Crusader brought about a transformation in 
dominant maneuver. It's unique characteristics were accurate, lethal 
fires at extended ranges out to 50 kilometers; high trajectory discrete 
or volume cannon fires against all threats in all terrain and weather 
conditions; high rate of fire of 10 rounds per minute to get the job 
done with smaller teams and less exposure; family of munitions effects 
scalable to mission, on-board C4, and sensor-to-shooter links for 
unprecedented agility of fires in response to forces in contact; and 
survivability and mobility.
    The loss of Crusader leaves us with a shortfall in terms of range, 
rate of fire and capability to conduct mutually supporting operations. 
This shortfall will not be fully mitigated until we have fielded the 
Future Combat Systems non-line of sight cannon combined with the 
networking of other Army indirect fires and systems and the ability to 
routinely employ Joint capabilities.

                          development process
    13. Senator Thurmond. Secretary Aldridge, the decision to terminate 
the Crusader is based in part on the understanding that systems more 
capable and transformational are in the development process. In fact, 
your briefing indicates that the Excalibur precision artillery shell 
which is scheduled for delivery in 2013 could be moved up to 2006. 
Considering that it currently takes decades to develop new technology, 
what assurance can you provide that Excalibur will be ready in 2006 and 
how do you plan to change the acquisition process to achieve this goal?
    Secretary Aldridge. In order to maintain the Excalibur program on 
course for an Initial Operational Capability by 2006, I have elevated 
the status of Excalibur to Acquisition Category ID. I am the Milestone 
Decision Authority. Additionally, we have established acquisition 
initiatives to improve the acquisition process. These initiatives 
include the use of spiral development, interoperability mandates, 
realistic costing, competitive sourcing, and publication of new 
regulations to shorten the acquisition cycle.

                          termination process
    14. Senator Thurmond. Secretary Aldridge, although I am not totally 
familiar with the process the Department uses to evaluate a weapons 
system, I understand it is very detailed and thorough. Can you assure 
us that you followed the established process and that this process will 
stand the scrutiny of a formal investigation?
    Secretary Aldridge. The Department uses a very structured process 
for program initiation and for program restructure which involves the 
Defense Acquisition Board (DAB). DOD 5000 defines these rules. However, 
DOD 5000 does not specifically address program termination and a DAB is 
not required. The Department of Defense had developed a study plan and 
started work on a rigorous AOA for Crusader. However, now that the 
President has submitted a budget amendment that proposes to redirect 
Crusader funds, the Department will not pursue that work. We will now 
refocus all analysis efforts on the Future Combat System. The study 
plan envisioned reporting initial results on the base case in October 
2002, interim results in February 2003, and final study results in 
April 2003. The schedule for the study was already very accelerated, 
and it would not be possible to complete the full study in a shorter 
period time.
    The AOA was to look at the planned Crusader system as the base case 
and examine as alternatives: (1) a ``feasible upgrade'' to the Army's 
existing system, the M109A6 Paladin and its Future Artillery Ammunition 
Supply Vehicle; (2) alternative munitions, both guided and unguided; 
and (3) accelerating the fire support technology programs linked to the 
Future Combat System. The Department has done thorough analyses of 
indirect fire approaches that support the decision to terminate 
Crusader. These analyses of indirect fire approaches that support the 
decision to terminate Crusader are documented in:

        <bullet> ``Crusader: Over of PA&E Analysis,'' April 23, 2002
        <bullet> ``Achieving A Transformation in Fire Support,'' June 
        2002.

                       why terminate crusader now
    15. Senator Thurmond. Secretary Wolfowitz, last year the Department 
conducted a series of strategic reviews including one of the 
conventional forces. In a press conference, Mr. David C. Gompert, who 
headed the group on conventional forces, answered when asked about the 
need for Crusader that: ``The answer I concluded was no, it doesn't 
really make that much of a contribution.'' Based on that assessment and 
similar findings by other groups, why did the Department continue 
funding the program in this year's budget request?
    Secretary Wolfowitz. Mr. Gompert's study group provided valuable 
input. However, it was not the only input which was used in deciding to 
terminate Crusader. Subsequent to the strategic reviews, the Department 
conducted a Quadrennial Defense Review and other assessments leading to 
the Defense Planning Guidance. The termination process intensified 
after the publication of the Office of the Director, Program Analysis 
and Evaluation report ``Crusader: Overview of PA&E Analysis,'' April 
23, 2002.

                            cost comparison
    16. Senator Thurmond. Secretary Wolfowitz, I personally believe 
that Crusader is a quantum leap technology and that it is long overdue. 
At the same time, I believe we must transform our forces to not only 
prepare them to fight the next war, but also to take advantage of the 
technology that is on the horizon. We must also be mindful that our 
Legacy Forces will be with us for the next 20 years and that they must 
be capable and modernized. Can we afford to both transform our forces 
and modernize our Legacy Forces?
    Secretary Wolfowitz. In order to afford the transformation of our 
forces and at the same time modernize our Legacy Forces, the Department 
will be making demanding decisions. The decision to terminate Crusader 
and use other DOD assets for the indirect fire mission is an example of 
the difficult decisions which must be made as we balance transformation 
and modernization.

    17. Senator Thurmond. Secretary Wolfowitz, what analysis has been 
done to determine the various costs of modernizing the Paladin 
artillery system, producing the Crusader, and developing and fielding 
both the Excalibur and NetFires Systems?
    Secretary Wolfowitz. In determining these costs, the Department has 
drawn on a variety of analyses. Key among them are:

        <bullet> Formal analyses of alternatives for Crusader's 
        Milestone I and scheduled Milestone II acquisition reviews.
        <bullet> Analyses conducted in 1999, when the Army changed its 
        orientation to a lighter, more deployable force and Crusader 
        was restructured to reduce its weight.
        <bullet> Analyses supporting the 2001 Quadrennial Defense 
        Review.
        <bullet> Analyses conducted for the fall 2001 program review 
        and the fiscal year 2003 budget development process.
        <bullet> Analyses undertaken during the spring of 2002 
        examining the status of the Crusader program and exploring 
        transformation alternatives.

    These analyses are summarized in the Department's June 2002 report 
to Congress, ``Achieving a Transformation in Fire Support.''

                          delay in termination
    18. Senator Thurmond. Secretary Aldridge, what would be the impact, 
in terms of cost and new system development, of the decision to delay 
the Crusader termination until next April when a formal milestone 
review is to be completed?
    Secretary Aldridge. The termination costs are subject to 
negotiation with the prime contractor and will include government costs 
such as salaries and test range support. The Army estimates that 
approximately $58.5 million of Fiscal Year 2003 Crusader funding may be 
required for termination in addition to residual fiscal year 2002 
funds. The cost to continue Crusader until its scheduled Milestone B 
decision would have been approximately $277 million. The cost of a new 
system is unknown at this point and will be defined once the variants 
of the Future Combat System are formally costed.

                     technical issues with crusader
    19. Senator Thurmond. General Shinseki, what are the current 
technical issues in the Crusader development and what steps is the Army 
taking to correct the problems?
    General Shinseki. Currently, there is no high technical risk in the 
Crusader development. The moderate technical risks in the Crusader 
development are cannon reliability and hardware/software integration. 
Each area is being addressed by a robust risk mitigation plan. Cannon 
reliability growth is a risk area because demonstrated reliability of 
prototype hardware is not currently meeting the planned growth 
projection to the objective requirement. Crusader is mitigating this 
risk by aggressive reliability growth testing on self-propelled 
howitzer prototype hardware at Yuma Proving Ground. This testing is 
identifying cannon failure modes, enabling implementation of design 
solutions before completion of the cannon design at the September 2002 
cannon critical design review. Also, an intensive reliability analysis 
effort is identifying additional potential cannon failure modes not 
seen in prototype testing. These failure modes are also being addressed 
during the ongoing design activity. Finally, an intensive system 
reliability analysis to improve reliability across all Crusader 
subsystems is being conducted to ensure that Crusader meets the system 
level reliability requirement. These mitigation actions continue to 
reduce risk and are expected to continue to close the gap between 
prototype hardware reliability performance and the objective 
requirement.
    Hardware/software integration is a moderate risk area because of 
the sheer volume of code, the number of functions within the system, 
and the degree of difficulty in real-time control of ammunition 
handling hardware. The initial software development focus was on 
system-wide architecture implementation and basic functions and is 
currently transitioning to optimizing performance. At this stage of the 
program, fixing software defects is challenging because of the number 
of interfaces that must be dealt with and the complexity of the 
functionality that resides in the code. Also, fault and tolerance 
performance allocations remain to be verified to mitigate safety and 
collision avoidance issues.
    Crusader is mitigating hardware/software integration risk with 
several approaches. The Integrated Crusader Environment and Crusader 
Integration Test Stand assets, along with a self-propelled howitzer 
prototype are successfully mitigating the risk associated with the 
firing functions of the hardware. Modeling and simulation has mitigated 
the collision avoidance and safety aspects of the software directing 
the hardware. Half of the objective software is developed and tested, 
thus mitigating the risk to the software development cycle in system 
development and demonstration. The software is broken out as separate 
threads to optimize functionality to program event needs and used in 
the approach of incremental development. Incremental development has 
allowed for checkout of the hardware/software interface by first 
exercising the single-step motion, and then transitioning to the 
functional operations of the hardware. The completed software also 
incorporates a ``halt on fault'' capability to mitigate any risk of 
personal injury or hardware damage.

                          future capabilities
    20. Senator Thurmond. General Shinseki, what are your assessments, 
both in terms of capability and development, of the Excalibur artillery 
round, the NetFires system, and the Precision Guided Multiple Launch 
Rocket System?
    General Shinseki. Excalibur provides global positioning system 
(GPS) based precision capability for delivery of 155mm cannon munitions 
where precision is critical to the engagement of the target. Today, we 
do not have the ability to engage high-payoff, discrete targets or 
targets in urban environments with great precision while minimizing 
collateral damage. While Excalibur was being developed for use with 
Crusader, its technologies for GPS-based precision must be incorporated 
into munitions for the Future Combat Systems cannon. Not only is 
greater precision afforded by the employment of Excalibur, but also the 
range of the weapon platform is increased, so that less frequent 
repositioning is required. As a result, enhanced flexibility is 
generated. Excalibur, however, should not be viewed as a general-
purpose munition suitable for all target types. Judicious target 
planning must be stressed in order to maximize the capabilities of this 
valuable combat multiplier. Excalibur is in development and we expect 
to field the Block I (unitary) in fiscal year 2008.
    The Army is pursuing NetFires as part of the Objective Force for a 
nonline of sight missile capability for the Future Combat System 
equipped unit of action. This system will operate within a networked 
system of systems that is enabled by a revolutionary command, control, 
and communications architecture that dynamically links all relevant 
sensors, fires capabilities (Army and Joint), and other assets. 
NetFires is made up of the munitions to include the precision attack 
missile and the loitering attack missile, the container/launch unit, 
and the command and control interface. The extended range and precision 
of these missiles provide an enhanced capability to destroy enemy 
forces and systems at extended ranges.
    The GMLRS family of munitions provides increased accuracy at 
extended ranges enhancing the ability to destroy enemy forces at depth. 
It is composed of both a dual-purpose improved conventional munition 
(DPICM) and a unitary variant. GMLRS unitary allows destruction of 
targets while minimizing collateral damage and unexploded ordnance 
hazards. GMLRS DPICM is in development with a scheduled fielding date 
of fiscal year 2006 and GMLRS unitary would be a new start program.

    [Whereupon, at 7:48 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
